<html>
<title> - [H.A.S.C. NO. 111-56]NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2010 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED ELEVENTH CONGRESS FIRST SESSION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


                                     

                         [H.A.S.C. No. 111-56]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2010

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

             BUDGET REQUEST FROM THE DEPARTMENT OF DEFENSE

                               __________

                              HEARING HELD

                              MAY 13, 2009

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

                  U.S. GOVERNMENT PRINTING OFFICE
54-550                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
  

                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          JOHN M. McHUGH, New York
SOLOMON P. ORTIZ, Texas              ROSCOE G. BARTLETT, Maryland
GENE TAYLOR, Mississippi             HOWARD P. ``BUCK'' McKEON, 
NEIL ABERCROMBIE, Hawaii                 California
SILVESTRE REYES, Texas               MAC THORNBERRY, Texas
VIC SNYDER, Arkansas                 WALTER B. JONES, North Carolina
ADAM SMITH, Washington               W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ELLEN O. TAUSCHER, California        JOE WILSON, South Carolina
ROBERT A. BRADY, Pennsylvania        FRANK A. LoBIONDO, New Jersey
ROBERT ANDREWS, New Jersey           ROB BISHOP, Utah
SUSAN A. DAVIS, California           MICHAEL TURNER, Ohio
JAMES R. LANGEVIN, Rhode Island      JOHN KLINE, Minnesota
RICK LARSEN, Washington              MIKE ROGERS, Alabama
JIM COOPER, Tennessee                TRENT FRANKS, Arizona
JIM MARSHALL, Georgia                BILL SHUSTER, Pennsylvania
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
PATRICK J. MURPHY, Pennsylvania      DOUG LAMBORN, Colorado
HANK JOHNSON, Georgia                ROB WITTMAN, Virginia
CAROL SHEA-PORTER, New Hampshire     MARY FALLIN, Oklahoma
JOE COURTNEY, Connecticut            DUNCAN HUNTER, California
DAVID LOEBSACK, Iowa                 JOHN C. FLEMING, Louisiana
JOE SESTAK, Pennsylvania             MIKE COFFMAN, Colorado
GABRIELLE GIFFORDS, Arizona          THOMAS J. ROONEY, Florida
NIKI TSONGAS, Massachusetts
GLENN NYE, Virginia
CHELLIE PINGREE, Maine
LARRY KISSELL, North Carolina
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
ERIC J.J. MASSA, New York
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
DAN BOREN, Oklahoma
                    Erin C. Conaton, Staff Director
                 Mark Lewis, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2009

                                                                   Page

Hearing:

Wednesday, May 13, 2009, Fiscal Year 2010 National Defense 
  Authorization Act--Budget Request from the Department of 
  Defense........................................................     1

Appendix:

Wednesday, May 13, 2009..........................................    73
                              ----------                              

                        WEDNESDAY, MAY 13, 2009
  FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                     FROM THE DEPARTMENT OF DEFENSE
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McHugh, Hon. John M., a Representative from New York, Ranking 
  Member, Committee on Armed Services............................     4
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Gates, Hon. Robert M., Secretary of Defense......................     7
Mullen, Adm. Michael G., USN, Chairman, Joint Chiefs of Staff....     9

                                APPENDIX

Prepared Statements:

    Gates, Hon. Robert M.........................................    77
    Mullen, Adm. Michael G.......................................    86

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Forbes...................................................   111
    Mr. Jones....................................................   111
    Mr. Smith....................................................   112
    Mr. Taylor...................................................   111
    Mr. Turner...................................................   112

Questions Submitted by Members Post Hearing:

    Mr. Bishop...................................................   131
    Mr. Hunter...................................................   136
    Mr. Kline....................................................   133
    Mr. Miller...................................................   116
    Mr. Nye......................................................   137
    Ms. Shea-Porter..............................................   136
    Mr. Shuster..................................................   135
    Mr. Thornberry...............................................   115

 
  FISCAL YEAR 2010 NATIONAL DEFENSE AUTHORIZATION ACT--BUDGET REQUEST 
                     FROM THE DEPARTMENT OF DEFENSE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Wednesday, May 13, 2009.
    The committee met, pursuant to call, at 10:03 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Ladies and gentlemen, we welcome you to 
today's hearing to review the budget request of the Department 
of Defense for fiscal year 2010.
    Appearing before us today are the Secretary of Defense, 
Honorable Robert M. Gates, and the chairman of the Joint Chiefs 
of Staff, Admiral Michael G. Mullen.
    We welcome you and appreciate your service and your being 
with us. Good to see you.
    Let me take a moment to thank you for what you are doing 
for our Nation. I am sure I speak for all the members of this 
committee when I express the respect, the admiration and 
appreciation that we have for both of you.
    You are doing a fantastic job for the young men and young 
women in uniform. We thank you for your service.
    There is always something special about the annual budget 
request hearing. It is symbolic of the principal of the 
separation of powers, and it signals the start of a very 
important process.
    Congress will give due consideration to this request from 
the executive branch and we will work with you to make sure 
that it reflects the national security priorities correctly.
    The challenges before us are great, and we have two wars to 
fight and to win. We have the spread of violent extremism to 
roll back. We have what seems to be an ever increasing array of 
new challenges to deal with from high-tech cyber attacks to 
old-fashioned pirates.
    Last Thursday, President Obama submitted his budget 
request, which includes $533 billion for the Department of 
Defense, which represents an increase of 4 percent from last 
year.
    These are tough economic times. Everyone knows that. And so 
I am encouraged to see some modest growth in the defense 
spending, even as the President attempts to strike a fiscally 
responsible balance.
    Still, I expect that we will find that the Department of 
Defense will have serious and compelling unmet requirements. It 
will be incumbent upon us to recognize them and mitigate the 
risks that they represent.
    But before we talk about that, first, let me commend you on 
delivering a bold product. Back in April, you said you would 
reorient the Department of Defense's strategic posture toward 
what you perceive as the most pressing needs--the wars we are 
fighting today and hybrid or irregular wars of tomorrow--all 
while retaining the superiority of our conventional, on the one 
hand, and strategic forces, on the other.
    That is not an easy task. And while I have some questions 
about your underlying assumptions, I applaud your effort.
    I am especially pleased to see that even as you do begin 
this process of reorientation, you have remained focused on the 
most critical component of our national security--our people. 
And I think the news media misses that.
    I think it is important and I am sure that you will point 
that out today, taking care of the people and the troops and 
their families.
    An increase of 8.9 percent in the military personnel 
accounts, 2.9-percent pay raise, all these are important 
examples of taking care of the service members and their 
families.
    You also have--you fully funded the defense health program, 
have not tried to reduce health care costs by raising TRICARE 
fees.
    The question that now faces us is what approach will the 
Department of Defense take to address the growing cost of 
providing health care.
    I remain concerned about the current readiness of our 
forces. Continuous combat operations over the past seven years 
have consumed readiness as quickly as it has gained.
    Repeated deployments, with limited dwell time, have reduced 
the ability of the forces to train across the full spectrum of 
conflict, putting the Nation at risk.
    Equipment shortfalls hinder the force's ability to train 
for and respond to other contingencies.
    In spite of this, the fiscal year 2010 budget, operation 
and maintenance request, basically leaves training at a steady 
state, in the case the Army tank miles reduces funding.
    I also worry about the ability of the Navy to rebuild their 
fleet. The fleet today is as small as it has been since the 
beginning of World War II.
    For the last few years, we have heard that the Navy's goal 
was at least 313 ships. Every year, there is a plan which shows 
increased ship construction in later years. Every year, those 
increased construction plans shift even further to the right.
    Today, we have before us a request for the construction of 
nine ships, but see no plan for future construction to guide 
our deliberations.
    It is not just ships that concerns me. It is very 
concerning that the Navy and Marine Corps strike-fighter 
shortfall is with us and when I do my math, simple arithmetic 
tells me that the Navy and the Marine Corps will be some 300 
strike-fighters short in the middle of next decade.
    On a more positive note, the request for missile defense 
provides our warfighters with real capabilities to meet the 
real threats faced by our country as deployed forces and as 
friends and our allies.
    It increases funding for the Aegis ballistic missile 
defense and the terminal high altitude area defense systems by 
some $900 million, and also increases funding for testing 
facilities.
    Regarding the wars we are fighting today, it is good to see 
a renewed focus on the challenge of Afghanistan and Pakistan. 
The President's new strategy for this region is well considered 
and supported here in Congress.
    Still, we do have some questions about it, especially in 
light of the leadership decision that you announced Monday. 
Now, you may wish to touch on that today.
    What are you going to need to get the job done? How are you 
going to go about it? Above all, how are you going to know if 
you have succeeded?
    Let me return for a minute to your attempt to reorient the 
strategic direction of the department. I know you have said 
that only about 10 percent of this budget represents funding 
for those new capabilities, while 50 percent goes toward 
additional war fighting needs and the remaining 40 percent of 
the budget supports dual-purpose capabilities that work in any 
scenario.
    But how do we get there?
    I repeatedly took the last administration to task for 
lacking an overall strategy, and I have been encouraging the 
Obama Administration to begin a holistic process of developing 
one.
    I need not go through the litany, which you have heard me 
before talk about how President Truman came up with an overall 
strategy and how President Eisenhower followed in the same 
footsteps.
    On top of that, we have heard that you have postponed some 
decisions until report of this year's quadrennial defense 
review (QDR), which will be released early next year.
    So help us understand the analysis you used to come up with 
this budget. We understand that those things deferred to the 
QDR need more analysis, but what about the decisions that were 
made now? And I hope you will touch on that, Mr. Secretary.
    Last, I would like to make two quick points. The first is 
to note that Congress still has significant concerns regarding 
the planned move of the Marines from Okinawa to Guam. At over 
$10 billion, it is an enormous project and I am concerned that 
the thinking behind it is not yet sufficiently mature.
    We need to do this, but this move needs to be done right. 
We can't undo what we have done, and that is why we need to do 
it right in the first place.
    The second is I would like to commend President Obama and 
you, Mr. Secretary, for your commitment to close the detention 
facility at Guantanamo and to review the legal process for 
bringing accused terrorists to justice.
    Please take a moment today hopefully to tell us where that 
review effort stands and what plan there is for detainees.
    Before I turn to my friend, my colleague, Mr. McHugh, John 
McHugh of New York, who is the ranking member of our committee, 
let me make a few quick administrative announcements.
    We will rigorously adhere to the five-minute rule. We have 
nearly everyone here today and it is important that we do our 
very best so that everyone can ask questions.
    We are starting today, we will have a noon short recess for 
approximately 30 minutes. The Secretary and the Admiral must 
leave at three o'clock this afternoon.
    So that is why we must do our best to adhere to the five-
minute rule. Of course, it goes without saying, there will be 
no outbursts or disruptive behavior from the gallery at any 
time.
    So, John McHugh, you are on.

  STATEMENT OF HON. JOHN M. MCHUGH, A REPRESENTATIVE FROM NEW 
       YORK, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McHugh. Thank you, Mr. Chairman. And thank you for your 
leadership, particularly for lunch. I know I speak for all the 
members. That is not something we normally schedule in and it 
sounds a bit flippant, but I am sure all of us appreciate that.
    I want to add my words of welcome to our most distinguished 
guests. I have said before, and I know we all believe very 
strongly, we are blessed as Americans to have such incredibly 
brave and sacrificing, in large measure, young men and women in 
uniform serving our interests across the planet.
    But they become that way because of great leadership, and 
we have with us today two truly great leaders, the head of our 
military on both the military and the civilian side.
    And I have found ups and downs with some of the things the 
new Administration has done. I have supported a lot of what 
they have attempted to do, but, clearly, in my judgment, two of 
the wisest decisions that are made is to keep these two 
gentlemen endeavoring on behalf of our United States military.
    And I agree with you, Mr. Chairman, we are indeed fortunate 
that they are with us and endeavoring so hard in all of our 
interests.
    As I have mentioned before, balancing has become a buzzword 
of late. It appears in Secretary Gates' very popular article in 
Foreign Affairs magazine, and it is really what I think can be 
fairly described as the animating principle behind the 2008 
national defense strategy.
    Certainly, balancing is not only unobjectionable, it is a 
good idea. I think it is important to note it is a lot easier 
to say than it is to do. And I guess the rub, gentlemen, is how 
we implement that balance, and that is where we do find 
ourselves today, of course, as we consider the president's 
fiscal year 2010 budget request.
    Just over a month ago, Mr. Secretary, at your April 6 press 
conference, you took what you described as the ``unorthodox,'' 
your word, I would agree, approach of announcing the 
department's request in advance of the President's budget going 
to the Congress.
    This was done on the grounds that, in your description, you 
were reshaping the priorities of America's defense 
establishment.
    As the chairman noted, that, too, as an objective, is 
certainly not objectionable and, in fact, has much that holds 
it for praise. But some of what you proposed, I think, can 
widely be agreed is appropriate, in particular, your efforts to 
make the entire department focus on and contribute to the wars 
we are in today, your careful stewardship of the wars in Iraq 
and Afghanistan, are highly commendable.
    But that said, as the chairman indicated in his statement, 
we are all interested in your decision to have Lieutenant 
General Stanley McChrystal and Lieutenant General David 
Rodriguez lead our efforts in Afghanistan, and I know many of 
us look forward to hearing your comments on that decision 
during this hearing.
    Mr. Secretary, it is the tradeoffs that come along with 
your April 6 announcement that give me, certainly, some 
concern. They were bold, they were dramatic. You heard the 
chairman's commendation for that quality.
    The programmatic and funding decisions in the budget, 
according to your prepared remarks at that press conference, 
were the product of a holistic assessment of capabilities, 
requirements, risks and needs for the purpose of shifting the 
department in a different direction.
    Now, it is undeniable you are taking the department in a 
different direction. The problem, Mr. Secretary, is, from my 
perspective, the Congress really hasn't had yet the benefit of 
reviewing the analysis and data to determine how those 
decisions will take the department in the best direction 
possible.
    In the view of many, this budget process has really not 
been holistic. The delayed release of the budget request, the 
infamous prohibition on providing briefs to Congress ahead of 
that release, and the absence of a future years defense program 
has left an undeniable vacuum of analysis and justification.
    Sadly, those circumstances help breed the very conclusion I 
suspect you wanted to avoid, that this proposal is a series of 
decisions whose only unifying theme is the aggregate fits 
within the top line.
    I hope we today can help dispose of some of these serious 
questions, because, as I said, Mr. Secretary, I know that was 
not your intent.
    I know there is going to be discussion that any effort to 
try to add back portions of this budget will be dismissed as 
simply the Congress attempting to protect big ticket defense 
programs. But I do think that perspective overlooks what gives 
many solid grounds for legitimate pause on some of these 
specifics.
    Importantly, the rationale offered for those proposals in 
April were not simply cuts to particular platforms, but there 
were major reductions to military requirements, as well.
    Longstanding assumptions about the capabilities needed to 
hedge against the risks we face were holistically changed. By 
way of example, we were told last month that additional F-22s 
are not required and, beyond that, the Air Force and Navy now 
require fewer strike-fighters to accomplish their missions 
under the national military strategy.
    Another example, the quadrennial roles and missions report, 
which made intra-theater lift a key focus in January of this 
year, has now become a requirement, apparently worthy of cuts 
in April 2009, less than four months later.
    Conversely, the budget funds other capabilities that are 
not yet formally validated requirements, such as the 
replacement for the Ohio class ballistic missile submarine and 
the Ticonderoga class cruiser.
    As we all know, Congress has a mandated process for 
attempting to reform and alter and restructure the requirements 
and capabilities of the department. That process, of course, is 
the QDR, the quadrennial defense review.
    The very significant changes in this request not only 
occurred outside the QDR process, but arrived at our door 
without a commensurate level of analysis or intellectual rigor.
    This committee has emphasized the need for this type of 
analysis. In the fiscal year 2008 National Defense 
Authorization Act (NDAA), we required the chairman of the Joint 
Chiefs of Staff to establish and assign priority levels for 
joint military requirements.
    These decisions seemed to be have been made outside that 
process. And the questions that arise out of all of this are 
simply these.
    Did the world change so much since the last QDR that we are 
somehow at less risk and require less capability?
    Can we really say that the threat of nuclear missile 
proliferation is now lower than it was four years ago to 
warrant such significant reductions to missile defense?
    Are we so confident in our diplomatic efforts with Iran and 
North Korea that we can afford a nearly 90-percent cut in the 
European missile defense and a 35-percent cut to our U.S. 
missile defenses in Alaska and California?
    Some of us, to say the least, are dubious. I worry we are 
tying both our arms behind our backs by reducing our defensive 
capabilities, while also reducing our nuclear forces, as the 
Administration plans to do in the context of the strategic arms 
reduction treaty (START) currently negotiating with Russia.
    As President Reagan quipped, ``Trust, but verify.''
    Your distinguished record, Mr. Secretary, has earned our 
trust, but you have not yet given us the analysis and the 
background that we need to verify those decisions.
    That leads me back to where I started, and that is at the 
top line in this budget. This budget is not a four-percent 
increase. At best, it is treading water. In real terms, it is a 
two-percent increase. And when you consider the migration into 
the base budget of items previously funded in the supplemental, 
the growth is closer to one percent.
    In an environment of bailouts and stimulus packages, when 
the federal budget has a $634 billion placeholder for health 
care without a program for spending the money, the message 
seems to be fiscal restraint for defense and fiscal largess for 
everything else.
    I think we can do better. That is our job, as the chairman 
noted.
    I would, Mr. Chairman, ask that the rest of my statement be 
entered in the record in its entirety.
    And just let me close by saying this. There is much that 
commends this proposal we have before us, with little time to 
do the analysis we need. That said, we stand ready to work with 
the Administration and, of course, as always, with you and the 
other members of the committee, Mr. Chairman, in doing the best 
we can by the men and women in uniform who serve us so ably and 
who these two gentlemen work so hard day in and day out to try 
to better the lives of.
    So with that, Mr. Chairman, I will yield back, and I look 
forward to the questions and answers.
    The Chairman. Without objection, your statement is placed 
in the record in total.
    Let me announce that I am told there will be one vote on 
the rule at 11:15. We will make that a very, very quick 
turnaround and, hopefully, everyone can be back in their seats 
immediately after that.
    We are pleased to have Secretary Gates, Secretary of 
Defense, with us today, and Chairman of the Joint Chiefs of 
Staff, Admiral Michael Mullen, to testify before us.
    The comptroller, Bob Hale will be here for questions, as I 
understand it.
    With that said, we look forward to your testimony, Mr. 
Secretary.

    STATEMENT OF HON. ROBERT M. GATES, SECRETARY OF DEFENSE

    Secretary Gates. Thank you, Mr. Chairman.
    Mr. Chairman, Representative McHugh, members of the 
committee, thank you for inviting me to discuss the details of 
the President's fiscal year 2010 defense budget.
    There is a tremendous amount of material here and I know 
you have questions, so I will try to keep my opening remarks 
brief and focus on the strategy and thinking behind many of 
these recommendations.
    My submitted testimony has more detailed information on 
specific programmatic decisions.
    First and foremost, this is a reform budget, reflecting 
lessons learned in Iraq and Afghanistan, yet also addressing 
the range of other potential threats around the world now and 
in the future.
    As you may know, I was in Afghanistan last week. As we 
increase our focus there and refocus our efforts with a new 
strategy, I wanted to get a sense from the ground level of the 
challenges and needs so that we can give our troops the 
equipment and support to be successful and come home safely.
    Indeed, listening to our troops and commanders, unvarnished 
and unscripted, has, from the moment I took this job, been the 
greatest single source for ideas on what the department needs 
to do both operationally and institutionally.
    As I told a group of soldiers on Thursday, they have done 
their job. Now, it is time for us in Washington to do ours.
    In many respects, this budget builds on all the meetings I 
have had with troops and commanders and all that I have learned 
over the past 2.5 years, all underpinning the budget's 3 
principal objectives.
    First, to reaffirm our commitment to take care of the all 
volunteer force, which, in my view, represents America's 
greatest strategic asset.
    As Admiral Mullen says, if we don't get the people part of 
this business right, none of the other decisions will matter.
    Second, to rebalance this department's programs in order to 
institutionalize and enhance our capabilities to fight the wars 
we are in and the scenarios we are most likely to face in the 
years ahead, while, at the same time, providing a hedge against 
other risks and contingencies.
    And, third, in order to do this, we must reform how and 
what we buy, meaning a fundamental overhaul of our approach to 
procurement, acquisition and contracting.
    From these priorities flow a number of strategic 
considerations, more of which are included in my submitted 
testimony.
    The base budget request is for $533.8 billion for fiscal 
year 2010, a 4-percent increase over the 2009 enacted level. 
After inflation, that is 2.1-percent real growth.
    In addition, the department's budget request includes $130 
billion to support overseas contingency operations (OCO), 
primarily in Iraq and Afghanistan.
    I know that there has been discussion about whether this 
is, in fact, sufficient to maintain our defense posture, 
especially during a time of war.
    I believe that it is. Indeed, I have warned in the past 
that our Nation must not do what we have done after previous 
times of conflict and slash defense spending.
    I can assure you that I will do everything in my power to 
prevent that from happening on my watch.
    This budget is intended to help steer the Department of 
Defense toward an acquisition and procurement strategy that is 
sustainable over the long term, that matches real requirements 
to needed and feasible capabilities.
    As you know, this year, we have funded the cost of the wars 
through the regular budgeting process as opposed to emergency 
supplemental. By presenting this budget together, we hope to 
give a more accurate picture of the costs of the wars and, 
also, create a more unified budget process to decrease some of 
the churn usually associated with funding for the Defense 
Department.
    This budget aims to alter many programs and many of the 
fundamental ways that the Department of Defense runs its 
budgeting, acquisition and procurement processes.
    In this respect, three key points come to mind about the 
strategic thinking behind these decisions.
    First of all, sustainability. By that, I mean 
sustainability in light of current and potential fiscal 
constraints. It is simply not reasonable to expect the defense 
budget to continue increasing at the same rate as it has over 
the last number of years.
    We should be able to secure our Nation with a base budget 
of more than $0.5 trillion, and I believe this budget focuses 
money where it can more effectively do just that.
    I also mean sustainability of individual programs. 
Acquisition priorities have changed from Defense Secretary to 
Defense Secretary, Administration to Administration, and 
Congress to Congress.
    Eliminating waste, ending requirements creep, terminating 
programs that go too far outside the line, and bringing annual 
costs for individual programs down to more reasonable levels 
will reduce this friction.
    Second, balance. We have to be prepared for the wars we are 
most likely to fight, not just the wars we have traditionally 
been best suited to fight or threats we conjure up from 
potential adversaries who, in the real world, also have finite 
resources.
    As I have said before, even when considering challenges 
from nation states with modern militaries, the answer is not 
necessarily buying more technologically advanced versions of 
what we built, on land, in the air or at sea, to stop the 
Soviets during the Cold War.
    Finally, there are the lessons learned from the last eight 
years on the battlefield and, perhaps just as importantly, 
institutionally back at the Pentagon.
    The responsibility of this department, first and foremost, 
is to fight and win wars, not just constantly prepare for them.
    In that respect, the conflicts we are in have revealed 
numerous problems that I am working to improve, and this budget 
makes real headway in that respect.
    At the end of the day, this budget is less about numbers 
than it is about how the military thinks about the nature of 
warfare and prepares for the future; about how we take care of 
our people and institutionalize support for the warfighter for 
the long term; about the role of the services and how we can 
buy weapons as jointly as we fight; about reforming our 
requirements and acquisition processes.
    I know that some of you will take issue with individual 
decisions. I would ask, however, that you look beyond specific 
programs and instead at the full range of what we are trying to 
do, at the totality of the decisions and how they will change 
the way we prepare for and fight wars in the future.
    As you consider this budget and specific programs, I would 
caution that each program decision is zero sum. A dollar spent 
for X capabilities excess to our real needs is a dollar taken 
from a capability we do need, often to sustain our men and 
women in combat and bring them home safely.
    Once again, I thank you for your ongoing support of our men 
and women in uniform.
    I look forward to your questions.
    [The prepared statement of Secretary Gates can be found in 
the Appendix on page 77.]
    The Chairman. Mr. Secretary, thank you.
    Admiral Mullen.

   STATEMENT OF ADM. MICHAEL G. MULLEN, USN, CHAIRMAN, JOINT 
                        CHIEFS OF STAFF

    Admiral Mullen. Mr. Chairman, Mr. McHugh, distinguished 
members of this committee, thank you for the opportunity to 
appear before you today.
    Let me start off by saying I fully support not only the 
president's fiscal year 2010 budget submission for this 
department, but more specifically, the manner in which 
Secretary Gates developed it.
    He presided over a comprehensive and collaborative process, 
the likes of which, quite frankly, I have not seen in more than 
a decade of doing this sort of work in the Pentagon.
    Over the course of several months and a long series of 
meetings and debates, every service chief and combatant 
commander had a voice and every one of them used it.
    Now, normally, as you know, budget proposals are worked 
from the bottom up, with each service making the case for 
specific programs and then fighting it out at the end to 
preserve those that are most important to them.
    If cuts are to be made, they are typically done across the 
board, with the pain shared equally.
    This proposal was done from the top down. Secretary Gates 
gave us broad guidance, his overall vision, and then gave us 
the opportunity to meet it.
    There would be no pet projects, nothing held sacred. 
Everything was given a fresh look and everything had to be 
justified.
    We wouldn't cut for the sake of cutting or share the pain 
equally for doing that, as well.
    Decisions to curtail or eliminate a program were based 
solely on its relevance and on its execution. The same can be 
said for those we decided to keep.
    I can tell you this--none of the final decisions were easy 
to make, but all of them are vital to our future.
    It has been said that we are what we buy, and I believe 
that. And I also believe that the force we are asking you to 
help us buy today is the right one both for the world we are 
living in and the world we may find ourselves living in 20 to 
30 years down the road.
    This submission before you is just as much strategy as it 
is budget, and let me tell you why.
    First, it makes people our top strategic priority. I have 
said many times and remain convinced the best way to guarantee 
our future security is to support our troops and their 
families.
    It is the recruit and retain choices of our families and, 
quite frankly, American citizens writ large, that will make or 
break the all volunteer force.
    They will be less inclined to make those decisions should 
we not be able to offer them viable career options, adequate 
health care, suitable housing, advanced education, and the 
promise of a prosperous life long after they have taken off the 
uniform.
    This budget devotes more than a third of the total request 
to what I would call the people account, with the great 
majority of that figure, nearly $164 billion, going to military 
pay and health care.
    When combined with what we plan to devote to upgrading and 
modernizing family housing and facilities, the total comes to 
$187 billion, $11 billion more than we asked for last year, and 
almost all of that increase will go to family support programs.
    I am particularly proud of the funds we have dedicated to 
caring for our wounded. There is, in my view, no higher duty 
for this Nation or for those of us in leadership positions than 
to care for those who have sacrificed so much and who must now 
face lives forever changed by wounds, both seen and unseen.
    I know you share that feeling and I thank you for the work 
you have done in this committee and throughout the Congress to 
pay attention to these needs. And I would add to that the 
families of the fallen.
    Our commitment to the wounded and their families and to the 
families of the fallen must be for the remainder of their 
lives.
    That is why this budget allocates funds to complete the 
construction of additional wounded warrior complexes, expands 
the pilot program designed to expedite the processing of 
injured troops through the disability evaluation system, 
increases the number of mental health professionals assigned to 
deployed units, and devotes more resources to the study and 
treatment of post-traumatic stress and traumatic brain 
injuries.
    I remain deeply troubled by the long-term effects of these 
signature wounds of modern war and by the stigma that still 
surrounds them.
    Last month, during a town hall meeting with soldiers at 
Fort Hood, Sergeant Nicole Sufman, an Operation Iraqi Freedom 
(OIF) veteran, told me they were not getting enough 
psychological help before and after deployments.
    I told her I thought she was right and that we were working 
hard to meet that need. She shot back, ``They are hiding it, 
though, sir,'' referring to the reluctance of soldiers and 
families to speak openly about mental health problems.
    Then she added, ``It is the cause of a lot of suicides, I 
would imagine.'' And I would imagine she is right.
    I have long believed that the stress of multiple 
deployments and the institutional pressure, real or imagined, 
to bear this stress with a stiff upper lip is driving some 
people to either leave the service or leave this life.
    It can also drive them to hurt others, as this week's 
tragic shooting in Baghdad appears to confirm. In fact, General 
Lynch out there at Fort Hood doesn't talk about suicide or 
crime prevention. He talks about stress reduction.
    That is where our collective focus must be, as well, not 
just from the mental health perspective, but across the force, 
in a variety of ways.
    After nearly eight years of war, we are the most capable 
and combat-experienced military we have ever been, the best I 
have ever seen; certainly, without question, the world's best 
counterinsurgency force.
    After all this success, we are pressed and still lack a 
proper balance between Operations Tempo (OPTEMPO) and home 
tempo, between Counter Insurgency (COIN) capabilities and 
conventional capabilities, between readiness today and 
readiness tomorrow.
    And that, Mr. Chairman, is the second reason this budget of 
ours acts as a strategy for the future. It seeks balance. By 
investing more heavily in critical enablers, aviation, special 
forces, cyber operations, civil affairs, language skills, it 
rightly makes winning the wars we are in our operational 
priority.
    By adjusting active Army Brigade Combat Team (BCT) growth 
to 45, it helps ensure our ability to impact the fight sooner, 
increase dwell time sooner, and reduce overall demand on our 
equipment.
    And by authorizing Secretary Gates to transfer money to the 
Secretary of State for reconstruction, security or 
stabilization, it puts more civilian professionals alongside 
warfighters in more places like Iraq and Afghanistan.
    Having just returned from a trip to Afghanistan, I can 
attest to the critical need for more civilian capacity. I was 
shocked to learn there are only 13 U.S. civilian development 
experts in all of southern Afghanistan, where the Taliban 
movement is strongest and the local economy is almost entirely 
dependent on opium production.
    We have twice that many working in the relatively peaceful 
Kurdish region of northern Iraq.
    I have said it before, but it bears repeating--more boots 
on the ground are not the answer. We need people with slide 
rules and shovels and teaching degrees. We need bankers and 
farmers and law enforcement experts.
    As we draw down responsibly in Iraq and shift the main 
effort to Afghanistan, we need a more concerted effort to build 
up the capacity of our partners.
    The same can be said of Pakistan, where boots on the ground 
aren't even an option, where helping the Pakistani forces help 
themselves is truly our best and only recourse.
    Some will argue this budget devotes too much money to these 
sorts of low intensity needs, that it tilts dangerously away 
from conventional capabilities.
    It does not. A full 35 percent of the submission is set 
aside for modernization, and much of that will go to what we 
typically consider conventional requirements.
    It fully funds the joint strike fighter (JSF) and F/A-18, E 
and F Super Hornet programs, buys another Arleigh Burke class 
destroyer, a nuclear submarine, and a third DDG-1000.
    It invests $11 billion in space-based programs, including 
funding for the next generation early warning satellite, and it 
devotes $9 billion towards missile defense.
    Ground capabilities are likewise supported, with $3 billion 
going towards a restructured Future Combat Systems (FCS) 
program and upgrades to the Abrams and Stryker weapons systems.
    We know there are global risks and threats out there not 
tied directly to the fight against al Qa'ida and other 
extremist groups, and we are going to be ready for them.
    In all this, Mr. Chairman, we are also working hard to fix 
a flawed procurement process. Programs that aren't performing 
well are getting the scrutiny they deserve. The acquisition 
workforce is getting the manpower and expertise it merits, and 
a struggling industrial base is getting the support and the 
oversight it warrants.
    More critically, in my view, the Nation is getting the 
military it needs for the challenges we face today and the ones 
we will likely face tomorrow, and it is getting more than a 
budget. It is getting a strategy to preserve our military 
superiority against a broad range of threats, new and old, big 
and small, now and then.
    Thank you for your continued support of that important work 
and for all you do in this committee to support the men and 
women of the United States military and their families.
    [The prepared statement of Admiral Mullen can be found in 
the Appendix on page 86.]
    The Chairman. Admiral, thank you very much.
    Mr. Secretary and Admiral, both of you mentioned the need 
for acquisition reform, and I am sure you know that a few days 
ago, this committee unanimously adopted and sent to the floor 
an acquisition reform measure that touches upon the major 
weapons systems, and it is scheduled to be taken up for a vote 
this afternoon in the full House of Representatives, and, 
hopefully, we can proceed there to conference with the Senate.
    Mr. Secretary, let me ask you a process question, if I may, 
the process through which you arrived at this budget.
    The QDR is downstream, late this year, to be made public, 
my recollection is, the first part of next year, and some 
decisions were made now regarding future budgets.
    Can you tell us the process, what assumptions, what went 
into the development of this year's budget? I would appreciate 
that, sir.
    Secretary Gates. First of all, Mr. Chairman, let me 
describe what I would call the analytical base of the decisions 
that we have made.
    One of the criticisms that has been fairly leveled at 
previous QDRs is that once they were done, there was a gap 
between what the QDR recommended and what actually showed up in 
terms of resource allocation.
    So I would say that, for me, beginning when I first took 
this job, my thinking in terms of some of these issues was 
actually established by the last QDR, elements of which had not 
yet been implemented, at least reflected in budgetary terms.
    Second was the national defense strategy that came out last 
fall that I think had a strong analytical base and provides a 
rationale for a lot of what you see in front of you.
    The third element, I would say, in terms of this process 
and the analysis, was the experience of both the uniformed and 
civilian individuals and leaders of the Department of Defense 
who took part in this process over a period of three months.
    It was intensive. There were virtually--there were meetings 
virtually every day, three and four hours a day for that three-
month period, and a lot of analysis got done in the middle of 
that process.
    Another, as I indicated earlier in my remarks, has been my 
own experience, not just in this job, but going back more than 
40 years in this national security arena.
    Another element was the process itself and the way we went 
about the discussions, the number of meetings with the military 
leadership, both collectively and individually. Members of the 
chiefs came to see me, in some cases, repeatedly, about 
different elements of this, and both uniformed and civilian 
Defense Department representatives will be more than happy to 
answer the questions of members of this committee on that 
process.
    As far as I was concerned, the inhibitions on people 
imposed by the nondisclosure agreement ended when the president 
sent his budget to the Congress. And so people will be prepared 
to answer your questions fully.
    I would say another element of this process that was 
important, from an analytical standpoint, frankly, was common 
sense. There are a lot of these programs that, as far as I am 
concerned, were kind of no-brainers.
    There were some of these programs where the decisions that 
I made were based on the fact that the programs were out of 
control, the requirements didn't make any sense, the costs were 
too high, they couldn't meet the schedule, and so on.
    So it didn't require deep analysis to figure out that those 
programs ought to be stopped as poster children for an 
acquisition process gone wrong.
    And I would just conclude my comments on this. First of 
all, we did--those issues where I felt--where the chairman and 
I felt that there wasn't an adequate analytical base to make a 
decision at this point, we did, in fact, defer to the QDR, but 
also to the nuclear program review, nuclear posture review 
(NPR) that will be going on simultaneously with the QDR, and 
that includes like the next generation bomber.
    It includes the amphibious capability. There were a number 
of areas where we felt we did not have the analytical basis to 
go forward.
    So let me conclude my answer to this question with a 
broader statement.
    I don't believe the problems that affect our strategy and 
our acquisition process are the result of a lack of analysis. 
The Department of Defense is drowning in analysis. There are 
enough acquisition reform papers to fill my office.
    It seems to me that we have a process that is paralyzed by 
analysis and that makes making tough calls very difficult.
    So I guess my bottom line, my bumper sticker would be the 
problem in the Department of Defense is not a lack of analysis, 
but a lack of will to make tough decisions and tough calls, and 
I think we have done that this time.
    The Chairman. Thank you very much.
    I will limit my questions and, from time to time, I will 
interrupt and ask future ones.
    Mr. McHugh.
    Mr. McHugh. Thank you, Mr. Chairman.
    Let's stay right where we are, Mr. Secretary. Your very 
fulsome answer suggests that there was a lot of analysis.
    I think part of the problem that we have is we had 
absolutely no clarity, visibility or any insight onto that 
analysis, number one.
    Number two, you talk about the individual systems that were 
involved in your decisions and how some members are probably 
going to take exception to that.
    I would agree, but my concern is on the process. You feel 
very strongly about the decisions you made, I recognize that. 
We have, however, in law, the quadrennial defense review 
process that isn't intended to do much of anything more than 
ensure that we have developed a strategy for success, whatever 
that success may be, that precedes the budget, that allows the 
budget to consider it.
    Having said that, I fully agree with you, at least your 
observation that the recent QDRs have been a total mismatch. 
But I would much rather have a mismatch where we have set an 
honest strategy and failed to provide the resources, because 
that accounts for who failed, than to set a false strategy that 
is somehow melded to a budget figure that has no relationship 
to the threat.
    And that is why this process that you undertook internally 
troubles me, because it doesn't comport with the QDR 
requirement; that, in fact, we were totally shut off from it.
    You mentioned the nondisclosure statements, that some call 
a gag order, that kept this Congress from doing its job, and 
that is what worries me.
    And as the QDR goes forward, and I will come to a question 
at this point, help assuage my concerns. How do we now not have 
a QDR process that is imbued with the conclusions that you have 
already made? That becomes a starting point, does it not?
    How do you un-ring that bell if the QDR proves to be a 
mismatch? Why are you not actually requiring the outcome that 
you don't want to see happen? This QDR is nothing more, 
upcoming, than a budget exercise.
    Secretary Gates. Well, I would disagree with that, Mr. 
McHugh. I think that there are a lot of analytical areas that 
we are going to pursue.
    But I would give you an example of the mismatch between 
QDRs and where we have gone with our resources.
    Since the QDR in 1991, it has been recommended that the 
Department of Defense move away from a two-MCO, two-major 
combat operation, fundamental approach to how we size our 
forces, and we have never done that.
    And I will tell you, this--you are saying that I am going 
to try and shape this QDR, my answer is you are darn right. And 
my view is that since 1991, it has been important to look at a 
world that was more complicated than two MCOs.
    And the fundamental question facing the QDR is how do we 
account for a world that is not accounted for by two MCOs, and 
that will have huge resource implications, but it will also 
have enormous strategic and force sizing implications.
    But that is a very overdue kind of thing and, frankly, I 
think that what is needed is both a managerial or executive and 
analytical leadership, and I am prepared to move down that 
road. And if I am on the wrong path, then I would be happy to 
give way to somebody else.
    But we will--you know, the other aspect is the notion that 
the Congress was excluded from the internal deliberations of 
the Department of Defense because of this process.
    The only reason the Congress was included in the internal 
deliberations of the executive branch process in the past was 
because the building leaks like a sieve.
    It wasn't through formal releases or formal briefings up 
here that the Congress found out what was going on. It was 
because they had a hotline to virtually every office in the 
building.
    So it seemed to me, for us to have a coherent approach that 
looked at all of the aspects of the budget, we had to be able 
to do that without leaks, and that was the only purpose of the 
nondisclosure statement.
    It was absolutely not intended to keep the Congress from 
knowing what is going on and, as I said, people from the 
department are prepared to come up here and talk about any part 
of this process that you all want to talk about.
    But I think that there is a strong analytical foundation 
here. It is grounded in the last QDR. I think it is grounded in 
the general direction that I have provided for the next QDR in 
the terms of reference.
    But I will assure you that the people in the Department of 
Defense are intellectually independent enough that they will 
take their own--if they have a disagreement with what I have 
said, I have no doubt that they will raise that and make it a 
part of the process.
    Mr. McHugh. Just for a point of clarification, Mr. 
Secretary, I am not talking about the budget development that 
is normally a source of tension between Congress and the leaks, 
whether they occur on the Virginia side of the Potomac or on 
the Washington side of the Potomac.
    I am talking about the analysis behind these very major 
decisions that you made that may be totally right, and, here, 
our discussion is a real result of the problem of the process, 
that may be right, but we have no idea.
    Normally, we would be provided those analyses as part of 
the QDR review. We were circumvented from having that 
opportunity.
    That is why I would suggest, respectfully, if you are going 
to break out into what you described as ``unorthodox,'' that 
was your word and I would fully agree with it, unorthodox 
process, there becomes a level of added responsibility on the 
analysis that would have behooved us all.
    You would not have to listen to me right now, which I am 
sure would be a great relief to you--you are not under oath, so 
you can say anything you want--and those of us on this side who 
really want to be a helpful part of the process.
    There is not a question there, but I just hope, as we go 
forward, we can have better lines of communications on the 
analysis. That is what troubles me, not your right to some sort 
of protections and keeping away from Congress on the budget 
process, I recognize that, as much as we like to have 
forewarning, but on analysis that leads to some pretty 
substantial platform recommendations without any valid analysis 
that we have seen.
    You can talk about what is in-house, we don't know that. So 
I appreciate your response and the opportunity to be here today 
with you.
    And, Mr. Chairman, I will yield back for the moment.
    The Chairman. Mr. McHugh, I would just like to say, first 
of all, I am always interested in your questions, but the 
purpose of this hearing and of the number of hearings that you 
have scheduled is, in fact, to provide an opportunity to hear 
the analysis that went into or the reasoning that went into 
these conclusions.
    And I would just make one final point. Had I waited--I did 
not want to miss the fiscal year 2010 opportunity to begin 
making changes in the direction of the Department of Defense 
and the way we do business.
    Had I waited for the end of the QDR and the nuclear posture 
review, had I waited for the end of all these processes, we 
probably would have been looking at the fiscal year 2012 budget 
before I began to have any real impact, and, frankly, by that 
time, I expect somebody else will be sitting here.
    Mr. McHugh. Well, I wouldn't wish from your lips to God's 
ears on that one.
    But let me just, if I may, Mr. Chairman, just say to you, 
Mr. Chairman, I recognize the imperatives the good Secretary 
was facing and the choices he made.
    Perhaps we should go back and look at Section 118 of Title 
10, which is the law that provides for the QDR, and make some 
sort of future accommodation, because, obviously, there is a 
mismatch between that requirement, as Congress has seen fit to 
insert itself, and what the pressures that Secretary Gates----
    Thank you. I would yield back.
    The Chairman. We are now under the five-minute rule.
    Mr. Spratt.
    Mr. Spratt. Mr. Secretary, Admiral Mullen, thank you both 
for your superb service to our country and for your fresh look 
at our armed forces.
    With the additional increment on the way to Afghanistan, I 
believe our total troop strength there, ours, will be about 
60,000. Is that correct?
    Secretary Gates. 68,000, Mr. Spratt.
    Mr. Spratt. Can you give us some notion of what you think 
will be the ultimate number of troops we will commit there, 
that we ourselves, not our allies, will have to commit there to 
get the mission done?
    Admiral Mullen. The 68,000 will be there at the commander 
on the ground's request, General McKiernan, later this year and 
what we are both developing are series of benchmarks to 
understand and assess where we are later in the year.
    There was an outstanding request from General McKiernan of 
about another 10,000, but that really is deferred and that was 
for really 2010, calendar year 2010.
    But what we want to do is see where we are later this year 
and then look at the requirements.
    From my perspective, based on what I understood sort of 
going into this whole strategic review, the output of the 
strategic review, is that were that additional requirement to 
be validated later on, and it has not been submitted nor has it 
been approved, but that that was about another 10,000 and that 
that was about right in terms of how I saw the fight and the 
number of troops that we would need.
    At this point, I don't see us moving to a level that we had 
in Iraq, for instance, or anything like that. But there are 
also circumstances which can change that and I certainly 
wouldn't want to close out the commander on the ground's views 
with respect to what he needs in the future.
    Mr. Spratt. You did know, paradoxically, that we needed 
additional troops with slide rules.
    Admiral Mullen. Those are actually additional civilians.
    Mr. Spratt. I understand that, but you need a civilian 
complement that is significant to achieve the mission.
    Admiral Mullen. Yes, sir. But that is a much smaller 
number, from an analytical standpoint, in the hundreds, not in 
the thousands.
    Mr. Spratt. If you are looking at slide rules, you will 
probably do better to look for Blackberries in Hewlett Packard, 
I think.
    Admiral Mullen. Relating my own experience here.
    Mr. Spratt. I believe it is your generation.
    Once we get the drawdown in Iraq underway, 8/31/2010, as I 
understand it, is agreeable to the joint chiefs, can we then 
expect to see an improvement in the dwell time so that we don't 
have one-to-one, we have 1.3, at least, to one?
    Admiral Mullen. Yes, sir. What I can see right now in terms 
of our deployments and what the commanders have requested, it 
is probably in about mid to late 2010 where we start to see 
dwell time increase beyond one-to-one significantly.
    We are seeing some of it now, but it is very spotty, 
particularly in the Army. Some units are actually home longer 
than one-to-one. But writ large, from a commitment standpoint, 
it is probably mid to late--it is the next 18 to 24 months 
before that really starts to show some relief.
    Mr. Spratt. What do we have to do to get our allies to pull 
their oar, to do more, to take on more serious responsibility 
within Afghanistan?
    Admiral Mullen. Well, I think we need to continue to engage 
them. I mean, that was a big part of, obviously, the North 
Atlantic Treaty Organization (NATO) summit request.
    They actually have stepped up with additional capabilities. 
The strong desire there is less--for me, anyway, less on the 
military side than on the civilian side, the other kinds of 
capabilities that we need, and some of our allies have done 
that recently.
    And I think we need to continue to make that requirement 
known and continue to push in that direction.
    I also think that security is going to get harder as we add 
more troops, but when we get to a point where security gets 
better, there will be additional civilian capabilities which 
would be added, tied to both better security and not just from 
governments, but also Non-Governmental Organizations (NGOs) and 
other kinds of requirements that we need.
    Mr. Spratt. One final question. Secretary Gates, you 
mentioned--Admiral Mullen, also--the stress and strain on our 
equipment in this harsh operating environment, and the 
circuitous route that--I was about to be gaveled down, I was 
waiting on it to fall.
    Given that concern, are you concerned about stopping the F-
22 at 187 planes and what will happen as attrition begins to 
take its toll on that force?
    Secretary Gates. Well, there is very little attrition on 
the F-22 force, since it has never flown a combat mission in 
either Iraq or Afghanistan.
    And I would just--knowing that the F-22 is an issue of 
interest to folks, I think it is important to make clear to 
everybody that we are not cutting the F-22 force. We are 
completing the program of record that was established in 2005 
in the Bush administration.
    That then called for 183 F-22s, that is the program of 
record, that 2 different presidents, 2 different secretaries of 
defense, and 2 different chairmen of the Joint Chiefs of Staff 
has thought was the right number.
    We now can add the Secretary of the Air Force and the chief 
of staff of the Air Force to that. So there is no cut in the F-
22 program and, in fact, over the next 5 years, 5-year defense 
plan, there is $7 billion in modernization money for the F-22.
    It will be an important part of our force, but we are 
completing a program, we are not cutting anything.
    The Chairman. Thank the gentleman.
    Mr. Bartlett.
    Mr. Bartlett. Thank you, Mr. Chairman.
    Gentlemen, thank you very much for your service to our 
country.
    My staff prepared some material for me and it began by 
saying ``I could not agree more with the comments made by our 
ranking member.'' I said, ``I haven't heard his comments, let 
me reserve judgment on that until I hear his comments.''
    Having heard his comments, I can say with great enthusiasm 
and conviction that I could not agree more with the opening--
with the comments made by our ranking member.
    Relative to that, Mr. Secretary, I have two questions 
regarding two of the programs that you have recommended major 
changes in.
    One is the joint cargo aircraft. This is a small cargo 
aircraft, originally envisioned by the Army. Their study said 
they needed 78 of them.
    At two recent hearings, I have asked the Army and the Guard 
if there has been any study that indicated that they now need 
less than 78. They told me there was no study that indicated 
they need less 78; in fact, they needed 78.
    It is my memory that the Air Force was kind of dragged 
reluctantly, some would say kicking and screaming, into this 
relationship. They needed 24 aircraft. That has not yet been 
added to the 28. That was going to wait until the Air Force had 
solidified their needs before that was done.
    Now, you are recommending that you cancel all the future 
planes to the Army. It was originally their program.
    I would just like some understanding as to what has 
changed, because both the Army and the Guard say that nothing 
has changed, they still need the 78.
    The next program that I have some questions about is the 
DH-71. So far, we have spent $3.2 billion on that program. I am 
told that if we now terminate it, there will be about a half a 
$1 billion cost in the industry and about a tenth of a $1 
billion cost in the Navy for terminating that program.
    That will be $4 billion, nine helicopters, none of them 
ready for service.
    If we did a make ready for five of them so that they could 
be used, that would cost $1.3 billion, I am told. This is about 
$260 million per aircraft.
    I know there is a concern about a five-year service life, 
that is all it has been certified for, but I am told that the 
father of Thomas Lockes was originally involved with the 
certification of the DH-3.
    The DH-3 now carries twice the load that it was designed to 
carry, and no one will argue that it has not had a very good 
30-year-plus service life.
    No one believes that the 71 is built less well than that 
and we believe that it could be certified for a very much 
longer service life than that.
    I am told that the manufacturer of the helicopter will 
commit to a firm fixed price bid for the original amount of 
$6.8 billion. This would mean that the additional cost of $1.7 
billion spread over 14 more aircraft; to bring it up to 19, it 
would cost us $120 million per aircraft.
    So this program was started. We made some shortcuts in how 
we procured this first increment, because, and I would like to 
quote, that there was ``an urgent need to get a more capable 
helicopter in the hands of the President.''
    What has changed, sir, that this urgent need has gone away, 
that we now can wait for a new procurement and use none of 
these aircraft?
    Wouldn't it make sense to go ahead and make ready the 5 of 
these 9 and to procure the next 14 at only $120 million each?
    Comments, please, on these two programs.
    Secretary Gates. First, on the joint cargo aircraft, the C-
27 has half the payload of a C-130 and costs two-thirds as 
much. It can use exactly 1 percent more runways or airstrips 
than the C-130.
    We have 424 C-130s in the force, \2/3\ of which are in the 
Reserve component.
    At this point, the Air National Guard has--and I would say 
we have 36 C-130s committed to both Afghanistan and Iraq.
    The reality is, here at home, we have over 200 C-130s that 
are available and uncommitted. So the notion that cutting or 
limiting the C-27 program somehow reduces the ability of the 
Air National Guard or the Army to respond to a national 
disaster or natural disaster or some other kind of disaster 
here at home is not sustainable.
    The 38 number comes simply from recapitalizing the Army's 
C-23 Sherpa program. We will be looking, as we go forward with 
the QDR, at the balance between the heavy lift helicopters, C-
27s, and C-130s.
    The 38 aircraft procurement will take us over the next 3 
fiscal years. So there will be no interruption in production. 
And so if, as a result of that analysis, there is a decision 
that there should be more, we have the flexibility to do that.
    But at this point, it does not seem necessary given the 
enormous available capability and capacity that we have in the 
C-130s to meet the need.
    Now, what has to change, and here is where I acknowledge 
the validity of one of your points, the Air Force culture and 
approach to how they support the Army in this arena has to 
change, and General Schwartz and General Casey are already 
talking about that in terms of how the Air Force becomes 
significantly more responsive to Army needs, and I think that 
they are going to make considerable progress in that.
    With respect to the helicopter, this is a program that was 
originally budgeted at $6.8 billion, is now headed toward $13 
billion. It is six years overdue. It does not meet the 
requirements of the White House. The first increment does not 
meet the requirements the White House has imposed by a long 
shot.
    The current helicopters the President has have had a usage 
life at this point of 30 to 40 years. The design life of the 
VH-71 is 5 to 10 years, and still does not meet the 
requirement.
    If we went forward with this program, each of the 
helicopters we bought would still be about $400 million apiece, 
and I think I have heard--you have heard the President speak to 
that.
    We think that this is a program where both the acquisition 
and the requirements process got out of control. We need to 
start over. The President does need a new helicopter over the 
next several years and it is our intent in fiscal year 2011 to 
return to this with a new proposal and a new bid for 
presidential helicopter, but one that is managed a lot more 
carefully.
    The Chairman. Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman.
    Secretary Gates and Chairman Mullen, thank you so much for 
your service.
    You mentioned the possibility, and I think that--I hope we 
do it right--the increase of our military presence in 
Afghanistan to about 58,000 soldiers.
    And my concern is the routes that we have, and I know that 
some of the equipment that we have--in fact, early last night 
or this morning, a military, our military depot was attacked 
and a lot of equipment was destroyed, and this is one of my 
concerns.
    But recently, a story surfaced by one of the TV stations 
and it was aired on KHOU in Houston, and it says the recent 
reports and firsthand accounts from service members returning 
from Iraq indicate that there is a shortage of bottled water, 
bottled drinking water.
    And I know we had this problem some time back, but this has 
surfaced, and, as a result, these service members claimed they 
are forced to improvise and sometimes end up drinking the bulk 
water, which may or may not be of drinking quality standards.
    And now some of these service members indicate that they 
are facing long-term health issues, kidney failures, et cetera, 
due to the necessity of not having to drink water that is clean 
and safe for them to drink.
    My concern is that if we don't have the proper routes to 
get there, if they cannot get the equipment and if they cannot 
get drinking water--have you been made aware of some of this 
problem, Mr. Secretary or Chairman Mullen?
    Admiral Mullen. Sir, I have seen the story that came out of 
Houston and am aware of that. We have checked to see if there 
is any shortage of bottled water, and, initially, that is not 
the case. I mean, that isn't the case.
    But we are not done and we will continue to wring this out. 
We are all very concerned about troops, obviously, in the field 
being provided what they need. It is a top priority for the 
Secretary and myself.
    In my recent visits, and I sit down and have discussions 
with them and I know the Secretary does, as well, that they do 
bring up some issues.
    This has not been one specifically, however. In fact, from 
a provisioning, overall provisioning standpoint, that has been 
a great strength of ours for a significant period of time.
    But if there is something here, we will certainly get back 
to you.
    Mr. Ortiz. You know, one of the things--we were there, the 
chairman and I and some other members, in Afghanistan and some 
of the soldiers that we spoke to said, ``We are happy to be 
here,'' which is the base close to the embassy.
    But what is life like at the forward operating posts now? 
And I know we have many of them and sometimes they are embedded 
with Afghanistanian troops.
    Do you feel safe that even though they are way out there, 
that they are getting their equipment and the materials that 
they need, not only the drinking water, but to be able to 
survive way out there in the boondocks?
    Admiral Mullen. I feel comfortable they are getting the 
provisions. Again, we are running this to ground to see if 
there is more there than we understand right now.
    But I have visited many of those Forward Operating Bases 
(FOBs). I have been out there in very stark circumstances. I 
have had meals with them. I have seen them resourced 
adequately. It is, obviously, not something that is available 
in the big mess halls or the big dining facilities on the big 
bases, but it has been adequate.
    And actually, as I have pulled on this, when I sit down 
with troops, I don't get any negative feedback.
    Secretary Gates. I would just add. I was in Afghanistan 
last week and visited 3 forward operating bases and had 3 
different meetings with a total of probably 600 soldiers and 
Marines and a lot of Q-and-A, and I didn't get a single 
question about their provisioning.
    Mr. Ortiz. I know my time is about up. Again, thank you for 
your service. Thank you so much.
    The Chairman. Thank the gentleman.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    And, Mr. Secretary and Admiral Mullen, thank you, as well.
    I want to commend you both on your comments about your 
concern about the wounded, your concern about the mental health 
and the physical health, and I want to thank you for the 
request that you put in, $47.4 billion, to fund military health 
care, and $3.3 billion for wounded, ill, injured, traumatic 
brain injury.
    That brings me to the issue that I want to bring to your 
attention and will have a question shortly.
    Six years ago, hyperbaric oxygen treatment (HBOT) was 
brought to my attention. Six years ago, I made an inquiry of 
the Department of Defense and I was told that this was a 
treatment that was being studied and that they saw pluses and 
minuses.
    Again, that was six years ago.
    I want to read a letter--part of a letter--excuse me--from 
three soldiers and Marines who received this treatment.
    This is from Brigadier General Pat Manny, United States 
Army Reserves. ``Seventeen months into Operation Enduring 
Freedom (OEF) tour, I was injured by an Improvised Explosive 
Device (IED) in August of 2005. I spent almost 20 months at 
Walter Reed before I was medically retired from the Army 
Reserve.
    After a year of conventional testing and treatment, 
pharmaceuticals, physical therapy, et cetera, I had not 
recovered enough to remain in the Army and, I believe, to 
return to my civilian job.
    A physician friend suggested HBOT, hyperbaric oxygen 
treatment. Thanks to several courageous, innovative Army 
physicians, I received 80 1-hour treatments at George 
Washington University Hospital before the process to 
involuntarily retire me was completed.
    I experienced excellent results and was able to resume my 
civilian career as a state court judge.''
    He further stated, ``Research may be appropriate, but known 
successful treatment is available and needed now. Congress 
should direct the Department of Defense and TRICARE to make 
HBOT available to wounded warriors.''
    Let me go now, because I want to get to a question before 
my time is up, Marine Corporal Brian Wilson from Massachusetts, 
and I have spoken to him, by the way:
    ``I served two combat tours of duty in Al Anbar Province in 
Iraq from January 2005 to August 2005, March 2006 to September 
2006.
    During the course of my first deployment, I was hit by two 
more IEDs. During the second tour, I was exposed to four 
additional explosive blasts while on combat patrol.''
    He also received hyperbaric oxygen treatment. And I further 
read, very quickly, ``Clearly, I would not be holding down the 
job I presently have and be medication free. My success is 
clearly the result of hyperbaric oxygen treatment I received 
from Dr. Harsh.
    I am firmly convinced that my fellow Marines and soldiers 
and sailors who have been diagnosed with Traumatic Brain Injury 
(TBI) or Post-Traumatic Stress Disorder (PTSD) and presently 
being treated with medication and counseling, rendering them 
unfit for duty or for reintegration back to the civilian world, 
would benefit from hyperbaric treatment.''
    I read from Colonel Bud Day, a hero of this Nation, Vietnam 
veteran, Medal of Honor winner, whose grandson was also 
wounded, a Marine. He sought hyperbaric treatment for him.
    This letter, Mr. Secretary, is just flowing with praise for 
this treatment. I will read one paragraph, and then I want to 
get to the question:
    ``From a purely practical standard and the issue of loyalty 
to these kids we have sent off to war, any treatment that we 
provide these young people is better than the gross neglect and 
bureaucratic intricacy that has been the rule rather than the 
exception.''
    Mr. Secretary, I want to ask you--I want to present these 
letters to your staff and I wish you would take time, and, 
Admiral Mullen, to read these clearly from these three men. 
Read what they are saying.
    I have been told, again, six years ago, we are studying 
this treatment. These letters and other letters, I think it is 
time that you say to the Department of Defense, the medical 
division, ``Please take this research you are doing and give 
me, within the next year, a report of where we are on this 
treatment, because I have talked to numerous Marines, I have 
talked to Army, that have had this treatment, by telephone, and 
they have told me, ``I am now a complete human being instead of 
being dependent on drugs, counseling.''
    I am not saying it would work in every situation, but as 
you said in your testimony, they deserve our best, if we have 
it.
    Can you say to this committee, can you say to me, can you 
say to the military that you will ask those who are researching 
and studying this issue that, that you will ask for some type 
of report sooner rather than later?
    Admiral Mullen. I mean, I can't speak for Secretary Gates 
on this in terms of that report, but I understand there is 
potential here. I am not a medical officer, not a doctor, sir.
    And as we have visited families, Deborah and myself, and 
some of the doctors--Veterans Affairs (VA) in Tampa is a good 
example. There is a doctor there by the name of Scott, who is a 
big believer in this.
    So I certainly will commit to pull on this as hard as we 
can to see where we are.
    What I have been told when I have asked about this is it is 
not Food and Drug Administration (FDA) approved. And so I fear 
what we are still doing is studying it. And if it has positive 
effects, we ought to be able to do it.
    I understand there aren't many down--there are no 
downsides. That is what I have been briefed before.
    So we can certainly take a very focused look on it and, if 
it has potential, I think, try to bring it forward.
    Secretary Gates. We will follow up.
    [The information referred to can be found in the Appendix 
on page 111.]
    Mr. Jones. Thank you, Admiral.
    The Chairman. Thank the gentleman.
    Mr. Secretary, Admiral, I have just been informed that 
there will be 3 votes, a 15-minute and then 2 5-minute votes, 
which will probably take about 30 minutes, and they will come 
shortly.
    With your permission, why don't we use that as the lunch 
break, so we won't have to have 2 back-to-back 30-minute 
recesses? If that is all right with you, we will proceed.
    Hearing no objection.
    Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    And, Admiral Mullen, I want to thank you, your sons, and 
your lovely bride, for your service to our country.
    Secretary Gates, I don't compliment people enough, but in 
your case, you deserve it. You have done, I think, a very, very 
good job of turning the department around.
    I particularly want to compliment you for your willingness 
to put the Mine Resistant Ambush Protected Vehicles (MRAPs) in 
service and the lives a day it saved. And I want to compliment 
you on your acquisition reform. I think you are very much 
heading in the right direction.
    A couple things I would like to ask you to consider. Your 
department has been very willing to send wounded warriors to 
the military academies, keep them in uniform, give them a 
chance to stay in uniform, and yet continue to contribute.
    I would hope you would consider expanding that to the 
Reserve Officers' Training Corps (ROTC) programs, the reason 
being that our fine kids from other parts of the country, other 
than the northeast or Colorado, who say, ``You know, I would 
love to get closer to my family while I am doing this,'' and I 
think that is why the ROTC programs would fill that gap, still 
provide the things that they are providing, still allow them to 
remain in uniform.
    Secondly, on your acquisition reform, I have got to notice 
with a bit of irony that one of the most troubled Navy 
shipbuilding programs is the Littoral Combat Ship (LCS), and 
yet you are asking for three of them.
    Again, just something ironic there, what I would ask of you 
is that given that what should have been a $220 million ship 
turned into almost a $600 million ship and going back to your 
analogy of the small cargo plane versus the 130, where you--you 
are now bumping up against DDG-51 prices and you are getting a 
ship that is about one-fifth as capable.
    The Chief of Naval Operations (CNO) has convinced me that 
he wants the ship. I am going to agree with him. What I would 
like to hear from you, though, is your plans to hold the 
contractors to the amount of money that you requested in the 
budget.
    What I would like to hear you say is that you are going to 
ask for firm fixed contracts. And what I would further like to 
hear you say is if the existing contractors will not live by 
those prices, I would like to hear a willingness on your part 
to take some of the money that would have gone to build those 
ships at that price, get a full set of specifications on the 
ships, put them out there for other people to bid on, because I 
have got to believe that what has been going on with these two 
contractors is unacceptable from the Navy's point of view and 
from the American taxpayers' point of view.
    Just your thoughts.
    [The information referred to can be found in the Appendix 
on page 111.]
    Secretary Gates. First, I think that having wounded 
warriors still in uniform be instructors for ROTC is a great 
idea and I will follow up on that.
    On the LCS, I think that what you have asked sounds very 
reasonable to me. I have left these ships in because we need 
this green water capability and we especially need it in places 
like the Gulf, the Persian Gulf.
    But the costs have escalated and if we want to buy 14 of 
these over the 5-year defense plan and 55 all together, 
clearly, we have got to get the costs under control, and I 
think your requests are quite reasonable.
    Mr. Taylor. Mr. Secretary, I appreciate that.
    I think the last thing I would ask of you, I think--and, 
again, I appreciate you trying to put your acquisition force 
back together.
    But what I think I have noticed is that you have an 
acquisition force that is pretty good at looking at a set of 
specs and saying, ``Yes, you are building it to spec.''
    What I don't think I see is an acquisition force that says, 
``You know what? If you bought this machine, you could do it 
faster, you could do it cheaper, and, above all, you could save 
the Nation some money as you build a ship quicker.''
    I would hope that would be one of the goals on this 
program, and I will use the LCS-2 as an example. My estimation 
is that over 95 percent of that ship was hand-welded. That is 
unacceptable in today's world. That would never happen in the 
commercial world.
    The commercial folks wouldn't put up with that and I don't 
think we should, and I think, again, part of your acquisition 
strategy ought to be getting the right people in there to tell 
them how to build them faster, quicker, and less expensive to 
the Nation.
    Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman from Mississippi.
    We can squeeze one more in before we take the quick break 
for the votes.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Mr. Secretary and Admiral, thank you both for being here. I 
share the respect that you have heard many members mention, but 
that respect can't serve as a shield to prevent me from doing 
my job and just expressing my frustration with what I perceive 
as a lack of transparency in this process.
    Mr. McHugh touched on some of that, and I would like to ask 
you a few questions about that. And realizing that I only have 
five minutes, I would just ask that we get those answers as 
brief as possible, and you can elaborate on them in written 
form.
    Several members of this committee have sent you a letter, 
dated May 5, asking you about some of those situations, 
including the nondisclosure requirement that you had and, also, 
the INSERV requirements for our INSERV inspections and 
classifying those.
    So far, we have not had a response on that. But as to this 
nondisclosure agreement, you heard Congressman McHugh mention 
that some people called it a gag order. The people that call it 
a gag order are many of the people that had to sign it.
    Can you tell us today how many people were forced to sign 
this particular agreement?
    Secretary Gates. I don't know exactly. I would expect 
probably several hundred.
    [The information referred to can be found in the Appendix 
on page 111.]
    Mr. Forbes. Could you get that number to us when you get a 
chance to verify about how many it was?
    The second thing is in this document, it says that they 
could not divulge it to any individual not authorized to 
receive the information.
    How did they know which individuals were authorized to 
receive information?
    Secretary Gates. It would have been within the Department 
of Defense.
    Mr. Forbes. Well, was that ever disseminated in any form so 
that they knew who they could talk to and who they couldn't?
    Secretary Gates. Well, sir, the question, I must say, of 
the people that signed it, that question never came to me.
    Mr. Forbes. Of those individuals, you have communicated at 
least--we got an e-mail, I got one at 7:14 this morning, saying 
that they could now talk about some of these budget issues.
    How has that information been disseminated to the people 
that have signed this document?
    Secretary Gates. I announced it at my staff meeting on 
Monday.
    Mr. Forbes. You announced it at your staff meeting. But as 
to the individuals that signed it, have they been sent anything 
indicating that that is the policy?
    Secretary Gates. Not yet, no, sir.
    Mr. Forbes. And the other thing is it talks about 
anything--it also mentioned any supplemental budget requests.
    Many of the things that weren't included in the budget 
could have also been included in a supplemental later this 
year.
    How will you differentiate what they can talk about and 
what they can't?
    Secretary Gates. As far as I am concerned, sir, the 
nondisclosure process is over.
    Mr. Forbes. And, Mr. Secretary, the only thing I will tell 
you is it is very, very difficult, when you talk about them 
coming in here and speaking their mind now, for us to expect 
that we are going to have a hearing where they walk in here as 
a uniformed member of our military and really say that they 
disagree with something that is in this budget.
    But suffice that to say, also, on the budget----
    Secretary Gates. On that score, sir, I can tell you that a 
couple of the service chiefs have been very direct with me 
that----
    Mr. Forbes. Well, they will come----
    Secretary Gates [continuing]. When they testify, they 
intend to say that they disagreed with the decision. So I don't 
think you have to worry about their candor at all.
    Mr. Forbes. Mr. Secretary, they will come over tomorrow and 
testify, I believe, some of them. Is that not correct? I think 
some of them are scheduled for--but yet they will come without 
having the unfunded list that will be available for them when 
they give their testimony.
    I think that is going to be the case. You might look into 
it.
    But in the little bit of time that I have got, also, it is 
my understanding that the statute requires that we have a 30-
year shipbuilding plan that is certified by you when the budget 
comes over.
    Have you submitted that plan and have you certified that 
this budget will comply with that plan?
    Secretary Gates. I don't think so.
    Mr. Forbes. Are you going to be doing that?
    Secretary Gates. The Admiral--well----
    Admiral Mullen. That is a Five-Year Defense Program (FYDP) 
issue, Mr. Forbes. And for this budget, with a new 
Administration, typically, we don't do that, and it will come 
in the 2011 budget.
    And I would say we can rely reasonably well on the 30-year 
shipbuilding plan that has been submitted before.
    Mr. Forbes. And, Admiral, my time is going out, but let me 
just say this. The reason that is in there is because you have 
to certify that the budget will meet the shipbuilding plan and 
if not, what the risks are.
    We are not getting that information. And I would just 
follow up with the fact that now we have had classification of 
these INSERV inspections. It is very important for us to know 
the status of our repair and maintenance budgets, because last 
year, this committee put $120 million in for ship repair and 
maintenance that was killed in the Senate.
    The problem is if we don't and can't talk about those 
INSERV failures that are coming out, it makes it very, very 
difficult for us to argue about the shipbuilding and--I am 
sorry--ship repair and maintenance needs that we have.
    And if we don't have this certification, it gives us some 
concern as to whether or not the budget that we have is 
actually going to meet that shipbuilding plan.
    So I would just ask you to take a look at that. I come back 
to what Congressman McHugh said. It is not so much your 
analysis--my time is out--but it is just the fact of the lack 
of transparency to help us conclude that analysis was correct.
    Thank you, Mr. Chairman.
    [The information referred to can be found in the Appendix 
on page 111.]
    The Chairman. Thank the gentleman.
    Before we break, let me ask, Mr. Secretary, a very quick 
question.
    There is such a thing known as the Pakistan 
counterinsurgency capabilities fund. You are familiar with 
that.
    Could you give us, in 25 words or less, how you think it 
should be structured?
    Secretary Gates. What I have suggested is that the $400 
million that is in the 2009 supplemental be allocated to the 
Department of Defense; that for fiscal year 2010--the concern 
has been where does the State Department get control of this 
program.
    And what I have proposed is that the money in fiscal year 
2010 flow through the Department of State to the Department of 
Defense so that the State Department gets the money and then 
that they would use fiscal year 2010 to build the capacity to 
be able to execute this program and then in fiscal year 2011, 
the entire program would go to the State Department, even 
though probably some significant portion of the money would 
still come to us to execute.
    The Chairman. Thank you very much.
    We will recess until 12:15.
    [Recess.]
    The Chairman. We will resume and, Dr. Snyder, you are up.
    Dr. Snyder. Thank you, Mr. Chairman.
    Thank you all for being here.
    Mr. Secretary, it is good to see you here again. I 
appreciate your presentation of this budget, what you are 
calling a reform budget. You have always been a very thoughtful 
man in your presentations here.
    It seems to me there is a passion here today that perhaps 
you haven't had in the past and although I am suspicious the 
passion may be this is the first time you have come before us 
in a long time, that you haven't had a cast or a splint or a 
bandage on or something.
    But I do appreciate the passion that you have shown for 
this process that you have gone through. You are being 
criticized for somehow it being a closed process. As near as I 
can tell, you wanted to have a deliberative in-house process 
with candor and then you present your budget for us to do with 
as we want.
    The Center for American Progress, a couple of months ago, 
put out two reports. One is ``Swords and Ploughshares: 
Sustainable Security in Afghanistan Requires Sweeping U.S. 
Policy Overhaul.'' And my only comment about it, I didn't see 
much new in this.
    I go back to your Kansas State speech that you made in 
November of 2007, in which you called for some dramatic changes 
in how we do national security with regard to the civilian 
side, and I appreciate the comments you made back there.
    The other publication they put out, though, is 
``Sustainable Security in Afghanistan: Creating an Effective 
and Responsible Strategy for the Forgotten Front.''
    And what this report says is, ``Two paramount national 
security interests of the United States are to prevent 
Afghanistan from once again becoming a safe haven for 
terrorists and to ensure the deteriorating security situation 
there does not envelop the surrounding region in a broader 
power struggle.
    Doing so will require a prolonged U.S. engagement using all 
elements of U.S. national power, diplomatic, economic and 
military, in a sustained effort that could last as long as 
another 10 years.''
    My question is--I am concerned that we are setting up a 
process here that is going on right now, whether we are dealing 
with the supplemental, that you all are going to get everything 
that we can give you as far as dealing with Afghanistan and 
Iraq for the next year, but that when we get to the next year 
after that, that you will start seeing some of us say, ``Well, 
wait a minute. It is not over yet. You haven't made as much 
progress as we thought you might.''
    Would you comment on how you see our commitment ought to 
be? My own view is going into this, we ought to recognize it is 
going to be a long-term commitment and somehow this is 
magically going to end in one year.
    But would you comment on that, please?
    Secretary Gates. Yes, sir. I think that early in the 
budgeting process, when we were doing out years and looking at 
these overseas contingency operations, we basically had a much 
lower number in the out years.
    It was basically little more than a plug in the budget, 
because we knew that we really couldn't estimate what the cost 
was going to be.
    I think that the $130 billion for 2010, it is down about 
$11 billion from 2009, it sounds like a pretty good estimate 
right now. The burn rate as of February was about $10 billion, 
a little over $10 billion a month. The obligation level was 
about $11 billion-plus.
    So I think we are in the right ballpark. But that number 
will come down, particularly in 2010, in calendar year 2010, as 
we substantially reduce our presence in Iraq.
    But I guess the bottom line answer to your question is that 
I believe that there will be war costs that will need to be 
covered in these overseas contingency operations portions of 
the bill for some years to come, and that is whether--that is 
on the assumption that we are successful.
    It is still going to take a sustained commitment, both 
civilian and military.
    Dr. Snyder. And so those of us who may want to say we will, 
at this time next year, be evaluating how well we are doing in 
Afghanistan, either we will be doing about the same, better or 
worse, that is not necessarily a predictor of how things are 
going to turn out over the long run.
    Is that a fair statement?
    Secretary Gates. Right, although I believe--I think that is 
an accurate statement, but my hope is, and I would characterize 
it as that, is that with the new strategy and with some changes 
and adjustments in our military approach, my hope would be that 
by the end of this year, we will begin to see a change in 
momentum at least, that we will be able to point to the fact 
that things are beginning slowly to turn in our direction.
    This is not a short term enterprise, by any means.
    Dr. Snyder. And I think that is a message that all of us 
need to be repeating, not just you, that this is not a short-
term enterprise, because otherwise we set up our brave men and 
women for some real problems if we somehow expect this to 
dramatically turn around in one year.
    Thank you all for your service.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. LoBiondo.
    Mr. LoBiondo. Thank you very much, Mr. Chairman.
    And, Mr. Secretary and Admiral Mullen, thank you very much 
for being here.
    I wanted to focus a little bit on a topic that 
Congresswoman Gabrielle Giffords and I have been attempting to 
raise over a period of time involving the Air National Guard.
    And they are predicting, as you know, Mr. Secretary, that 
in about eight years or so, a little bit of flexibility in the 
flying time or the hours, that about 80 percent of its air 
sovereignty alert aircraft units will begin running out of 
flying hours.
    In previous hearings on this issue, the committee has been 
assured that the Air Force is working on it and that everything 
will be okay and that we can just hang on a little bit more and 
we will see what the plan is.
    Well, I am really concerned that it has taken this long for 
the problem to be recognized. I really don't think that it has 
been properly addressed.
    And we need to understand that it appears, to at least some 
of us, that there is a lack of a plan or at least a lack of 
willingness to present to Congress whatever is being thought 
about of how to fill--you can call it a bathtub, you can call 
it the gap, the fighter gap, whatever it may be--to address the 
problem.
    And a big concern is that if we don't have a plan to do 
this and we run out of the legacy aircraft, Air Guard units 
will--what can they do if they don't have aircraft to fly? I 
mean, they go away. You can't mothball them. The people who are 
doing the mission are not going to hang around.
    And I think a vital link for our homeland security and 
national defense, because, as you well know, they are 
integrated fully into the war theater in what they do.
    I would be very interested to hear your thoughts and 
feelings on the fighter shortfall issue which is impacting the 
Air Force and the Navy and the Air Guard and just a little bit 
of a comment about how you are 75-percent solution to the 
problem fit into the fighter shortfall issue.
    Secretary Gates. Yes, sir. Let me offer a couple of 
thoughts and then invite Admiral Mullen to get into it.
    First of all, this is one of the issues, the number of 
Tactical Air (TACAIR) units that we need will be one of the 
issues that we are addressing in the quadrennial defense 
review.
    There are two ways to look at it. One is the force 
structure itself and, as you suggest, the need to keep the Air 
National Guard in a place where it makes the contribution it 
needs to make to the Nation, and that is a capabilities and 
force structure-based estimate and that is where you get the 
bathtub that you described.
    The opposite--another way to look at the TACAIR problem is 
in terms of our adversaries and what their capabilities are 
going to be, and how do you reconcile these two.
    And I think that is one of the issues that the QDR has to 
take into account, because if you look at it on a threat basis, 
just as an example, just to pick China, in 2020, the U.S. will 
have 2,700 tactical aircraft, the Chinese about 1,000 less than 
that.
    But of our number, we will have over 1,000 fifth generation 
airplanes and 1,300 fourth generation. They will have zero 
fifth generation aircraft.
    In 2025, we will have 1,700 fifth generation aircraft, plus 
reapers, and they will have a handful of fifth generation.
    So there is how you look at the threat as opposed to our 
force-based capabilities or our capabilities-based force 
structure, I think, are two different perspectives that lead 
you to, right now, at least, two different answers in terms of 
the number of TACAIR, and that is why I think the QDR needs to 
take a look at it.
    But let me ask Admiral Mullen.
    Admiral Mullen. I certainly recognize the challenge of the 
modernization piece to which you speak, and, clearly, you can 
only fly these aircraft to a certain point when their flight 
hours are done and you don't have--and you must replace them.
    But I see us at a time where we really are in transition to 
a new strike-fighter, and that is the joint strike-fighter. 
That is really our investment.
    We do have some challenges, obviously, in strike-fighter 
shortfalls, I think, in this transition, and then the work, the 
analytical work that I think has to be done is as described by 
the Secretary.
    What it doesn't mean is that 8 years from now or 20 years 
from now, we are going to be doing it exactly the same way we 
are doing it now, and I think those are some of the questions 
that are out there for analysis.
    That said, the strength of the commitment to air 
sovereignty levels and the need to meet that requirement is one 
we all recognize for the future.
    The Chairman. Thank the gentleman.
    Mr. Smith, please.
    Mr. Smith. Thank you, Mr. Chairman.
    And thank you, Secretary Gates, Admiral Mullen, for being 
here.
    I just want to offer my strongest possible support for the 
process that you went through in delivering this budget. I 
think your efforts are very commendable and absolutely critical 
to the future of our national security that we, as much as 
possible, follow the guideline that you have laid out.
    And I have got to tell you, I was practically cheering over 
here when you said that we have plenty of reports and plenty of 
processes, we needed to make decisions.
    After 12 years in this committee, I have watched those 
decisions get delayed by more process and more studies, and I 
can absolutely picture your office piled to the top with them.
    Somebody just needs to step up and say this is what we need 
to do and where we need to go and to make the hard decisions 
necessary to make it happen, and I believe that is what you 
have done and I applaud you for it and certainly want to try to 
support you as we work our way through the congressional 
process out the other side to actually have a budget that is 
implemented.
    In particular, you have placed the emphasis, I think, where 
it needs to be placed, recognizing that the type of warfare we 
face has changed. It has moved towards counterterrorism, 
counterinsurgency, irregular warfare.
    I believe you have also been visionary enough to mention 
the important role that the State Department needs to play in 
development strategy, in dealing with those counterinsurgency 
and counterterrorism efforts as we go forward, and you have 
shifted the budget priorities appropriately.
    If we are going to have a greater emphasis on those things, 
we need more Intelligence, Surveillance, and Reconnaissance 
(ISR), we need more support for the Special Operations Command 
(SOCOM), and those budget choices have been made.
    I think we need to go forward and continue along those 
lines. And it is not just in Iraq and Afghanistan and Pakistan. 
In North Africa, in the Horn of Africa, in Southeast Asia, we 
are fighting insurgencies at various levels and we need more 
equipment there, more ISR capabilities, most particularly, and 
more focus from the Special Operations folks to fight that, and 
we are not going to get there without some of the budget 
choices you made.
    I thank you for that and I thank both of you, also, for the 
appointment of General McChrystal in charge of Afghanistan, a 
Special Operations commander, who is kind of, to my mind, the 
unsung hero of Iraq.
    What he was doing there was not very well understood, but 
it was absolutely critical and I think it reflects, again, the 
shift in where the battlefield has moved and how we need to 
respond.
    Just one quick question. In the authorizing bill last year, 
we had authorized a report to study the personnel challenges 
within the Special Operations Command. They bring together 
folks from all the different services.
    Admiral Olson does not have that much control or, I think, 
any control in terms of pay and the various different decisions 
that are made in terms of managing the personnel are primarily 
handled on the service level.
    He has unique challenges, because they are all there 
together. I think he refers to it as a ``foxhole'' problem. If 
you have got a Navy SEAL and an Army Green Beret in the same 
foxhole talking about their lives and understanding that they 
are paid different, they have different benefits and different 
structures, it becomes a problem.
    So the point of the study was to bring the services 
together, talk about it, figure out where we are going forward. 
It has been done. It is in your office, is my understanding. No 
one has really said anything about it in terms of how you 
intend to act on it.
    I would like to urge that action and would be curious of 
any comments you have about what you plan to do.
    Secretary Gates. That is the first I have heard of it. When 
I get back, I will ask for you.
    [The information referred to can be found in the Appendix 
on page 112.]
    Mr. Smith. Okay, all right. Then I have served a purpose 
here this morning, I guess.
    Thank you very much, Mr. Chairman. I yield back.
    The Chairman. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary, appreciate you being here.
    I am the ranking member of the Strategic Forces 
Subcommittee, and so I have a number of concerns about the cuts 
to missile defense, all issues that I know other members have 
also raised and we will continue to work with you and DOD on in 
trying to address.
    My main concern is that by cutting future programs, we are 
cutting our ability to attain ingenuity, to be able to look to 
the future as to ways and things that we might yet invent that 
would protect us.
    But I wanted to talk to you today about a topic that does 
not have a budgetary cost if it goes directly to the issue of 
support for our men and women in uniform and does affect the 
upcoming National Defense Authorization Act.
    Over the past two years, I have authored an amendment to 
the National Defense Authorization Act that would protect men 
and women who are serving in the military from losing their 
children in custody battles based solely on their military 
service.
    Throughout our country, there are state courts that have 
entered rulings where they have punished, penalized our men and 
women who are serving, awarding custody to the other spouse 
solely on the basis of their service.
    A court in New York, for example, ruled that even the 
threat of deployment of someone who was in the service was 
enough for custody to be awarded to their ex.
    There have been courts that have ruled that the time they 
have spent away from their kids could be equated to 
abandonment, as if they had hopped on a Harley and gone to 
California to find themselves--no prejudice to California--
instead of actually serving their country.
    Now, the House has passed, three times, once as a 
standalone bill and twice as an amendment, language that would 
protect our men and women who are serving as part of the 
Service Members Civil Relief Act.
    The DOD opposes it and because of that opposition, it has 
failed in the Senate over the past two years.
    I am going to ask you two questions and the first one is 
pretty easy, because I want you to know that there have been 
several media outlets that have covered this and when they have 
done viewer polls of people on this issue, viewer sampling, 
this is a 98-percent issue.
    No one believes that anyone should lose custody of their 
children solely based upon their service in the military. So I 
am going to ask you your opinion that.
    And the second thing I am going to ask is--we have a real 
opportunity. We have about less than a month before the 
National Defense Authorization Act will go through this 
committee.
    I would like your commitment to have your staff to work 
with my staff and the staff of this committee so that we can 
come up with language that DOD would support, because the only 
goal is ensuring that if you serve our country, that you not 
lose custody of your children based solely on that fact.
    So the two questions to you, sir, are, one, do you believe 
it is right for people to lose custody based solely on their 
service in the military? And secondly, will you agree to work 
with us over the next month so that DOD's opposition, which I 
have the four-page memo of DOD's opposition last year, might be 
resolved and we could come up with language we could agree to?
    Secretary Gates. I am opposed to anything that 
disadvantages our men and women in uniform solely because of 
their service.
    I had not realized that DOD had opposed this. I am going 
back to Mr. Smith. I will go back and find out what that is all 
about and I will commit to you that we will work with you on 
it.
    [The information referred to can be found in the Appendix 
on page 112.]
    Mr. Turner. I greatly appreciate that. Thank you very much.
    Mr. Chairman.
    The Chairman. The gentlelady from California, Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    And thank you again, gentlemen, for being before us.
    Secretary Gates, please give us your thoughts about Kirkuk 
and Iraq's internal boundaries, which is a problem, I believe, 
that potentially threatens Iraq's future stability and which, 
in turn, could derail the Administration's goal of responsible 
withdrawal.
    And let me give you a little background of where I am going 
with this. Article 140 of the Iraqi constitution mandates 
boundary resolution with an orderly and democratic process of 
referendum so that Iraqis in these disputed areas will get a 
choice about what is done.
    This was supposed to happen by December of 2007, but it got 
bogged down. And it looks to me like Baghdad really doesn't 
want to or hasn't tried to address this issue.
    In fact, two weeks ago, the U.N. assistance mission in Iraq 
issued a long awaited report about this and while it reported 
on the ethnic cleansing and other issues that went on, in the 
analysis of the current situation, it didn't offer a path to 
restarting the Article 140 process.
    The report did, however, underscore the urgent necessity of 
a resolution to the disputed territories for the welfare of the 
people living there and for the future of peace and the 
stability of Iraq.
    And with tensions on the rise there, we have a U.S. 
infantry brigade in Kirkuk standing between the Iraqi army and 
the Kurdish militia and our own deadline of withdrawal next 
year, it seems to me that this is a critical issue for U.S. 
policy, because some of us doubt that we can really achieve 
responsible withdrawal without first doing something about 
these disputed boundaries.
    For example, in the Balkans, we learned the hard way that 
we should have gotten to that upfront.
    And maybe that is why Admiral Mullen and General Petraeus 
recently made a visit to Erbil, the capital of the Kurdish 
region.
    So my questions to you are: do you agree that letting the 
people in the disputed territories decide their own status 
through referenda, as required by Article 140 of the Iraqi 
constitution, is the best way to resolve this problem?
    Do you think they deserve a peaceful and democratic and 
permanent resolution to that so that we can responsibly 
withdraw our troops from Iraq?
    And since the report offered no alternative, is the U.S. 
committed to implementing the Article 140 before we withdraw 
next year?
    And lastly, the last Administration really had no policy. 
So does the new Administration have a policy on this and is 
this why we have seen these high level trips over there into 
that area of Iraq?
    Secretary Gates. Well, let me answer first and then invite 
Admiral Mullen to comment, since he has been there.
    First of all, we definitely support the carrying out of the 
provisions of the Iraqi constitution in terms of--in all terms, 
including Article 140.
    There has been a mutual agreement between the Kurdish 
regional government and the central government in Iraq to delay 
settling this, because they realize that they were not yet in a 
position to do so peacefully, and, therefore, to try and 
maintain the status quo, in particular, until the U.N. report 
came out.
    The U.N. report does make recommendations in terms of what 
the boundaries ought to be as a basis for discussion and 
negotiation between the Kurdish regional government and the 
central government in Baghdad.
    We are very supportive of that process. It is imperative 
that it be done peacefully.
    We are concerned about the potential for Arab-Kurdish 
tensions in terms of Iraq's future, and we would like to see 
this issue resolved as quickly as possible, but it is 
imperative that it be resolved peacefully.
    Admiral Mullen. Just, ma'am, on my recent trip, actually, I 
went there for a number of reasons, one of which, I hadn't been 
there before; two, recognizing the high level of importance 
that the future of Iraq has based on resolving these issues, 
these Kurdish-Arab issues.
    And we have had some challenges on the ground in recent 
months between the Peshmerga and the Iraqi security forces.
    That said, I sat with General Odierno yesterday, who walked 
through a recent operation where they had actually worked 
together, and I found that to be a very positive step.
    So the leadership--and we also listened yesterday to 
Ambassador Hill, and he has this as a very high priority to try 
and resolve.
    So, clearly, there are a lot of politics involved here 
between the Kurds and Baghdad and everybody recognizes the 
criticality of moving forward in a peaceful way so that the 
responsible withdrawal can continue.
    Ms. Sanchez. That would be great. I would just hate to see 
happen what happened in the Balkans, which was that those 
boundaries were not resolved.
    The Chairman. The lady's time has expired.
    Ms. Sanchez. Thank you, Mr. Chairman.
    The Chairman. Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here and for your service, 
great work.
    Mr. Secretary, I share some of the frustrations you have 
heard up here today about our inability to look into the 
analysis and the nondisclosure statements and our inability to 
talk with people that we have known and worked with for a long 
time.
    So I am not going to go back over that, but I do have a 
question about the unfunded requirements list.
    There has been an exchange of correspondence between Mr. 
McHugh, I know, and your office and on April 30, you sent out 
guidance to the service chiefs citing subsection (f) of Section 
151 of Title 10 that says the joint chiefs first inform the 
Secretary of Defense before making recommendations to the 
Congress.
    I guess I would like to understand. Is it your intention to 
then sensor that or to edit it or to filter it or are they just 
going to inform you and then they can do what we have been 
doing for the past decade or so, having a dialogue?
    How is that going to work?
    Secretary Gates. What I am trying to do, sir, is 
reestablish some measure of discipline in the Department of 
Defense, that people play by the rules.
    That means not having a President's budget where people 
come around the sides and come up and argue against the 
President's budget when they work in the Department of Defense.
    I didn't like it in the Bush Administration, and I don't 
like it in the Obama Administration.
    The other part of it is on this unfunded list, it is simply 
for me to know, according to the statute, they are required, if 
they have unfunded requirements, to inform me of that before 
they come up and testify to it.
    I have no intention of censoring them. I have no intention 
of curtailing it. I might ask them a question or two, like why 
didn't they put it in their budget submission to start with in 
the Department of Defense, but I have no intention.
    And as I indicated earlier in my answer to Mr. Forbes, you 
must be able to count on the candor of both the civilians and 
uniformed people who come up and testify in front of you.
    That is my guidance to them. I expect them to be candid, 
and I have no problem with the military officers, in 
particular, giving you their best professional judgment.
    That is required by law, and I intend to support you and 
them in that.
    Mr. Kline. Thank you.
    We appreciate that, because we simply cannot do our job 
here if we don't have that ability to have discussion. It is 
not fair to America if we can't have the ability to have other 
opinions and other ideas.
    I appreciate your desire to get some discipline in the 
military. I always thought that was a good idea in the military 
and sometimes struggled to find it in the years that I was 
there.
    But we really do have to have that conversation and I am 
pleased to know----
    Secretary Gates. And I would add it applies to the 
civilians, as well.
    Mr. Kline. Well, actually, I was thinking about the 
civilians. But we really must have that conversation. So I 
thank you for that.
    Let me jump to another subject here. I assume, in the same 
vein, now that the budget is here, if we have questions about 
something down in the weeds, like sole sourcing engines for the 
F-35, we are now free to talk to somebody about that. Is that 
right? Okay, thank you.
    And then before my time runs out, there is another issue 
that is of some continuing concern and that has to do with the 
National Reconnaissance Office (NRO).
    They are responsible for spending a lot of money and 
acquiring a lot of expensive equipment, and they haven't had an 
updated charter now in decades.
    And wearing another hat on another committee, I talked to 
the Director of National Intelligence (DNI), who said that, 
indeed, they were pressing ahead to get that charter, which 
would be brief, which I would applaud, 1 or 2 pages would be 
preferable to 30 or 40, but will allow the acquisition folks in 
that organization to do their job with oversight, but 
preferably without a lot of staff interference.
    And so you are, obviously, a very key player, Mr. 
Secretary, in the NRO and in the management of it and the 
functioning of it and the staffing of it and so forth.
    Are you engaged in that, as well? Can you tell us today 
whether we are going to see a new charter here in the next 
month or so and are we going to get this cleaned up so that we 
can fix that part of the acquisition problem?
    Secretary Gates. Director Blair and I are in full agreement 
on the need for a new charter for the NRO, and the only thing 
holding it up at this point is the appointment of a new 
director of the NRO, who would oversee that process.
    And I would expect that as soon as a new director is in 
place, that that effort will be undertaken as a high priority.
    Mr. Kline. Well, I hope so. It is just one of those things 
that has dragged out and dragged out and dragged out, and you 
know very well, in the Pentagon, by the time 15 staffs have 
reviewed it, these things die.
    And so please, please, let's see that.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    The gentlelady from California, Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And to Secretary Gates and Chairman Mullen, our country is 
really fortunate to have your leadership. Thank you. Thank you 
very much.
    I am going to try on three questions. I will ask them one 
at a time and see if I can get through this really quickly.
    Last week, my colleagues and I had an opportunity to meet 
with a group of military spouses, leaders within the military 
spouse community, at an event that the speakers sponsored and 
what we heard is that military families are resilient. You all 
know that.
    They value the service of their loved ones very much. But 
we also heard that our families are at risk of becoming burned 
out and even in light of their enormous sacrifice, many still 
believe that the American people do not understand or 
appreciate their sacrifice.
    And, in fact, one of their surveys demonstrated that 94 
percent of the American people do not appreciate their 
sacrifice.
    Chairman Mullen, I thought your comments today should be 
broadcast among the military community, because I think they 
demonstrate what we would like to signal to families.
    But how do you think we should deal with that? You 
mentioned institutionalizing more of the support for our 
families, but, clearly, there is still a perception and, 
clearly, they are still feeling very much that they are an 
isolated group in our country.
    Secretary Gates. Both of us probably ought to comment on 
this. Let me just say, out the outset, all of the services have 
very good programs for families and for taking care of the 
families of our men and women in uniform.
    The concern that I have and, in fact, just signed out a 
memo today, prompted by the op-ed in the newspaper just a 
couple of days ago by a military spouse, that what Admiral 
Mullen and I hear when we talk to spouses at posts and bases is 
very different than what we hear when we are briefed in the 
Pentagon and what we see is an unevenness of the application or 
the implementation of these programs.
    It depends on whether a commanding officer at a local 
facility has a passion for and is willing to support it and get 
in there and do whatever is necessary.
    It is questions about whether some of the volunteers who 
help the family should be paid, as was suggested in that op-ed.
    So one of the things that we are both focused on is how do 
we ensure that the very best practices are applied consistently 
across the entirety of the military.
    And it is not for a lack of programs or a lack of money. It 
is, in my view, mostly execution and we need to refocus our 
attention on that.
    Admiral Mullen. I share all those concerns. I do see a 
great unevenness. We are very concerned about the stress on the 
families, as well as on the force. That is a part of it. That 
gets to the dwell time issue, the repeated deployments, et 
cetera.
    What I want to try to--where I am focused is to try to 
reach to grassroots nationally, Guard, Reserve, I mean, 
throughout the country, so that there is a reach, and local 
support for families and I think we can do a better job of 
that, working through national organizations, chamber of 
commerce, United Service Organizations (USO), people that have 
that kind of reach.
    We just have to keep it as a priority and keep focused on 
it and make sure the programs are delivering.
    Mrs. Davis. Thank you.
    You mentioned that there is a lot of unevenness in the way 
that the programs or the services are institutionalized on 
bases. How does it affect one's career advancement to the 
extent or degree to which they are good at this and they care 
about it?
    Admiral Mullen. I think that, as in so many areas, great 
leaders are easily singled out and we can go to places where it 
is working well, and it is not just family programs. It is 
everything is working well.
    So those who lead well in this area have a tendency to lead 
well in combat. It literally goes together and it is pretty 
easy to figure out who those individuals are and, generally, 
they are promoted.
    Mrs. Davis. I just hope it would be quite open that however 
one treats that subject does have an influence on whether or 
not they are going to advance, in addition to many of the other 
qualities that we are looking for.
    I think that might make a difference. I would hope so.
    The other area is really in the individual augmentees, 
because for them, a lot of the support is not necessarily 
there. Again, we hear from many of the spouses in that area and 
a concern on the part of individual augmentees that the fact 
that, especially for the Navy and for airmen, they are out of--
they are doing things they weren't trained to do.
    And so they fear that their careers and the opportunities 
that they have to become more specialized have been diminished, 
and I just wanted to bring that out.
    And I really wanted to ask a question about Afghanistan, 
but, Mr. Chairman, I guess I have to stop.
    Thank you.
    The Chairman. Thank the gentlelady.
    Mr. Lamborn. Thank you, Mr. Chairman.
    And thank you all for what you are doing for our country.
    Last week, the congressional commission on the strategic 
posture of the United States presented their report on 
America's strategic posture. The commission recommended 
developing effective capabilities to defend against 
increasingly complex missile threats.
    Several missile defense programs were developing 
technologies to combat these complex missile threats and were 
the only ones focusing on the boost or ascent phase. These 
include the multiple kill vehicle, MKV, kinetic energy 
interceptor, KEI, and airborne laser (ABL).
    Your fiscal year 2010 budget kills MKV and KEI and reduces 
the ABL program to one aircraft.
    In light of these cuts, how does the Missile Defense Agency 
intend to address an enemy launch in the boost or ascent phase?
    Secretary Gates. First, I would say that we have very good 
capabilities at the terminal phase with Terminal High Altitude 
Area Defense (THAAD) and other systems. We have a good 
capability at midcourse with the ground-based interceptors, and 
we will robustly fund continued development of those to 
increase their capability, the ground-based interceptors.
    Boost phase is the toughest of all, because you have to be 
fairly close to the site of the launch for boost phase to be 
able to work.
    For example, the operational concept of the airborne laser 
would have required that that aircraft orbit--let's say the 
target was Iran--would have required an orbit almost entirely 
within the borders of Iran. This is probably a little 
problematic.
    And so what we have--but by the same token, I believe that 
when the boost phase issue is addressed, directed energy is an 
important opportunity for us in that regard, and that is why we 
have kept alive the airborne laser that we have, the aircraft 
that we have, and will robustly fund research and development 
(R&D) using that aircraft.
    The kinetic energy interceptor, this was a program that 
began as a five-year development program. It is now in its 14th 
year. It has never had a test launch. There has been very 
little attention given to the third stage or the kill vehicle, 
and, frankly, this was a program that wasn't going anywhere.
    Multiple kill vehicle was intended for a much more capable 
missile threat than is posed by rogue states. It was designed 
to deal with a more complex threat that would have come 
potentially from either China or Russia.
    The reality is U.S. policy with respect to missile defense 
under the current Administration and under its predecessor was 
that our missile defense was intended to deal with rogue 
threats, not a threat from China or Russia.
    This system, frankly, was incompatible with the policies of 
both Administrations, and that, in addition to various 
technology and acquisition issues associated with it, 
fundamentally, it was contradictory to the policy of both 
Administrations.
    We have every intention of continuing to fund R&D on boost 
phase, but, again, the central problem is you have to be very 
close.
    The kinetic energy interceptor also had no platform. It is 
a 23-ton missile, 38 feet long, couldn't be launched off Aegis 
ships. It would either have to have its own surface ship or 
something else, and it would have to be deployed very close to 
the site of the launch.
    So it was useless with respect to the Chinese and the 
Russians and, for the most part, the Iranians.
    Those are the reasons I did what I did.
    Mr. Lamborn. On the kinetic energy interceptor--and I 
appreciate your answer--aren't they very close to having a 
test? And with all the money that has been spent, shouldn't we 
ramp up the last several months before the test and see it 
through to that next stage if they are so close?
    Secretary Gates. As I understand it, there have been a 
couple of tests. They have not been flight tests and they did 
not go well. And it just seemed to me, given all the other 
problems with the program, the continuing to spend money was 
not the best place to put our resources.
    Mr. Lamborn. Thank you.
    Changing subjects here. In your April 6 budget statement, 
you noted, ``We will stop the growth of Army brigade combat 
teams at 45 versus 48, while maintaining the planned increase 
in end strength of 547,000. This will ensure that we have 
better manned units ready to deploy and help put an end to the 
routine use of stop-loss. This step will also lower the risk of 
hollowing the force.''
    When the original decision was made to grow the Army to 48 
BCTs, there must have been some good reasoning in making the 
determination that 48 BCTs met a certain requirement--okay.
    The Chairman. Please answer the question.
    Mr. Lamborn. And what has changed between that time and 
today?
    Secretary Gates. I think that when that force structure was 
first put in place, first of all, we didn't have 13,000 people 
in stop-loss. Second, we have something like 55,000 people in 
the Army that are not in deployed units. They are in training 
or whatever.
    I think that number is much larger than the institutional 
Army at the time that it established 48 BCTs, thought would be 
the case.
    The expansion of the number of brigade combat teams has put 
stress on the number of particularly company level officers and 
midlevel Non-Commissioned Officers (NCOs).
    And it was our judgment, the chairman's and mine, that it 
was better to make the units that we have robust, allow us to 
stop stop-loss, with the end strength that we have.
    If the Army can then move more people out of these 
institutional roles and into deployed units, then there is no 
question that, at some point, we could change that force 
structure, and, in fact, longer term Army force structure will 
be addressed in the quadrennial defense review.
    The Chairman. Thank the gentleman.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Secretary, I am glad to see you label your budget as a 
reform budget.
    I am a little perplexed that years of transformational 
budgets have led us to a reformational budget. That is what we 
have got out of transformation is reform.
    But at least we are here and trying to do the right things 
in the budget and later today we will be moving forward the 
acquisition reform bill on the floor.
    But I want to ask you just a few questions about a few 
platforms. One, I am glad to see the procurements for the 22 E-
18Gs are continuing on track.
    But in the broader scheme of things, with regard to 
electronic warfare (EW), you were asked, in March, at a press 
conference, about Air Force EW and, at the time, you responded 
you had not begun yet to think about Air Force EW.
    And as some of us who are trying to look at electronic 
warfare from a broader perspective, a defense-wide perspective, 
I am just wondering, have you begun to--in that time, have you 
begun to put some thought into Air Force EW or looking at the 
functional solutions analysis to come out of U.S. Strategic 
Command (STRATCOM) about EW to see where that might fit in in a 
broader context in the Pentagon?
    Secretary Gates. I have not directly, but the need for--and 
I will invite Admiral Mullen to speak, because I am sure he 
knows a lot more about it than I do.
    But I think the subject of how many more F/A-18s, Gs, 
especially, that ought to be bought, especially for the Navy, 
is going to be addressed in the QDR.
    Admiral Mullen. I think that is really important and it 
will be the combination of the Navy capability and the growlers 
and how many of them are focused on the Navy and how many of 
them are focused on the national mission.
    We clearly need an electronic warfare capability that goes 
beyond just the pinpoint capability that a growler has and 
that--and you know, I think you know, we have invested a lot of 
money and haven't produced much in the last 5 to 10 years, and 
we have got to move forward to make that happen, I think, both 
in the Air Force and in the Navy.
    So the Secretary's comments about QDR, very critical war 
fighting issue for the QDR.
    Mr. Larsen. And I think our hearing tomorrow is with the 
Navy and I will be asking questions about the expeditionary 
element and what happens there.
    Admiral Mullen. Sure.
    Mr. Larsen. The second question, Mr. Secretary. On the 1206 
and 1207, you have discussed a little bit in your testimony, 
but can you talk a little bit about how you see 1207 moving 
forward, since it expires this--the authority expires the end 
of this year and whether or not you want that to continue with 
more money folded into 1206, combined over at State?
    How do you envision that?
    Secretary Gates. Well, I think we have a--on 1206, if I 
recall correctly, we have a 3-year authorization at $350 
million a year. On 1207, I have proposed bumping that from $100 
million to $200 million.
    It has been a very worthwhile program, some of the things 
that we have been able to do with the State Department, and it 
is one of those dual key programs that both our concurrences 
involve.
    My inclination, we really haven't addressed post the next 
step in that and I think that is something that I will need to 
sit down with Secretary Clinton and also talk about within our 
own building in terms of the longer range future for 1207.
    But it has served a very valuable purpose going forward and 
if, in the mix of all the things that are being done in fiscal 
year 2010 and in the 2009 supplemental with respect to the 
State Department and resources and our capability to help them, 
once we have sorted through all of that, if there is a 
continuing need for the kinds of things that we are doing under 
1207, then it would be my recommendation to go forward with it.
    Mr. Larsen. And, finally, the obvious question from me and 
folks from Washington State, just on the KC-X tanker, still 
looking at a Request for Proposal (RFP) sometime in the summer.
    Will that be early, mid, late summer? Any more specifics on 
the timeline when that might be out?
    Secretary Gates. Hoping for early summer.
    Mr. Larsen. Hoping for early summer.
    Thank you very much.
    The Chairman. Thank you.
    I am a bit confused. Let me ask, Mr. Secretary, if the 
State Department has properly funded, why do we need 1207?
    Secretary Gates. Well, because it often involves security 
training, military training, supporting the things like what--
some of the things we have done in Lebanon.
    So that is why I say I just need to sit down with our own 
folks and with the State Department after we see what has 
happened in fiscal year 2010 and the 2009 supplemental with 
respect to the State Department to see whether there is a 
continuing need.
    The Chairman. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Gentlemen, thank you so much for joining us today and I 
thank you so much for your service to our Nation.
    Secretary Gates, recently, at the Naval War College in 
Newport, Rhode Island, you gave what I thought was a great 
speech and you went into some depth about our Nation's aircraft 
carriers, and you stated, ``No country in the rest of the world 
has anything close to the reach and firepower to match a 
carrier strike group, and the United States has and will 
maintain 11 until at least 2040.''
    You said, also, ``I might note that we have a number of 
expeditionary strike groups that will, in the not too distant 
future, be able to carry F-35s.'' And I applaud you for your 
commitment to maintain 11 carrier strike groups at least until 
2040, and I think that is very significant.
    What I wanted to ask is it seems like, though, in the 
proposal that you are putting forth, that you are proposing to 
go from 11, at least temporarily, down to 10.
    Can you comment on that and where you see our carrier 
strike force capabilities going?
    Secretary Gates. Let me defer to Admiral Mullen on this, 
but I think it has--it is a temporary thing, I think caused by 
a delay in the catapult system of the Gerald R. Ford.
    Admiral Mullen. It is tied to two things. It is clearly 
that and as we bring on the 11th carrier, and it is also tied 
to the decommissioning of the Enterprise, which is at her 
service life and we have invested and continue, because she is 
a unique eight-reactor carrier, we have continued to invest 
heavily.
    She is in a big maintenance period right now, as I am sure 
you know. So I think it is in 2014 and 2015, I think it is that 
24-month period, and that is risk I think that we are going 
to--I mean, I am comfortable taking that over that 24-month 
period as we bring the Ford out. And then, clearly, it is 11 
carriers until I think it is 2039.
    Mr. Wittman. So you are comfortable then strategically 
about where we are placed here with that 24-month window, at a 
10-carrier strike force.
    Admiral Mullen. I am, yes, sir.
    Mr. Wittman. All right, very good.
    I also appreciate your overview on the DOD 2010 budget 
proposal. I think it was very, very well thought out. And as it 
was stated there, it said the budget acknowledges that every 
taxpayer dollar spent to over-insure against a remote or 
diminishing risk is a dollar that is not available to care for 
America's service men and women, and I think that is 
extraordinarily cogent these days in the threats that we face.
    We are saying there that those dollars would either be 
available to reset the force or to win wars the Nation is in or 
to improve capabilities in areas where the U.S. is under-
invested and potentially vulnerable.
    If you look at the decision that was made on April 10 by 
the Department of Defense, where you announced a final decision 
on whether or not to permanently home port an aircraft carrier 
in Mayport, the focus there was that that decision was going to 
be made during the 2010 quadrennial defense review.
    And I was just wondering, in asking the questions about 
that and if we are talking about making sure that we are not 
putting dollars out there for remote or diminishing risks, I am 
wondering if having $76 million in this year's defense budget 
to upgrade the port there at Mayport specifically so that it 
could have an aircraft carrier, as they say, pull in there, is 
that really in line with the focus that was pointed out here 
with the budget as far as making the investment there in home 
port or should we not wait until the QDR process has worked 
itself out to determine if that truly is a capability that we 
need there at Mayport?
    Secretary Gates. I wrote a letter to Senator Webb in early 
December in which I said we have deemed it unacceptable to have 
only one carrier home port on the west coast, we have two, and 
that I thought the same logic applied to the east coast.
    I do worry about everything being concentrated in Norfolk. 
The money in the budget is to, at a minimum, provide some 
dredging and upgrading at Mayport that even in an emergency 
situation would allow one of our modern aircraft carriers to be 
able to dock there.
    I think the reason the issue has come up in the QDR is 
simply that the cost has risen significantly in terms of the 
home porting in Mayport. I stand by the letter that I wrote to 
Senator Webb, but at the same time, I think that there is a--in 
terms of there being a need for a second facility on the east 
coast.
    But at a certain point, the Navy has to figure out how best 
it wants to spend its money.
    Mr. Wittman. Thank you, Mr. Chairman. I yield the balance 
of my time.
    The Chairman. Thank the gentleman.
    Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman, Mr. Secretary, Mr. 
Chairman.
    I want to use my few minutes just to reinforce what you 
gentlemen said in your opening statements.
    First, let me say that I am thankful for your service. 
Before us, we have two of America's most distinguished public 
servants and we are grateful for your continued service to our 
country.
    I thought I heard in your opening statement, Mr. Secretary, 
that you said that the $533 billion base budget that we are 
presented with is more than adequate to take care of our 
Nation's security needs. Is that right?
    Secretary Gates. I consider it sufficient.
    Mr. Cooper. Sufficient, okay. And the four-percent growth 
in that budget is enough over last year to take care of our 
needs.
    Secretary Gates. Yes, sir.
    Mr. Cooper. I thought I heard the chairman of the Joint 
Chiefs of Staff say that--I think it was in your ten years of 
experience in dealing with such matters, that this has been one 
of the most open and transparent processes for the services to 
make their recommendations and to get a fair decision.
    Admiral Mullen. It has been the most open and the most 
transparent.
    Mr. Cooper. The most open and the most transparent.
    Admiral Mullen. And where uniforms had a vote throughout.
    Mr. Cooper. Well, I appreciate these findings, because in 
our degraded media environment, folks back home want to know if 
this is a good budget or not, plain and simple.
    And they want to know that you gentlemen, both of whom have 
served multiple presidents in both parties, have used your best 
professional judgment to make sure that our Nation's vital 
interests are protected.
    So I am grateful for that and I know that here on the Hill, 
you face Monday morning quarterbacks, backseat drivers, and not 
a few armchair generals, who sometimes speak more on behalf of 
parochial interests than on the national interests, and I think 
both of you gentlemen have in mind the national interests.
    So I am hopeful that--I know that you made tough decisions 
and I know that anybody can second guess most anything. I am 
hopeful that we will keep in mind on the Hill here the national 
interests, because money doesn't grow on trees, tough decisions 
have to be made.
    It is not easy to pick among spaces or defense contractors 
or anything or weapons systems, but I think you gentlemen have 
done an outstanding job.
    I haven't said this to some of the previous folks who have 
held your positions. So I am thankful you are there and I pray 
for your continued service.
    Thank you.
    The Chairman. The gentleman from California, Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    First question or statement, really, for Admiral Mullen. 
When you talked about the Operation Iraqi Freedom (OIF) veteran 
who was talking about combat stress, as a combat veteran of 
three tours, you can quote me, if you want to.
    I would say that prosecuting an enemy that wants to kill 
your family and mine and a lot of innocent Americans is 
probably the most uplifting and fulfilling thing you will 
possibly do in your entire life.
    Two, I think that we ought to be focusing on pre-enlisting 
screening and being more rigorous with that. No post-service 
screening would have saved those five American lives last week, 
because that happened while somebody was in.
    So if we really want to get down to it, we are going to 
have to be doing personality tests, stress tests, and emotional 
testing pre-service, before anybody gets in the military. This 
is not a Post Traumatic Stress Disorder (PTSD) after the fact 
question.
    This is a thing about combat being hard, being dirty, being 
stressful, and that is just the way it is. And I think that 
anybody who has been over there can tell you that, especially 
guys that get shot at, mortared.
    I have been shot at, mortared and everything else, and it 
is just hard. And I don't think that excuses saying that they 
are stressed, excusing somebody going off the deep end in Iraq 
and Afghanistan and killing innocent civilians.
    You can quote me on that, if you want to, I was an OIF vet, 
the next time you testify here.
    Going to Mrs. Davis' comments and questions, she represents 
San Diego, as do I, there has been a 19-percent increase in 
ships operation since 2002.
    And this article just went over some things that kind of 
contradict what you have been saying about the Navy. Most 
military transfers that the Navy has take place during the 
summertime so that kids can move without being pulled out of 
schools.
    There were 14,000 planned moves for this summer for San 
Diego sailors. Most of those have now been pushed off. So they 
are going to have to do midyear permanent duty transfers, which 
means that they are going to pull kids out of school.
    So if we are trying to make life easier for our military 
families, why wouldn't you pull them out during the summer?
    The reason that the Navy is doing this--lack of funding. 
Surface ships will remain tethered to their piers for more 
days. Sailors and aircraft crews will undergo more training 
with simulators.
    Lack of funding, we are not training them.
    She actually says, and Mrs. Davis touched on this, too--my 
wife and family had a much harder time dealing with this war 
than I did, because I was with my Marine friends overseas and 
we were doing what Marines do. The family is back here paying 
the bills, paying the insurance, taking kids to school and 
doing all of those things that they have to do.
    So why not accommodate them by giving the Navy enough money 
so that they can move during the summer as opposed to pulling 
kids out of school from elementary to high school?
    Once hefty reenlistment bonuses, except for Navy Sea, Air, 
and Land (SEALs) and some corpsmen, are being canceled this 
year, as of last week. Those hefty reenlistment bonuses are 
going to be gone.
    So you say that we are out here looking out for the men and 
women and that is the most important thing that we have is the 
men and women, yet we are cutting funding. I am not even 
talking about the ship repair gap in funding that we have in 
this country right now.
    But if we are going to take care of the men and women, 
let's take care of the men and women.
    You just had a piece of paper pushed to you. So I would 
like to get your comments on that.
    Admiral Mullen. Sir, I appreciate your service and the fact 
that you have been in combat and understand that.
    That said, I have been with an awful lot of soldiers, 
sailors, airmen, Marines who have been in combat and the stress 
level is high for them and their families. As you said, it is 
stressful. It is how do we deal with it.
    In addition to pre-screenings, tied to this tragic 
incident, we, obviously this week, there is also, I believe, a 
requirement to understand how it affects people when they are 
serving. So that when we are to release people, we understand 
what the risks are with someone who is returning out to 
society.
    And I think squad leaders and staff sergeants understand 
what those risks are probably better than anybody else.
    As far as the resources for the Navy, there are two issues 
there. One is the Navy needs the sup, the Supplemental, passed. 
And so they have taken steps specifically that are 
precautionary to make sure that they don't break the budget at 
the end of the year, and when the sup is passed, some of that 
is going to change.
    Secondly, in the personnel accounts, the manpower accounts, 
the Navy is over end strength. They must manage this to 30 
September, and there are very few places you can take money in 
the manpower accounts to manage that specific issue, and 
Permanent Change of Station (PCS) moves is an example.
    The other is that you will see the Navy, but all services, 
manage their reenlistment bonuses, their incentive bonuses tied 
to the needs, and I know that that is what the Navy has done.
    So I think when the sup passes, you will see relief there. 
Clearly, this is not intended to focus on families and not move 
them and we recognize the additional stress that that creates 
for a family right now.
    The Chairman. Mr. Marshall.
    Mr. Marshall. Thank you, Mr. Chairman.
    Mr. Secretary, I appreciated your comments that you have 
made to several members about wanting--not wanting to have a 
lot of voices within the Pentagon, within the civilian 
bureaucracy in the Pentagon, arguing against the President's 
budget, once the President's budget has been presented, and 
that puts us in an awkward position.
    I am sort of used to an environment--all my life has been 
as a lawyer, my professional career has been as a lawyer, where 
we believe firmly that judges get to the right decision by 
hearing arguments on both sides, not just the case made for a 
particular position, but the case made against that position, 
as well.
    So we are trying to do our best and will continue to try 
and do our best to probe with the experts, that means the folks 
working for you, why suggestions make sense and why they don't 
make sense, because ultimately we have to make decisions 
concerning whether or not the recommendations the President is 
making, that you are making, are the right way to go.
    And 90, 95, 99 percent of the time, as you know, 
historically, we are going to go with your judgment, that some 
of the time we do not, and some of the time we simply disagree 
based on the merits. It is not just parochial stuff, but it is 
purely on the merits.
    A balance has to be struck here, but I, for one, and I know 
an awful lot of my colleagues feel the exact same way, I am 
going to probe as best I can and I don't want somebody telling 
me they can't talk to me because, basically, that they have 
been buttoned up somehow by the Defense Department.
    If we need to change the law, we just change the law to 
give us the information that we need in order to make good 
judgment.
    Now, I am sorry for that sort of preachy little beginning 
here. The JCA, the joint cargo aircraft, I am a little worried 
that this could wind up being like the Caribou in the Vietnam 
era, and I very much appreciate that the chiefs are talking 
with one another.
    Air Force's role has been more strategic and strategic 
lift. What the Army is looking for is this last tactical mile 
support, which is what the Caribou gave in Vietnam.
    There were some suggestions that when the Caribou was moved 
to the Air Force, an awful lot of Air Force folks really didn't 
want to have that mission. A lot of Army people say that the 
mission was not as well executed as they needed it to be 
executed during the Vietnam era.
    So if the Air Force is going to have the last tactical mile 
mission that is contemplated by the C-27, there has got to be a 
really close link between the two.
    And the dilemma often winds up being who pays the bill, and 
Army might have a very different view of how that asset should 
be used in order to meet its mission and Army's willingness to 
pay the freight could be very different than Air Force's 
willingness to pay the freight.
    And somehow we haven't broken down those lines and as long 
as those lines remain, it seems to me that something that is 
integral to the tactical operations of one of the services 
perhaps should be with that service.
    I do think Air Force is probably the right choice for 
acquisition, sustainment, maintenance, that sort of thing. It 
is what Air Force does with platforms like that.
    Mr. Secretary, you said that we have to be prepared for the 
war we are most likely to fight, and I agree with that. The 
Institute for Defense Analyses (IDA), and I would imagine that 
certainly the Pentagon has seen the study, I don't know whether 
you have had an opportunity to read the study, but considering 
specifically the appropriate mix of lift.
    Where JCA is concerned, it seemed to me, as I read that 
study, at last the unclassified executive--or the unclassified 
summary of the study, it seemed to me they concluded that for 
the kinds of wars we think the engagement, these long-term, 
low-level engagements that they were going to be involved in, 
JCA is a very important, cost-effective ingredient to the 
solution.
    They actually recommend that a lot of JCAs be acquired, if 
that is the sort of fight that is contemplated.
    So I would simply ask you to maybe take a look at the IDA 
analysis as we move forward to the quadrennial review and that 
maybe we get more of these JCAs. That is certainly what all the 
requirements have been to date and it seems to me to be only 
logical in this low, sustaining kind of conflict.
    And I would ask for your comment about that, sir.
    Secretary Gates. Well, first of all, I would say that one 
of the more intriguing aspects or events during this process 
this late winter or early spring was that the agreement with 
respect to moving the JCA from the Army to the Air Force was 
actually made between General Casey and General Schwartz.
    We were basically bystanders on that one, and it was an 
expression of jointness that we sort of left us agape, frankly.
    But the reality is, and I think General Schwartz would tell 
you this, there are going to have to be changes in the Air 
Force culture about how these things get done.
    For example, when they load a C-130, they want it to be 
completely full. They are like a moving company and they don't 
want to head out unless they have got a full load, and that has 
got to change.
    The JCA is a niche player that is most cost-effective when 
there are three pallets or fewer and we have this enormous 
amount of available capacity in C-130s that can land at 99 
percent of the airstrips that a C-27 can.
    So we will look at it, as I said, in the QDR in terms of 
the relative balance. But we do have an enormous amount of 
capability that, at this point, is, and likely in the future, 
will be available and we need to figure out a way to take 
better advantage of it.
    Mr. Marshall. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Secretary, before I call on Mr. Franks, 
last year, the House required a comprehensive review that would 
provide Congress a better understanding of the science and 
technology and educational programs that are supported by the 
Department of Defense, particularly K (Kindergarten) through 
12.
    We understand that the report has been staffed and is in 
the beginning stages. And given your expertise as an educator, 
now as Secretary of Defense, you are in a position to 
understand the importance of the department's effort to develop 
and enhance efforts to encourage young Americans, particularly 
K through 12, to seek a career in science and technology.
    Mr. Secretary, we understand that there are many challenges 
in putting this report together, but we would request that you 
give it your personal attention at some point in the near 
future.
    Secretary Gates. Yes, sir.
    The Chairman. Thank you.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    Mr. Chairman, I think the first thing I would like to do, 
just so I can focus on a more particular thing, is to endorse 
the comments of Mr. McHugh. I think that he had broad-ranging 
statements here that were right on the money.
    Mr. Secretary and Admiral Mullen, we would like to thank 
you for being here.
    I guess I want to try to focus on the Missile Defense 
Agency (MDA) budget.
    Mr. Secretary, you have recommended some rather dramatic 
cuts in that, particularly investments in programs meant to 
defend against sophisticated threats.
    KEI, MKV, they are gone, and airborne laser has essentially 
been relegated to a research project. And I have to go on 
record that I think that that is incredibly the wrong direction 
to take this budget and our country on missile defense given 
the growing threats that we face and given the growing attitude 
of other nations that have missile programs even over and above 
the Air Force's.
    Now, I want to do as you have suggested and look beyond 
specific programs and look at the overall direction the 
Administration is going here. And I know that you are focusing 
on already mature systems that provide theater defenses, but, 
unfortunately, those defenses that provide protection against 
long-range missiles and sophisticated missiles are taking a 
back seat.
    And it is my sincere judgment that that places our 
population at a greater risk, especially in the out years, 
especially as these threats grow and especially as they 
develop, and future generations--it really concerns me 
tremendously.
    And I am also kind of overwhelmed by the notion that we 
have to cut missile defense, given the significance of it, by 
$1.5 billion, when we seem to have money for everything else on 
the planet, except defending the country, which is our first 
priority.
    Now, I understand that, Mr. Secretary, you take orders from 
someone else. So in the interest of time, I want to try to 
focus my discussions on your decision to stop emplacement of 
the additional ground-based interceptors (GBIs) and to cap that 
at 30.
    Last year, just last year, with the input from the same 
commands we have in place today, the recommended number of 
interceptors to protect the homeland from long-range missiles 
was 44. And ironically, a lot of the war colleges that I hear 
from are saying that in their war games, that they end up 
finding that they want more than even the 44 that was 
recommended.
    Now, obviously, something has changed or seems to have 
changed, in the Administration's mind, in the last 6 to 9 
months, when they decided to reduce the number from 44 to 30.
    So I would like to find out what exactly, in your mind, is 
the analysis that was done to reduce the number of GBIs from 44 
to 30. Was the Administration--did they perceive a change in 
threat or are we accepting a greater risk? And if we are 
accepting a greater risk, what is that risk?
    And, Mr. Secretary, I will ask you to go first, and, 
Admiral Mullen, if you would follow up.
    Secretary Gates. First of all, let me say that the 
recommendations that are in the President's budget came out of 
the Department of Defense and were not influenced by anybody 
from outside the Department of Defense.
    The ground-based interceptors in Alaska and California are 
designed to defend us against a missile from North Korea. The 
geometry doesn't work for basically any other country.
    And the judgment was that, based on our experience, that 30 
interceptors, and, particularly, if we continued to upgrade 
those interceptors, were adequate to meet that threat.
    In terms of your larger point, I would just say that the 
security of the American people and the efficacy of missile 
defense are not enhanced by continuing to put money into 
programs that, in terms of their operational concept, are 
fatally flawed or research programs that are essentially 
sinkholes for taxpayer dollars.
    That was my conclusion on a kinetic energy interceptor, 
five-year development program, in its 14th year, not a single 
flight test, little work on the third stage or the kill 
vehicle, et cetera, et cetera, no known launch platform, have 
to be close to the launch site.
    I am keeping the airborne laser program active. I believe 
directed energy is important. We are going to continue to put 
R&D into boost phase defense and we will continue to do that 
with the airborne laser.
    As I say, there are significant increases in this budget in 
terms of terminal defense, in terms of more protection against 
missiles for our troops in the field, through maximizing the 
inventory of SM-3s and THAADs and Patriot 3s.
    So I think this budget pays a lot of attention to missile 
defense. It is just trying to focus the dollars on real yield 
and on research programs that have some prospect of yielding a 
operationally sound concept and one that actually can come to 
fruition in our lifetime.
    Admiral Mullen. I would only say I have been in and out of 
missile defense since the mid-1990s and we have made a lot of 
progress on the near-term threats, where this investment goes.
    The challenges that we have in boost phase, specifically in 
boost phase, are enormous. I have felt ABL has been a flawed 
concept for years, quite frankly, because it made no sense, 
number of sorties, and I think the investment there to get at 
the high energy laser and that aspect of it is really critical.
    But until we move to a point where it looks like that R&D 
is going to produce something, then I very much favor the 
decisions that have been made that we keep those investments 
focused on boost. That is the toughest problem that we have, as 
well as the multiple kill vehicle.
    Those are two enormous problems and we need an R&D and 
Science and Technology (S&T) investment to know that we are 
headed on a clear path.
    I also think that the resources in this budget support the 
national security of the American people.
    Mr. Franks. Well, Mr. Chairman, I am still unable to know 
what has changed from last year's commands to this one.
    But thank you, thank you very much.
    The Chairman. Thank you.
    Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman.
    Thank you, Chairman, Mr. Secretary, for your outstanding 
service to this country. And I think everything that you have 
done today at his hearing further distinguishes your service to 
this country.
    Mr. Secretary, on page 4 of your testimony, I am going to 
read your comments about shifting away from the 99-percent 
exquisite service centric platforms that are so costly. ``With 
the pace of technological and geopolitical change and the range 
of possible contingencies, we must look more to the 80-percent 
multiservice solution.''
    I completely agree with that approach and I appreciate the 
fact that it animates much of what is in this budget.
    I wanted to focus on procurement reform and the meaning of 
that idea in procurement reform.
    Would you agree that the place at which we can best start 
to effectuate that 80-percent solution is in the requirements 
phase of the procurement process?
    Secretary Gates. Yes. I think one of the areas where we 
have not been sufficiently disciplined, and this came up time 
and time again as we went through these various programs over 
the last three months-plus, four months, is the requirements 
really weren't vetted properly and were flawed at the outset or 
where they were not flawed at the outset, they kept changing.
    Mr. Andrews. Right.
    Secretary Gates. And as anybody who ever added a room onto 
their house knows, once you have started building and once you 
start changing stuff, the cost goes through the roof.
    Mr. Andrews. That is exactly what happened to me. I wish 
you had been there to help me when it did.
    The question I want to ask you about that is that do you 
think that the present system gets enough input from the 
combatant commanders and the individuals who actually use these 
systems and define the need?
    Secretary Gates. Well, let me answer and then I think it is 
probably more appropriate for Admiral Mullen to answer.
    I think that one of the things we tried to do in this 
process--there is a procedure by which the combatant commanders 
each year submit their views of what the needs are.
    I think this year may have been the first time perhaps in a 
long time where they actually were invited into the process, 
both at the beginning and at various points along the way, to 
provide their view of what the needs were.
    Quite frankly, my perception in the couple, 2.5 years I 
have been in this job is that their description of their needs 
did not receive particularly high priority when the services 
came to making decisions, but that may be a misimpression.
    Mr. Andrews. One of the--yes, Admiral?
    Secretary Gates. Let me ask Admiral Mullen to comment.
    Mr. Andrews. We certainly want to hear the Admiral's views.
    Admiral Mullen. I would put the combatant commanders in 
sort of the 80-percent solution. That is where they would like 
to go here, first of all.
    Secondly, if I could just talk about requirements, because 
I think that is a critical part of the problem that we have.
    But there is also a point from where requirements go to 
where the contract gets signed, and that is space that is not 
visible, not transparent, not open to everybody.
    So that when I have a requirement or here are my dreams, my 
visions, what am I actually paying for? And there needs to be 
more clarification, more transparency, and more collaboration 
in this is what I really want when that contract finally gets 
signed to those who are going to go build whatever it is going 
to be.
    Mr. Andrews. We are trying to look in our panel at ways to 
address that concern and it appears that an awful lot of the 
cost overruns and schedule delays are in that 20-percent space 
to try to get us from 80 to 100.
    And what would you--you need not respond today, but one of 
the ideas we would like you to take under consideration is 
whether we should change our analytical metric from 
requirements to requirements and aspirations or requirements 
that are truly essential to the mission and for the protection 
and service of the warfighter versus those things which would 
be nice to have, but deserve a lesser degree of mandate.
    What do you think about that, conceptually?
    Admiral Mullen. I mean, you are trying to operate in that 
20-percent space, which is enormously difficult, because the 
system wants to go to 100 percent.
    So without commenting on the word itself, however you can 
limit that growth from 80 to 100 percent, I think, is 
absolutely critical; and over time, because they grow, as the 
Secretary said.
    Mr. Andrews. Have you ever seen a situation where the 20 
percent, you think, was really essential in saving someone's 
life or making their mission more achievable?
    Admiral Mullen. There are some where you would want to----
    Mr. Andrews. I wouldn't want to exclude them, but my sense 
is that we get an awful lot done in the 80.
    Admiral Mullen. Yes, sir, we do.
    Secretary Gates. And that is the only--and I haven't--to be 
honest, I haven't read either one of the acquisition reform 
bills, either the Senate or the House version, but I totally 
agree that the focus ought to be on cost, performance and 
schedule.
    But at a certain point, there has got to be the flexibility 
to focus on value; that if it is something that meets a need 
that we cannot meet any other way, then we ought to have the 
flexibility to go forward knowing that we are going to have 
problems and that there are going to be extra development 
costs.
    And who would have assessed, 3 or 4 years ago, that a $26 
billion investment in MRAPs was the smart thing to do? But how 
many lives has it saved? How many limbs has it saved? And there 
is not a--this Congress has been so supportive on that program 
and it is because every member of Congress knows that it has 
saved our kids' lives.
    Mr. Andrews. Thank you, Mr. Chairman, Mr. Secretary.
    The Chairman. Thank you.
    Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    First of all, Secretary Gates, Admiral Mullen, thank you 
for your service.
    In early 2006, I was in Iraq with the United States Marine 
Corps and things were not going all that well there and things 
were reversed later on with the surge, with General Petraeus' 
concept, where we not only put in more forces on the ground, 
but we dispersed those forces differently, away from the major, 
more secure base camps into--pushed into the communities and 
forward operating bases, and that created a level of security 
that allowed the political process to move forward.
    When I look at the situation right now in Afghanistan, we 
are going to build up to a troop presence on the ground that is 
approximately about half of that that we had in Iraq prior to 
the surge.
    And I don't see a robust plan to push our forces or Afghan 
security forces out into those villages where the Taliban are 
intimidating the population.
    I just don't see that we have an assessment of the current 
threat commensurate with our resources that we are planning to 
put on the ground.
    And what I would hate to see is that we get into the same 
situation that I experienced in Iraq in 2006. We were treading 
water and losing folks, until we realized that we needed a 
greater presence to provide enough security to allow the 
political process to move forward.
    I wonder if you can respond to that.
    Admiral Mullen. Just two or three weeks ago, when I was 
there in Afghanistan and, specifically, with the new brigades 
in RC East, where we had been under-resourced, the 3rd Brigade 
Combat Team of the 10th Mountain Division arrived in January 
and the impact that they had had under the counterinsurgency 
concept or counterinsurgency plan is to get out and about, just 
like we did in Iraq, and it is starting to work there.
    So they are not back on their bases. They really are out 
doing exactly what you describe, going where the Taliban are.
    We don't have those resources in the south and the forces 
that have gone in, obviously, in the east, to be about right, 
and then we have got roughly 10,000 Marines showing up starting 
now, over the next several months, we think that is about right 
for certainly this year in the south.
    Those are the two big areas, with the south being the most 
difficult and challenging right now.
    As I said earlier, we think that is about right, as best we 
can tell, but, clearly, the concept is the same, the approach 
is the same, to get out and provide the security so development 
and politics, diplomacy, et cetera, can start to grow.
    Mr. Coffman. I would encourage you, Mr. Secretary, Admiral 
Mullen, to certainly take a review as things develop, as soon 
as possible. I think it is better that we put the resources in 
sooner that are necessary than putting them in later.
    Mr. Chairman, I yield back my time.
    The Chairman. Ms. Bordallo, please.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    Secretary Gates, I want to thank you for your leadership in 
the Department of Defense.
    And, also, Admiral Mullen, thank you for your testimony and 
your leadership, as well.
    I guess you gentlemen know in what direction I am going. 
First, I would like to ask you, Mr. Secretary, to get your 
perspective in better understanding the Administration's 
position on the realignment of Marines from Okinawa, Japan to 
Guam.
    Incidentally, just today, the Japanese Diet approved the 
Guam Airport Improvement Program (AIP), the agreed 
implementation plan. However, the commandant made comments at a 
recent House Appropriations Committee hearing that suggested 
the entire realignment of Marines from Okinawa, Japan to Guam 
was going to be reviewed.
    It was always my understanding that only training and 
command and control issues connecting Marine Corps presence in 
the Pacific would be reviewed in the QDR and not the rebasing 
itself.
    So could you respond? Will the rebasing of Marines for 
Okinawa to Guam be revisited in any way as part of the QDR 
process?
    Secretary Gates. We are still committed to the rebasing to 
Guam. As you suggested, there are some issues relating to 
training; clearly, infrastructure issues on Guam itself; issues 
relating to the runway that we have to address.
    But we are committed to the program. I am very happy that 
the Japanese Diet has approved. I knew that the lower house of 
the Diet had approved it. It sounds like the upper house did 
today.
    Ms. Bordallo. Yes, that approval was today.
    Secretary Gates. And we have money in the 2010 budget to do 
our part and to keep our part of the commitment, and I urge the 
Congress to leave that money in there.
    Ms. Bordallo. Thank you.
    Thank you, Mr. Chairman. That is what I wanted to hear.
    There has been concern by local leaders on Guam about the 
level of coordination from the Department of Defense for 
funding local infrastructure projects, and I guess, really, you 
touched on it briefly.
    For the military buildup to work, the impact on our 
community and the cost of additional infrastructure must be 
shared by the military.
    In fact, a September 2008 and April 2009 Government 
Accountability Office (GAO) report stated that improvements to 
critical civilian infrastructure is needed to handle the 
buildup and that DOD must do more to ensure that these 
requirements are resolved.
    And I guess you did answer that. The effort of your office 
in this regard is that you are supportive in this area. Is that 
correct?
    Secretary Gates. Yes, ma'am.
    Ms. Bordallo. Yes. And my third question. With your 
proposal on the JCAs, what will happen to the Army Guard units 
that are expected to receive the aircraft, but do not 
necessarily have a Sherpa mission? I am concerned about a 
hallow force structure.
    Secretary Gates. I think this is one of the issues that has 
to be addressed in this context in the quadrennial defense 
review in terms of this balance between heavy lift helicopters, 
JCA and C-130s.
    Ms. Bordallo. Thank you. Thank you very much, Mr. 
Secretary. I am very enlightened with the responses to my 
questions.
    Mr. Abercrombie. Mr. Chairman? Mr. Chairman?
    The Chairman. Yes. The gentleman from Hawaii?
    Mr. Abercrombie. If the representative has any time left, 
would she yield it to me?
    Ms. Bordallo. I will yield to the gentleman from Hawaii.
    The Chairman. She yields 1 minute and 30 seconds.
    Mr. Abercrombie. Thank you.
    Mr. Secretary, aloha to you.
    Can you tell me, has the issue been resolved with regard to 
whether or not the basic allowance for housing will result in 
American construction companies being able to handle that 
construction?
    I know what the Japanese Diet passed. Apparently, the State 
Department has decided we won't get to review that.
    Secretary Gates. I don't know the answer to that, Mr. 
Abercrombie. I will find out.
    Mr. Abercrombie. Okay, because I want it clear on the 
record that I will--if it is not resolved so that the Bank of 
Japan is not getting the stimulus, but, rather, the United 
States, construction in the United States, it will be 
constructing, maintaining and managing the housing for the 
Marines, I am afraid that we are going to have to have--at 
least I will certainly put forward an amendment to that effect.
    I would like to see the housing for the Marines be in line 
with the kind of housing we do for military housing right now, 
where a private enterprise comes in, builds the housing, 
maintains it, manages it, and we utilize the basic allowance 
for housing to do the basic financing for that.
    Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    Mr. Akin from Missouri.
    Mr. Akin. Thank you, Mr. Chairman.
    I came with kind of a multipart question. It has to do with 
F/A-18s, a subject that has been raised several times today.
    The first is that in Section 123 of Public Law 110-417, it 
requires the Secretary of Defense to submit a report on F/A-18 
procurement costs by March of 2009.
    Now, we have not received that report. The purpose of the 
report was to take a look at particularly the idea of 
multiyear. We didn't stick that in that we were going to force 
anybody to do that last year, but we thought at least it makes 
sense to save money.
    If you are going to be buying some F/A-18s and you are 
going to do it over a multiyear period, why not sort of lock in 
some type of a contract?
    So I guess my first concern--I am going to hit you with a 
couple different questions. My first concern is I think it 
would be helpful in terms of transparency to have a better 
communication so we know what is going on.
    Now, I understand that the QDR is the reason. We were going 
to wait for the QDR and everything. But it seems like, to me, 
this is a pretty straightforward situation.
    In 2008, the projected shortfall was 125 aircraft. That was 
based on a 10,000-hour run time for these jets. Now, that has 
been proven wrong. So we are looking at a shortfall of 243,000 
(sic) aircraft, and that comes out at 44 aircraft per aircraft 
carrier.
    You are looking at, by the time you get to the year, let's 
see, it is about--I think it looks like 2018, you are looking 
at about five aircraft carriers with no airplanes on them.
    I would suggest that aircraft carriers without airplanes is 
not a good combination. We need to have airplanes on them.
    And so regardless of what QDR says, it seems to me that 
there is one of a couple of things. Either you are assuming we 
are going to get by with fewer aircraft carriers or we are not 
going to have a full 44 aircraft on an aircraft carrier. That 
seems to be where we are going.
    So I guess my question is, first of all, why the lack of 
transparency and, second of all, if you would comment on where 
you think we are on F/A-18s.
    Secretary Gates. Well, first of all, if the lack of 
transparency is the fact that we haven't yet gotten that report 
to you that was due in March, then we have an obligation to get 
on it.
    I wasn't aware about the report and I will find out where 
it is.
    Admiral Mullen. The strike-fighter shortfall is an area, 
Mr. Akin, I know that, obviously, you are very focused on. The 
multiyear issue, quite frankly, is how long are you going to 
keep the production line open, and, clearly, there has been a 
decision previously made that it was--I can't remember the 
exact year, I think fiscal year 2012.
    So how far out you could go on a multiyear right now would 
be a question, because that question hasn't been answered.
    There is no intent to have aircraft carriers without 
airplanes, I understand that. I am very aware of the 10,000-
hour desire and, obviously, those airplanes are not going to 
last that long.
    That said, I advised the Secretary, and I am still there, 
that we really need to take a pretty healthy look at this 
overall shortfall, not just in the Navy. What is the strike-
fighter future? What does it look like? And, principally, we 
are headed for JSF.
    So what is the risk, when do you take it, and, obviously, 
that backs up into whether this production line would remain 
open longer than is scheduled right now.
    There is an electronic warfare piece of this, as well, that 
I am sure you are aware of, which is included.
    So I really think this needs to be looked at in the QDR.
    Mr. Akin. Right. Well, we were on point on the electronic 
warfare and I think there has been some real good progress 
there.
    Admiral Mullen. Yes, sir.
    Mr. Akin. I guess the other question I had was, Mr. 
Secretary, you made the statement, as I recall, on January 
2009, ``I will pursue greater quantities of systems that 
represent the 75-percent solution instead of smaller quantities 
at the 99 percent.''
    I am thinking that 5.5 F/A-18s per JSF. Maybe the F/A-18 
does make a certain amount of sense. And I have to say that as 
we have taken a look more on the shipbuilding side of cost 
overruns and problems with missing deadlines, as well as cost 
deadlines, but production deadlines, I guess I am a little 
concerned about dropping billions of dollars into trying to 
rush a program if we haven't even been through testing on it.
    So it seems like there is a natural progression. If you 
drive a program too hard in terms of JSF, it can be pretty 
costly. And I am happy, if there is a better airplane, go for 
it, but I don't like to see us just gamble on something where 
we have a huge shortfall.
    I yield back.
    The Chairman. Thank the gentleman.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And like so many others, thank you for your outstanding 
service and testimony this morning, to both witnesses.
    And like other members, I certainly view this as a reform 
document and reform budget, and applaud both of you for the 
hard work that went into it.
    I wanted to actually, along that line, just sort of comment 
on the exchange that Mr. Hunter had with Admiral Mullen 
regarding the disruption to families.
    I heard your answer, basically, to say that it is happening 
because we have had such a broken budget process, where 
supplemental passages and late budgets have really kind of made 
it difficult for the services to plan adequately.
    So that trying to be conservative and prepare for the worst 
case scenario is partly our fault here in Washington, because 
we really have not followed regular order in passing budgets 
within a fiscal year that would allow that type of planning.
    I also would disappoint a lot of people back home if I 
didn't acknowledge that your budget does tip a hat to the fact 
that we have worked so hard to get the submarine building 
program to an acceptable level in terms of hitting deadlines 
and budgets, and we certainly appreciate the fact that that 
clearly was recognized in this budget document.
    I would like to ask, though, Secretary Gates, I mean, there 
has been a lot of talk here today about trying to focus on the 
national interests in this budget and I completely agree with 
that.
    But, certainly, part of the national interest is the fact 
that we have an economy which is in probably the worst shape of 
our lifetimes and we also have a workforce and an industrial 
base that is part of the national interest, and, certainly, 
your work on the MRAP was, I think, a classic example of that.
    We did not have an industrial base that was really ready to 
get to the theater vehicles that saved lives, despite the fact 
that you were pushing for it and budgets were being passed here 
in Washington.
    And the concern in Connecticut, very frankly, on the F-22, 
is that, certainly, the F-35 sort of vision, at the end, makes 
a lot of sense and there is going to be work there for that 
plane, but the plan, as is, right now of basically ending the 
production line at 187 is going to have a disruption to that 
industrial base.
    I mean, there is just no way that you can have that happen 
without a gap and a very serious valley in terms of what 
happens to the workforce.
    You described a zero sum game that we are involved in here. 
I guess the question I have is there has clearly been interest 
in terms of our Middle East allies, Israel and others, in terms 
of acquiring the F-22. That is, obviously, now allowed by law 
right now.
    And I just wondered what your thoughts were in terms of 
that as an option right now and whether or not we can sell 
modified versions of the F-22, at least to keep that base 
working.
    Secretary Gates. We didn't design an export version of the 
F-22. We have done that with the joint strike-fighter. We have 
eight foreign partners in the JSF. They are committed over the 
5-year defense plan to buy, I think, 260 of these aircraft over 
the next 5 years.
    The reality is I think that at least in the recommendations 
that I make to the President, what I have to consider, first 
and foremost, is what I think is in the best national security 
interest of the country.
    Larger issues are considered by the President and by the 
Congress. But I would say this, and I realize that it is not 
one-for-one, but right now, in 2009, there are 24,000 people 
directly involved in the construction or building the F-22. 
That will go to 19,000 in 2010 and 13,000 in 2011.
    But at this moment, in 2009, there are 38,000 people 
working on the joint strike-fighter, 64,000 in 2010, and 82,000 
in 2011.
    So the reality is as we transition from the F-22 to the 
joint strike-fighter, a significantly larger number of jobs 
will be created in the country and in the air industrial base, 
if you will.
    And I have heard the figure 95,000 thrown around. I assume 
that that is a calculus that includes suppliers and everybody 
else. So if that is a factor of 4, then 4 times 82,000 means 
that there is a net add over the next 2 years of 220,000 jobs 
to the American economy through what we budgeted in 2010 and 
beyond for the joint strike-fighter.
    So that is not much solace to the folks in 2012 who are 
working on the F-22, but we can't keep these programs running 
forever.
    The Chairman. Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    Mr. Secretary, as one more opinion from the peanut gallery, 
I appreciate your willingness to make decisions on programs and 
on personnel.
    My perception is that there was some momentum for 
institutional change at the Pentagon, until September 11. That 
kind of changed everybody's focus.
    But if the last eight years have taught us anything, it is 
the importance of having a balanced sort of approach and 
getting the right people in the right jobs at the right time. 
And whether we may agree or disagree about some particular 
decisions, I appreciate you making them.
    The first QDR included a required red team, an outside 
group of folks whose job it was to offer an alternative 
version. It was called the National Defense Panel.
    Chairman Skelton and I actually tried to get that on the 
last QDR, but were not successful.
    Do you think it would be helpful to kind of have these 
retired military think tank type folks to offer an alternative, 
different sort of look at the broader questions that the QDR is 
supposed to address?
    Secretary Gates. I not only think that having a red team 
for the QDR is a good idea, I have already moved in that 
direction. And the person who will lead the red team is the 
same person who led the red team for the last QDR, and that is 
Dr. Andy Marshall and the Department of Defense, and he will be 
assisted, at my request, by General Jim Mattis at Joint Forces 
Command.
    I think Jim Mattis is one of the most creative and 
thoughtful military minds anywhere and I think the combination 
of Andy Marshall and Jim Mattis, basically, red teaming the--I 
have actually got them red teaming both the scenarios and the 
QDR itself so that we are not the prisoners of a bureaucratic 
group think of people who have done this work forever.
    Mr. Thornberry. Well, I share your complete admiration for 
both people. We might just want to think about whether someone 
out--a group of people outside the department might be useful.
    I am not necessarily advocating that, but I do think some 
sort of a fresh approach is helpful.
    I think some of the best ideas, for example, on change that 
was needed came from or at least was spurred by that national 
defense panel, and we haven't done it since the first QDR.
    Let me ask about or turn to cyber for a second. You talked 
about that in your statement. It seems to me that this may be 
an area where you are fighting the culture of the Pentagon a 
bit, whereas some folks see cyber as an enabler to help them do 
their job, which it certainly is.
    But some folks see it, also, as a separate domain of 
warfare for which we need offense and defense.
    What do you think?
    Secretary Gates. Well, I agree with the latter entirely and 
we are putting--the budget provides the resources to about 
quadruple the throughput at our cyber schools for cyber experts 
in uniform.
    I have been waiting for the completion of the White House 
review. I believe that there needs to be an integration of 
offense, defense, and exploitation and my inclination and what 
I have talked about in the past is moving to a sub-unified 
command under Strategic Command, but with a four-star leader, 
who would have that responsibility for the Department of 
Defense for cyber.
    And, of course, I think the Air Force is standing up its 
own folks.
    And by the way, I have just gotten a note. Marshall is 
going to include outsiders in his red team group.
    Mr. Thornberry. Thank you. I appreciate it, that is 
helpful.
    And I appreciate your comments on cyber. Still, you say 
quadruple, we are going from 80, according to your statement, 
to 250 per year by fiscal year 2011.
    It just strikes me as when you compare the manpower that 
some other countries are putting on this issue, 250 doesn't 
sound like a whole lot.
    And does it stand the chance of kind of being this 
outsider, because while--I think of the space analogy. While 
the Air Force has had to embrace space, produce space-related 
people, I am not sure who produces--what service has the train, 
equip responsibility on cyber.
    Secretary Gates. Well, first of all, part of the problem 
is, obviously, there are huge demands on the force right now. 
And so one of the things that the service chiefs have been 
directed is that their first priority is to fill all those 
slots at the cyber school as they are making assignments.
    But I would also tell you that the reality is, with respect 
to particularly the Russians and the Chinese, they do a lot of 
outsourcing of what they do on cyber, and mainly to people in 
their 20s and early 30s, and it gives them a greater multiplier 
effect.
    I wish I could figure out how to do that.
    Mr. Thornberry. Maybe we ought to work on that together.
    Secretary Gates. Unfortunately, we have rules of 
accountability that they don't.
    The Chairman. A point of clarification. There is a proposed 
cyber command and sub-commands in the Air Force. And would it 
also be true in the Army and the Navy?
    Admiral Mullen. What the Secretary is talking about is a 
proposal and, again, we await the outcome of the strategic 
review from the White House.
    But the four-star sub-unified who would report to STRATCOM 
would be supported by components, all the services.
    The Chairman. In other words, each of the services would 
have their own component.
    Admiral Mullen. Each of the services would have the 
component that would report in, and this is becoming mainstream 
warfare. This is no longer niche stuff and we all recognize 
that and we have got to move out on it as rapidly as possible.
    The Chairman. You answered the question. Thank you very 
much.
    Mr. Sestak, please.
    Mr. Sestak. Thanks, Mr. Chairman.
    Mr. Secretary, for whatever it is worth, I think your 
budget proposal is spot on.
    I think it is very similar to what Mr. Rumsfeld might have 
done when he came to the Defense Department and tried to 
transform the military. But then with men and women in harm's 
way in two wars, it is understandable, as you found in your 
first year that is where you focus needed to be, and I wish you 
the best success, to where we are no longer measuring our 
military in how many, but in capability, particularly in 
cyberspace or network centers.
    Sir, could I ask you a question today? And I mean these two 
questions with the utmost respect. Not as Secretary of Defense, 
but as one of the two members of the national command 
authorities with the President.
    Probably, your most important job is deciding not just the 
execution of our operations overseas, but who commands them or 
the removal thereof.
    And may I ask, when you decided to remove General 
McKiernan, why did you also ask for his resignation from the 
service, if I might?
    Secretary Gates. Basically, I view what has happened with 
General McKiernan as an accelerated change of command and he--
this was the process by which we did that in an accelerated 
way.
    There was no--there was certainly no intent to convey 
anything negative or denigrate him in any way by that.
    Mr. Sestak. The reason I ask, not about his removal, 
because I think, as National Command Authorities (NCA), that 
has got to be your choice, I was more trying to understand the 
request for his resignation from the service.
    When General Eikenberry was here 2\1/2\ years ago, having 
left Afghanistan, he told us in testimony that--or he told us 
that he needed more forces there.
    A few short months prior to General McKiernan going over 
there, the chairman stated that the policy is not his, but the 
Administration's policy at the time was in Iraq, we do what we 
must, but in Afghanistan, we do what we can.
    To some degree, is there a lesson here for younger 
officers, not in the removal, but in the request for 
resignation, that we may not want to have that this was an 
individual who, by policy, was given second choice on resources 
and never enough, despite repeated requests for it?
    While it is understandable you need a new strategic 
approach, but to also call for his resignation, is there a 
lesson in there that we may not want to have for our younger 
service members?
    And I ask that with great respect, sir.
    Secretary Gates. I understand and I guess I would say that 
I saw his resignation as commander of U.S. forces and not from 
the service, and, presumably, he will retire with the honor and 
respect that he deserves.
    The reality is we have gone from about 32,000 American 
troops last year in Afghanistan to, within the next few months, 
68,000 troops. We are now in the 40,000s somewhere. So there 
has been a significant increase in those resources.
    My decision to make this recommendation to the President 
had nothing to do with civilian casualties, had nothing to do 
with General McKiernan's request for forces.
    My view is that a commander in the field should never feel 
constrained from asking for what he needs and it is up to the 
Central Command, the chiefs, the chairman to make a 
recommendation to me on how to--and then to the President on 
how much and how to satisfy that request.
    I have worked very hard to give, first, General Petraeus 
and now General Odierno the forces that they need in Iraq. We 
have worked very hard to come up with these additional forces 
for Afghanistan, and that played--his request for additional 
troops played absolutely no role in that decision.
    Mr. Sestak. Yes, sir, and I did not mean to insinuate. I 
know it didn't.
    My last question is different. Back in 2002, Defense 
Department had about two percent of all overseas developmental 
assistance funding in the U.S. government. Today, it is about 
11 percent.
    As we transition more to developmental assistance, do you 
see transferring those funds over to the State Department?
    Secretary Gates. Well, some of them have become--I think we 
have seen an expanded role for a number of our combatant 
commanders that have mixed, where the military has been 
involved in humanitarian and other kinds of activities and in 
trying to build the security forces of our partners, which has 
involved some of those development funds.
    So I think that the way we envision our mission and the 
expectations that the President has of us have evolved over the 
last number of years.
    What I believe needs to happen and what I have written 
about is that I believe that the State Department has been 
deprived of both the human and dollar resources that they need 
to carry out their responsibilities in this arena.
    I think in the area that we are talking about, for example, 
for this Pakistan counterinsurgency capability fund, my view is 
those dollars will transition to the State Department in fiscal 
year 2010 and beyond.
    The Chairman. Thank the gentleman.
    Mr. Bishop, please.
    Mr. Bishop. Thank you, Mr. Chairman.
    I have got three questions I would like to ask. So I am 
going to do this as quickly as I can. If I get kind of antsy 
with your answers, it is only because I want to get all three 
of these in here.
    The first one deals with the Minuteman 3 propulsion and 
replacement program, which ended this summer. We now no longer 
have an Intercontinental Missile (ICM) modernization or 
sustainment program, even though the Russians are going to have 
a new Intercontinental Ballistic Missile (IBM) system by 2018.
    The question, I hate to ask it in this format, but the 
delegation from my state sent you a letter on March 18 and we 
haven't had a response yet from anyone in the Pentagon or from 
your office.
    I am going to take this opportunity to ask the same kind of 
question, which should have been done by letter.
    But in the budget documents, you talk about the solid 
rocket motor warm line program to maintain a capability and 
sustainment within the industry for, as you say, ``solid rocket 
motors in order to sustain Minuteman 3 weapons systems through 
2030, as directed by Congress, to maintain the production 
capability for the manufacture of solid rocket motors, as well 
as maintain system engineering assessment capability.'' That is 
your goal.
    In the 2010 budget, you have enough money put in there for 
one set of motors, even though the industry has said they need 
a minimum of six to maintain the industrial capability.
    So the first question, which was the product of that 
letter, is how do you explain your analysts coming to the 
conclusion that one rocket motor set can maintain that 
industrial capability, when the industry says it can't.
    Secretary Gates. I don't have an answer for you. I will get 
the letter to you within the week.
    Mr. Bishop. Thank you. I appreciate that.
    Then let me go on to the second one, which deals 
specifically with some of the other concerns that have been 
mentioned. I wanted to re-echo those at the same time, missile 
defense, especially.
    The ground-based midcourse direction and the kinetic energy 
interceptor program, as well as the Minuteman 3, all are 
supposed to be prevented by a solid rocket motor propulsion 
system.
    There is only one place where those are built and these 
three items that we are doing so far I think have the tendency 
of decimating that kind of industrial capacity.
    And it is also ironic that the day you announced the 
midcourse defense rocket decision was the day the North Koreans 
launched their missile. But besides that point, I want to zero 
in on KEI, because I am somewhat confused about some of the 
statements you made in response to Mr. Lamborn's question.
    There have been fire controls, seven static fire tests, 
which all have been positive. The contracts were let in 2003, 
not a 14-year program. There is no other speed, reach or 
mobility. So the idea that there has to be a proximity to an 
enemy to launch is not understandable to me.
    And perhaps if there hadn't been 15 or more redirects 
coming from the Pentagon on this program, it may have been done 
a little bit sooner.
    But the question I am going to ask from KEI is those 
rockets are already there for the launch to take this fall. 
Yesterday, you ordered the stop work order to go through.
    It caught all of us by surprise because of the infamous gag 
order, which, once again, I echo the complaints about that 
process.
    We have not had a chance to discuss this or understand why 
that is there. Even in your announcement in April, you had made 
the decision, but you didn't announce that, we had to read 
about this program or get it secondhand.
    So the question I have, because I have heard your arguments 
and, once again, we need some time to discuss this, because 
they don't necessarily jive with the reality of the program, as 
I know it.
    But I want to know, what is the cost of your stop work 
order? What is the cost of terminating this program? It doesn't 
come cheap. They are contractual obligations.
    How much is it going to cost to implement the stop work 
order?
    Secretary Gates. I will have to get back to you on that. I 
don't know.
    Mr. Bishop. I am going to have more than five minutes at 
this rate here. But I would appreciate your writing back.
    Secretary Gates. I am being as brief as you asked.
    Mr. Bishop. Well, that is a legitimate answer. But less 
than three months for the answer?
    Secretary Gates. Yes.
    Mr. Bishop. Deal. The third one, though, is the final one 
that goes back to the Missile Defense Agency, as well as in the 
2009 appropriations, there was money in there for this booster 
test flight.
    If the stop work order goes through, MDA has not told us 
what they will do with the money already in the budget to deal 
with this.
    It was already appropriated by Congress. They told you what 
to do. It hasn't happened. That money is sitting there.
    What are you going to do with the money?
    Secretary Gates. Get back to you on that one, too.
    Mr. Bishop. I am zero-for-three with you, aren't I?
    Secretary Gates. Well, that is because you are asking 
questions at a level of detail, frankly, that I don't have.
    Mr. Bishop. I want more F-22s. Does that help?
    Secretary Gates. That one I can answer.
    Mr. Bishop. Thank you. My time is almost up. I appreciate 
you.
    Thank you, Secretary Gates, for getting back with me and I 
look forward to the responses.
    The Chairman. Ms. Giffords.
    Ms. Giffords. Thank you, Mr. Chairman.
    And thank you, Secretary Gates, Admiral Mullen, for 
appearing before us today and thank you for your service to our 
Nation.
    Despite delaying the delivery of this year's request until 
the middle of May, the department has yet to disclose some 
specific justifications behind numerous major defense 
reductions, and you have probably heard the frustration from 
members, because we want to know why and we certainly want to 
work with you to be able to justify those reductions.
    I believe that some of the restructuring efforts cut 
disproportionately across certain forces, and this year's 
request would have a direct negative impact on the overall 
fighter aircraft inventory and the combat search and rescue 
assets, including nearly a dozen units in my district alone.
    Members here do not have the luxury of planning our 
Nation's defense on a year-to-year basis. It is the 
responsibility of this committee to balance short-term security 
with long-term stability and provide for the continued robust 
defense of our Nation.
    So delaying the outline of future plans to a date 
uncertain, in my opinion, undermines this year's request and a 
major decision being made in this year's budget.
    So specifically, Secretary Gates, the department announced 
last month that they would cancel the Combat Search and Rescue 
(CSAR) replacement program and, according to your statement, 
the next year will be spent researching potential alternatives 
and verifying the requirement.
    At Davis-Monthan Air Force Base in my district, they have 
long awaited the final selection and delivery of a new aircraft 
for this crucial mission.
    Among operators, there seems to be no question of the need 
for this program.
    So could you please expand on the justification for 
canceling the program? And in making this decision, did you 
consider the substantial additional risk being placed on the 
current aircraft fleet? And were you also aware of the current 
fleet of Pave Hawk aircraft beginning to reach the end of their 
designed service life, actually, six years ago now?
    Secretary Gates. The principal reasons behind the decision 
on CSAR-X were, first, some significant acquisition problems 
associated with the program, and, second, it was a single 
service, single mission kind of aircraft.
    It also had an operational concept flaw, as far as I was 
concerned. Because it is supposed to be able to rescue pilots 
deep in enemy territory, it was being designed with a 250-mile 
range, and yet both the F-22 and the F-35, as well as the F-16, 
for that matter, have a range of up to 500 miles.
    The notion of an unarmed helicopter being able to rescue 
somebody deep in enemy territory as a single mission struck me 
as not being plausible.
    So what we discovered, if we look back at the previous 
times, most notably, in the Balkans, when a pilot was down 
behind enemy lines, it ended up being several services and 
several different capabilities that were used in the rescue, 
and I think that is the kind of joint capability we need to 
think about for search and rescue.
    We do need to get on with it and the intent is to do that 
during the course of fiscal year 2010.
    Ms. Giffords. Admiral Mullen.
    Admiral Mullen. The only comment I would add is that the 
fact that this program was canceled does not, in any way, shape 
or form, speak to a lack of commitment to rescuing somebody 
when they are in that need, and we will figure out a way to do 
that.
    Everybody is committed in that regard.
    Ms. Giffords. Talking about fighter gap, and we have had a 
lot of hearings in the subcommittees about the fighter gap, 
shortfall, and the waterfall, and really losing 80 percent of 
our fighters in the next 8 years is something that I believe 
that we are all concerned about.
    I know that this year's budget request would cancel the F-
22 program, add only a handful of F-35 test aircraft, and 
retire 250 Air Force fighter aircraft.
    The current Air Force fighter fleet is roughly 200 aircraft 
short of the department's stated requirements for fighters and 
even under the most optimistic projections, the Air National 
Guard would be forced to close 13 fighter wings by 2017.
    The total fighter gap now will grow to 800 aircraft under 
current plan.
    So I know we have had a lot of discussion about F-22s, but 
I am really specifically looking at what we are going to be 
doing with our Air National Guard program and the justification 
by some of these requests that you have made.
    Secretary Gates. Well, again, as I said earlier, the 
bathtub in fighters depends on whether you are looking at the 
requirement from the standpoint of our current force structure 
and anticipated force structure and our desired capabilities or 
whether it is based on a threat analysis, and those are the 
kinds of issues that are going to be addressed in the 
quadrennial defense review, because if you look at the threat 
analysis, our lead on fifth generation fighters, for example, 
over, for example, China, is enormous in 2020 and grows even 
greater in 2025.
    So it really gets more to a question of force structure 
here in the United States versus the threat-based, and that is 
the kind of thing that is going to be looked at in the QDR.
    Ms. Giffords. Thank you.
    The Chairman. Thank the gentlelady.
    Mr. Wilson.
    Mr. Wilson. Thank you very much.
    And, Admiral Mullen, Secretary Gates, thank you very much 
for your service.
    My perspective, I greatly appreciate what you are doing in 
protecting American families and also providing the opportunity 
for young people to serve our country.
    Again, the perspective I have, a 31-year veteran myself, 4 
sons who are currently serving in the military, 3 who have 
served in the Middle East.
    Additionally, I am very, very grateful, I represent Fort 
Jackson, Parris Island Marine Corps Air Station, Beaufort Naval 
Hospital.
    I have just returned from visiting, my tenth visit in Iraq, 
eighth visit in Afghanistan.
    What is extraordinary, we had the opportunity to visit with 
the junior officers and enlisted personnel from our home states 
and every time I go and visit in country, I am impressed by the 
dedication and competence and capabilities.
    And so I just want to thank you for backing them up.
    I am concerned, though, that with the consolidated budget 
request, this shows that there is actually a reduction, 
Secretary Gates, in regard to the Army budget.
    There is a reduction by consolidating the budget of over 
$4.4 billion and my concern is with the force structure staying 
as it is, maybe increasing, which I think is good, that this 
could result in a limitation on reset and modernization.
    And so how will this be addressed with the reduction?
    Secretary Gates. I don't think that it would have that 
impact, sir. I think that the reduction is primarily due to the 
changes in the Future Combat System (FCS) program and some 
other programs and not those affecting the troops.
    But let me ask the--the information that I have is that for 
the base budget, the Army is up 2.1 percent from 2009 to 2010.
    Mr. Wilson. That is the base budget. But with the 
consolidated, which is----
    Secretary Gates. Part of the consolidated is that the 
personnel costs have been transferred to the base budget. So 
that the truth of the matter is I have added almost $11 billion 
for end strength into the base budget of 2010.
    About $7 billion of that was Army, was end strength in the 
Army, and so that is now being covered in the base budget.
    Mr. Wilson. And I appreciate your efforts to maintain the 
funding that can be possible.
    I am, like so many other members, concerned about the 
missile defense program and, in particular, with the changes 
that have come about.
    These decisions were made prior to the completion of the 
Administration's missile defense policy and strategy review 
and, also, in the midst of extraordinary changes in Iran, in 
their capability of developing ballistic missiles and potential 
nuclear weapons.
    How did we address these changes as affecting particularly 
the capability of Iran?
    Secretary Gates. I think there, the changes in terms of the 
deployment or the addition of six Aegis-capable missile defense 
ships, the addition of THAAD missiles and the addition of the 
Standard Missile 3 (SM-3) missiles to the inventory were 
basically maxing out the production lines in terms of being 
able to protect against the kinds of missiles that the Iranians 
have deployed today.
    Of course, the whole purpose behind the third site in 
Europe would be able to take on a longer range missile from 
Iran that might be aimed either at western Europe or Russia or, 
for that matter, ourselves, and I think that there is still 
very active interest in pursuing either the third site and 
doing so in partnership with the Russians, whether it is using 
one of their radars or some other arrangement with them.
    But I think that most of us believe that that kind of 
arrangement in western Europe, Russia offers the best 
opportunity to deal with the longer range Iranian missiles.
    Mr. Wilson. And do you believe that Iran is proceeding with 
developing longer range missiles and nuclear weapon capability?
    Secretary Gates. Absolutely.
    Mr. Wilson. And it is a threat to our allies in the Persian 
Gulf and throughout the region. And so I am happy to hear of 
what you are indicating, but I am very concerned that the rogue 
regime in Tehran could be a threat to the entire Middle East 
and possibly southeastern Europe, too.
    Secretary Gates. And this is one of the reasons why we now 
have a full-time Aegis presence in both the eastern 
Mediterranean and in the Persian Gulf.
    Mr. Wilson. Thank you. I believe it is a deterrence. Thank 
you.
    The Chairman. Thank you very much.
    Ms. Tsongas.
    Ms. Tsongas. Thank you both for your very thoughtful and 
forthright leadership.
    It has been a pleasure to listen to you today. You have 
been here quite a while.
    I have a question related to the supplemental. Obviously, 
you know that is coming to the floor today or later this--
tomorrow or later this week.
    And while we talk about what is happening in Afghanistan 
and revisiting that war, expanding the effort there, I really 
tend to view it as a new war, that much has changed post-9/11, 
whether it is through our failure to take advantage of what we 
secured there, and, also, what has happened in Pakistan in the 
interim.
    So that it is a much broader effort, a much more 
complicated effort. And as we make the investment that the 
supplemental will ask us to do, I do think we owe it to the 
American people to know really what the long-term nature of 
this commitment is going to be.
    So, Admiral Mullen, as you have talked about the 17,000-
plus soldiers that we will be sending over there, I recently 
visited and asked a question of what kind of loss of life we 
could expect as a result of these additional soldiers. The 
Taliban will be very resistant.
    But you spoke about the momentum you hope to achieve with 
these additional soldiers going forward.
    My question really is, if we don't achieve that momentum, 
if we don't see the impact we desire, not only from our efforts 
in Afghanistan, but, also, we are very dependent upon Pakistan 
doing its part, it is not just Afghanistan in isolation, what 
do you anticipate coming?
    What are you going to ask of us in terms of potentially, 
more soldiers, more funding? How long might we expect to be at 
this? And how adept are we going to be at changing course, 
responding to what works and doesn't work?
    Admiral Mullen. Well, as the Secretary said earlier, I 
think we are certainly going to be there for a while. I am very 
hopeful that, over the next two years, 2009 and 2010, in 
particular, that we can have a big impact in Afghanistan and 
actually in our relationship with Pakistan, because I think it 
is both, so that we can reverse the trend of growing violence 
there.
    In the interim, we are going to have more casualties. We 
are going to have more that are killed and more that are 
wounded as we put more troops in, particularly in the south, 
where the Taliban are heavily concentrated.
    That said, it is not just about boots on the ground, 
because the civilian capacity is important, the continued 
capacity development of the Afghan national army, which is 
actually a pretty good story, and the Afghan national police, 
and we still have a lot of work there.
    New leadership is a part of that and that, obviously, was--
that change was made or recommendation for change was made 
earlier this week.
    On the Pakistan side, where I have spent an awful lot of 
time, I think it has--I would expect us to be coming back for a 
long-term relationship, a comprehensive program, it is not just 
military, so that we can establish a long-term relationship 
with Pakistan and not have it go up and down.
    I was recently in Egypt. I was struck by the fact that we 
have had a relationship with Egypt from the 1978-1979 timeframe 
and while--and have invested in that. And while we have had our 
differences, it is a very strong relationship and a very 
important part of the world.
    We were out of Pakistan for almost 12 years, very difficult 
to have a relationship. So I think it is going to be a while.
    At what level of combat, what level of troops, that is 
difficult to predict right now.
    Ms. Tsongas. It is difficult to predict, and yet it seems 
it is very important that it be at a minimal level in order for 
us to achieve the objective we have in Afghanistan.
    Admiral Mullen. And the troops we are sending in there, 
ma'am, I see, over the next year, certainly 2009, as the right 
level and that we are going to assess that and, clearly, 
commanders on the ground are going to adjust.
    But in the east and south, best we can tell, it looks about 
right, from my perspective, right now.
    Ms. Tsongas. And is our capacity to respond to changing 
circumstances on the ground in Afghanistan dependent upon our 
drawdown in Iraq?
    Do you have sufficient forces really to deal with the 
dynamics of both at once?
    Admiral Mullen. They are clearly related. They are more 
loosely related as time goes on, but, again, as we look at the 
projections in Afghanistan right now, we have the forces to be 
able to send there to have the impact that we want.
    Ms. Tsongas. For the moment, at the very least.
    Admiral Mullen. Well, certainly, for the next year to two, 
as best I can tell right now, without being able to--the 
crystal ball isn't necessarily always clear.
    Ms. Tsongas. Secretary Gates, do you have any comments?
    Secretary Gates. Nothing to add to that.
    Ms. Tsongas. Great, thank you both.
    I yield back.
    The Chairman. Thank the gentlelady.
    The bells have rung for three votes, and, obviously, we 
will not be able to get back within the time limit. Our 
witnesses must depart at three o'clock.
    So I am going to do my best to squeeze two more members in 
and then we will rush to vote.
    And in the meantime, know you have our gratitude for your 
excellent service and your wonderful testimony today.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman. I probably won't take 
all my time.
    Gentlemen, thank you very much.
    Mr. Secretary, just to beat a dead horse further, the 
freeze on communication with Congress you think has been 
adequately communicated across your team so that there is no 
residual hesitation and there is no language in there that 
could be interpreted that would cause anybody anxiety.
    And does the White House support the lifting of the freeze?
    Secretary Gates. The White House had nothing to do with the 
nondisclosure agreements and based on today's conversation with 
you all, I will put out something in writing tomorrow along the 
lines of what I described earlier.
    Mr. Conaway. Thank you, sir. I appreciate that.
    Getting this far deep into the bench, all the good 
questions are asked.
    The news service is reporting that the President has 
decided to oppose the release of the photographs from the 
detainees in Afghanistan or Iraq and some comments about that 
is in contradiction to what the Pentagon had planned to do.
    Could you walk us through--will the Pentagon--of course, 
you will support the President, but in terms of continuing to 
push this through to the courts so that--I have got to believe 
that if a cartoon in the Danish newspaper was inflammatory, 
these have got to be equally as inflammatory.
    So could you walk us through that a little bit?
    Secretary Gates. First, the basic, just to cut to the 
chase, we are involved in litigation. It appeared that we would 
be forced to turn over these photographs, if we did not appeal 
a decision to the Supreme Court. I think that is what is under 
consideration.
    We are looking at a number of other photographs and other 
litigation down the road. And so one of the considerations that 
I had asked for was should we put all this together and release 
it all at once, so we go through the pain once instead of the 
Chinese water torture over a period of time.
    A couple of things have changed on that. First, I think, 
is, as you suggest, a willingness of the President to take this 
on, but, second and perhaps what has motivated my own change of 
heart on this and perhaps influenced the President is that our 
commanders, both General McKiernan and General Odierno, have 
expressed very serious reservations about this and their very 
great worry that release of these photographs will cost 
American lives.
    That was all it took for me.
    Mr. Conaway. Thank you, Mr. Secretary. I agree. If we have 
to release them at some point in time, fine, but let's don't 
borrow trouble, particularly with the intent to get out of the 
cities in June in Iraq and other kinds of things.
    There will never be a good time to release those 
photographs. Let's stick with it and make the courts make us do 
it.
    So I appreciate your change of opinion on that.
    And I yield back.
    Mr. Secretary, thank you, appreciate you being here.
    The Chairman. The last member, Mr. Heinrich.
    Mr. Heinrich. Thank you, Mr. Chairman.
    And, Mr. Secretary and Admiral Mullen, thank you for being 
here today. It is a great honor for me to have this 
opportunity.
    I want to get back to something that Representative 
Giffords and Representative LoBiondo both brought up with the 
Air National Guard, the changes in force structure, and, I 
guess, the disagreement over whether there will or will not be 
a fighter gap.
    From my perspective, being new at this, I know what I know 
and that is my local installation. Kirtland Air Force Base, 
which is in my district, is home to the 150th Fighter Wing, 
which was originally expected to retire its aircraft in fiscal 
year 2017.
    And so it was a little bit surprising and disappointing to 
find out, as part the fiscal year 2010 Air Force budget, that 
18 out of 21 of our aircraft would be phased out, that they 
would be losing those.
    And I guess what I am grappling with is we have--the 150th, 
in particular, is the fighter wing. It has been there for 60 
years of service.
    Kirtland was actually ranked number one in the 2005 BRAC as 
a fighter base during the 2005 BRAC process. And with Air 
National Guard fighter wings like the 150th generally 
maintaining a combat ready status at about one-third the cost 
of an equivalent active duty force, how do these major changes 
in Air National Guard fighter wings make sense, given the 
potential for a shortfall and what seems to be a very good 
record of providing a lot of service for a relatively modest 
amount of money?
    Secretary Gates. Let me just respond in two ways and then 
see if Admiral Mullen has anything to add.
    As I have indicated, the whole issue of the numbers of 
Tactical Air is one of the issues that we are going to have to 
address in the QDR, and it is part of an evolution.
    After all, a big part of the Air Force capability going 
forward or a significant part is going to be unmanned vehicles, 
like reapers, that have many of the capabilities of an F-15, 
but instead of a 500-mile range, have a 3,000-mile range and a 
dwell capability.
    So that is a capability we are going to have, others don't. 
That is a new part of our force.
    We will look at this whole TACAIR issue in the QDR, but I 
am usually very reluctant ever to pass the buck. But in this 
instance, the proposal to reduce 250 legacy aircraft, TACAIR, 
came from the Air Force.
    So it seems to me that this is an issue that, when General 
Schwartz and Secretary Donnelly come up here, that this is an 
issue that they will certainly be better able to speak to than 
I can, certainly.
    I don't know if the Admiral wants to add anything.
    Admiral Mullen. I would just say, as a former service 
chief, one of the ways you start to pay for the future is you 
start decommissioning the past, and, particularly, as you 
transition in the aircraft world from many type and model 
series as you move to the future.
    I mean, again, General Schwartz can certainly speak to 
this, but it certainly wouldn't surprise me that the Air Force 
has made this decision in order to figure out how to move to 
the future.
    And certainly, what the 150th--this does not speak to the 
150th. They have been exquisite for a long time. There are cost 
concerns associated with this, but I want to make sure, when we 
talk about those, we are talking about apples to apples and how 
much time we are operating and is it the total cost, those 
kinds of things.
    All of that goes into service decisions and then gets 
integrated into the decisions we will make in the QDR.
    Mr. Heinrich. One of my concerns with that unit in 
particular is many of those aircraft have already been 
upgraded, so that they have years ahead of them, and the rest 
could potentially--were scheduled to be this year, most of the 
rest.
    And in the budget, it says ``transitioning to another 
mission to be determined,'' which does not sound like the kind 
of strategy and plan that I would hope for a unit of such 
distinction.
    Admiral Mullen. Understood.
    Mr. Heinrich. Mr. Chairman, I yield back the balance of my 
time.
    The Chairman. Thank the gentlemen.
    By virtue of the fact that we have three votes, we will 
have to end our hearing.
    If there are any questions to be submitted for the record--
I think Mr. Abercrombie might have one--please do so, or if 
anyone else, please do so and have the staff pass them over.
    We will not return, because the votes will take us well 
past 3 o'clock.
    But thank you so much for your testimony and for your 
service, look forward to seeing you again.
    The hearing has ended.
    [Whereupon, at 2:39 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                              May 13, 2009

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                              May 13, 2009

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T4550.001
    
    [GRAPHIC] [TIFF OMITTED] T4550.002
    
    [GRAPHIC] [TIFF OMITTED] T4550.003
    
    [GRAPHIC] [TIFF OMITTED] T4550.004
    
    [GRAPHIC] [TIFF OMITTED] T4550.005
    
    [GRAPHIC] [TIFF OMITTED] T4550.006
    
    [GRAPHIC] [TIFF OMITTED] T4550.007
    
    [GRAPHIC] [TIFF OMITTED] T4550.008
    
    [GRAPHIC] [TIFF OMITTED] T4550.009
    
    [GRAPHIC] [TIFF OMITTED] T4550.010
    
    [GRAPHIC] [TIFF OMITTED] T4550.011
    
    [GRAPHIC] [TIFF OMITTED] T4550.012
    
    [GRAPHIC] [TIFF OMITTED] T4550.013
    
    [GRAPHIC] [TIFF OMITTED] T4550.014
    
    [GRAPHIC] [TIFF OMITTED] T4550.015
    
    [GRAPHIC] [TIFF OMITTED] T4550.016
    
    [GRAPHIC] [TIFF OMITTED] T4550.017
    
    [GRAPHIC] [TIFF OMITTED] T4550.018
    
    [GRAPHIC] [TIFF OMITTED] T4550.019
    
    [GRAPHIC] [TIFF OMITTED] T4550.020
    
    [GRAPHIC] [TIFF OMITTED] T4550.021
    
    [GRAPHIC] [TIFF OMITTED] T4550.022
    
    [GRAPHIC] [TIFF OMITTED] T4550.023
    
    [GRAPHIC] [TIFF OMITTED] T4550.024
    
    [GRAPHIC] [TIFF OMITTED] T4550.025
    
    [GRAPHIC] [TIFF OMITTED] T4550.026
    
    [GRAPHIC] [TIFF OMITTED] T4550.027
    
    [GRAPHIC] [TIFF OMITTED] T4550.028
    
    [GRAPHIC] [TIFF OMITTED] T4550.029
    
    [GRAPHIC] [TIFF OMITTED] T4550.030
    
    [GRAPHIC] [TIFF OMITTED] T4550.031
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                              May 13, 2009

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. TAYLOR

    Secretary Gates and Admiral Mullen. Section 548 of the FY 2009 
National Defense Authorization Act, entitled Increase in Number of 
Units of Junior Reserve Officers' Training Corps, mandates that the 
Secretary of Defense, in consultation with the Secretaries of the 
military departments, develop and implement a plan to establish and 
support, not later than September 30, 2020, not less than 3,700 units 
of the Junior Reserve Officers' Training Corps. This section also 
requires that a report be submitted on my behalf detailing how the unit 
growth would be realized as well as Department efforts to enhance 
employment opportunities for qualified former military members retired 
for disability, especially those wounded while deployed in a 
contingency operation. My office is working with the Services to submit 
a report to the Congress that will lay out the expansion initiative as 
well as the action plan for encouraging wounded warrior employment as 
instructors. [See page 25.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. JONES

    Secretary Gates and Admiral Mullen. Hyperbaric oxygen is a 
treatment, in which a person breathes 100% oxygen intermittently while 
inside a hyperbaric chamber at a pressure higher than sea level 
pressure. The Undersea and Hyperbaric Medical Society (UHMS), the 
primary source of hyperbaric medicine worldwide, follows a robust 
process to approve indications for hyperbaric oxygen treatment therapy 
(HBO<INF>2</INF>). The UHMS has approved 13 indications for 
HBO<INF>2</INF>, including decompression sickness, carbon monoxide 
poisoning, problem wounds, and air/gas embolisms. The UHMS has not 
approved mild traumatic brain injury (TBI) as an indication for 
HBO<INF>2</INF>, noting a lack of scientific literature to support such 
an endorsement. Some hyperbaric clinicians have used HBO<INF>2</INF> in 
an ``off label'' manner to treat patients with mild TBI. Compelling 
case reports regarding the benefit of ``off label'' use of 
HBO<INF>2</INF> for service members with chronic, mild TBI have been 
reported, but no well-designed clinical trials have been completed; 
therefore, HBO<INF>2</INF> cannot be accepted as standard of care for 
mild TBI. Although it is considered relatively safe, potential risks 
include barotrauma, seizures, and symptoms of high oxygen blood levels.
    An HBO<INF>2</INF> study is anticipated to begin in August 2009, 
pending Food and Drug Administration approval of an Investigative New 
Drug application. A Department of Defense (DOD) appointed Institutional 
Review Board has granted provisional approval. Study completion is 
anticipated within 18 months.
    DOD is committed to rapidly, but safely, determining the efficacy 
of HBO<INF>2</INF> for mild to moderate TBI. Findings from this study 
may warrant a new standard of care for patients with chronic TBI, 
justify future research, and change reimbursement policy regarding 
HBO<INF>2</INF> for TBI. [See page 24.]

                                 ______
                                 
             RESPONSES TO QUESTIONS SUBMITTED BY MR. FORBES

    Secretary Gates and Admiral Mullen. The non-disclosure statements 
were signed by the senior leaders of the Department of Defense and 
other key personnel who participated in the budget process. [See page 
26.]
    Secretary Gates and Admiral Mullen. Under Title 10 U.S.C. 231, the 
Secretary of Defense is required to submit with the Defense Budget an 
Annual Long Range Plan for the Construction of Naval Vessels and 
certification that both the budget for that fiscal year and the Future 
Years Defense Program is adequate.
    As the National Security Strategy is due for release this summer, 
the Navy has advised me that it is prudent to defer the FY 2010 report 
and submit its next report concurrent with the President's FY 2011 
budget. The FY 2010 President's budget fully funds the construction of 
naval vessels for FY 2010.
    The President's budget submission for FY 2010 represents the best 
overall balance between procurement for future ship and aircraft 
capability with the resources necessary to meet operational 
requirements and affordability.
    In addition to the National Security Strategy, the statutory 
guidelines required the report to reflect the Quadrennial Defense 
Review (QDR). The latest QDR is ongoing in parallel with the National 
Security Strategy work. Also, the Nuclear Posture Review, which has 
direct bearing on the numbers of strategic ballistic missile 
submarines, is due for completion incident with submission of the FY 
2011 budget. In addition, a Ballistic Missile Defense Review is ongoing 
and is also due for completion with the FY 2011 budget. These efforts 
will likely have a substantive impact on the Navy's force structure 
requirements.
    Although Naval forces are arrayed to meet demands of a number of 
missions including support of Combatant Commanders, security 
cooperation, and humanitarian assistance, the Navy has been able to 
largely meet these demands with the force we have in commission today. 
[See page 28.]

                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. SMITH

    Secretary Gates and Admiral Mullen. Pursuant to Section 901 of the 
Duncan Hunter National Defense Authorization Act for Fiscal Year 2009, 
Commander, United States Special Operations Command (CDRUSSOCOM) 
prepared the Personnel Management Plan for Special Operations Forces 
(SOF). Their plan was closely coordinated with each of the Military 
Services and Departments, the Joint Staff, and members of my staff.
    The plan contains 11 initiatives which increase USSOCOM's 
involvement in SOF personnel planning and management. Specifically, 
involvement will increase in areas such as: Service assignment/manning 
guidance, command selection process, and compensation policies as they 
relate to special operations personnel. The majority of these 
initiatives would be implemented through agreements between USSOCOM and 
the Military Departments or Services, while others may require DOD 
policy changes.
    In one of the initiatives, however, USSOCOM proposes amending title 
10, United States Code, to enhance its SOF personnel management 
authority. Amendment to title 10 is not necessary to achieve USSOCOM's 
purpose. Instead, a revised Department of Defense Directive will 
implement much of the substance of the USSOCOM plan.
    Unique challenges exist relating to the effective management of our 
Special Operations Forces. Through the development of the SOF personnel 
management plan, USSOCOM and the Services discussed current practices, 
identified areas of concern, and ultimately agreed upon the path 
forward. This process illuminates USSOCOM's substantial influence 
regarding the various different decisions that are made in terms of 
managing the personnel of the special operations community. The plan's 
initiatives, modified as indicated above, provide USSOCOM the authority 
necessary to enhance manpower management and improve the overall 
readiness of special operations forces. [See page 33.]

                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. TURNER

    Secretary Gates and Admiral Mullen. The Department is currently 
examining the issues surrounding child custody determinations involving 
Service members. Upon completion of this evaluation the Department will 
provide a substantive response by separate letter. [See page 34.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                              May 13, 2009

=======================================================================

      
                 QUESTIONS SUBMITTED BY MR. THORNBERRY

    Mr. Thornberry. In addition to everyday operations in Iraq and 
Afghanistan, the United States defends against cyber attacks every day. 
What War Powers does the President have, or need, to engage in 
defensive or offensive cyber warfare while observing the Constitutional 
power given to Congress to declare war? Do you need Congress to pass a 
war resolution to launch a cyber war? What is the difference between a 
cyberwar and everyday cyber operations?
    Secretary Gates. Section 3 of the War Powers Resolution (Public Law 
93-148) provides that the ``President in every possible instance shall 
consult with Congress before introducing United States Armed Forces 
into hostilities or into situations where imminent involvement in 
hostilities is clearly indicated by the circumstances, and after every 
such introduction shall consult regularly with the Congress until 
United States Armed Forces are no longer engaged in hostilities or have 
been removed from such situations.'' Section 4 further provides that 
the President shall submit a report to the Speaker of the House of 
Representatives and to the President pro tempore of the Senate within 
48 hours of when U.S. Armed Forces are introduced into hostilities or 
situations where imminent involvement in hostilities is clearly 
indicated; into the territory, airspace, or waters of a foreign nation 
while equipped for combat; or in numbers that substantially enlarge 
U.S. Armed Forces equipped for combat already located in a foreign 
nation. Since the enactment of the War Powers Resolution in 1973, 
Presidents have submitted more than 120 reports to Congress consistent 
with the War Powers Resolution as a part of their efforts to keep the 
Congress informed about deployments of U.S. combat-equipped Armed 
Forces around the world.
    DOD defensive and offensive cyber activities are conducted as 
Information Operations (IO), which involve the integrated employment of 
Computer Network Operations (CNO), operations security, military 
deception, electronic warfare, and psychological operations. DOD policy 
provides that the employment of CNO is a core military competency that 
is one component of an integrated IO strategy to influence, disrupt, 
corrupt, or usurp adversarial human and automated decision making while 
protecting our own. CNO is comprised of computer network attack (CNA), 
computer network defense (CND), and related computer network 
exploitation (CNE) enabling operations.
    In peacetime, IO supports national objectives primarily by 
influencing adversary perceptions and decision-making. In crises short 
of hostilities, IO can be used as a flexible deterrent option to 
demonstrate resolve and communicate national interest to affect 
adversary decision-making. In conflict, IO may be applied to achieve 
physical and psychological results in support of military objectives.
    It is DOD policy that IO and CNO contribute to information 
superiority and are employed in concert with other military strategies 
and capabilities to provide a fully integrated warfighting capability. 
IO components, including CNO, are capabilities much like any other 
capability or weapon, i.e., they may be employed in support of the 
deployment of U.S. Armed Forces around the world. Their use alone, 
however, does not implicate the provisions of the War Powers 
Resolution.
    Every day cyber operations include routine CND, CNE, network 
operations, and information assurance activities. There is no 
internationally accepted definition of cyberwar, but DOD views the 
general concept of cyberwar in international law terms of a threat or 
use of force, which are incorporated in the DOD rules of engagement as 
hostile intent or hostile act. Specifically, all States retain the 
inherent right to respond in self-defense to a threat or use of force, 
and DOD rules of engagement recognize the United States' right to 
respond in self-defense to demonstrated hostile intent or a hostile 
act. In exercising its right of self-defense, the United States must 
comply with international law including the Charter of the United 
Nations and the law of armed conflict. International law does not 
define the terms hostile act, hostile intent, or threat or use of 
force; however, DOD rules of engagement define hostile intent and 
hostile act as follows:

        Hostile Intent. The threat of imminent use of force against the 
        United States, US forces or other designated persons or 
        property. It also includes the threat of force to preclude or 
        impede the mission and/or duties of US forces, including the 
        recovery of US personnel or vital USG property.

        Hostile Act. An attack or other use of force against the United 
        States, US forces or other designated persons or property. It 
        also includes force used directly to preclude or impede the 
        mission and/or duties of US forces, including the recovery of 
        US personnel or vital USG property.

    The President and I provide guidance to commanders through the DOD 
rules of engagement for when they may use force in self-defense in 
response to certain activities in and out of cyberspace. The President, 
however, must determine whether any particular hostile cyber activity 
against the United States is of such scope, duration, or intensity that 
the initiation of hostilities is an appropriate exercise of the United 
States' inherent right of self-defense.
    Mr. Thornberry. Recently, USD(P) Flournoy eliminated the Senate-
confirmed position of Assistant Secretary of Defense for Support to 
Public Diplomacy. With two active wars ongoing, it is as important now 
as it ever has been for the US to effectively deliver its strategic 
communications message to the world. With the elimination of this 
position, what is the DOD doing to participate in U.S. strategic 
communications?
    Secretary Gates. We are actively assessing how best DOD can 
contribute to broader U.S. Government strategic communication efforts. 
To align the organization's structure more closely with policy 
objectives, many functions of the former office of the Deputy Assistant 
Secretary of Defense for Support to Public Diplomacy have been shifted 
to other offices within OSD Policy. Policy's regional offices have 
primary responsibility for Defense Support to Public Diplomacy, in 
coordination with appropriate functional Policy offices. OSD Policy is 
also establishing a new global strategic engagement team to help 
coordinate DOD-wide strategic communications. This team will work 
closely with the State Department, the National Security Council 
staff's new Global Engagement Directorate, and other departments and 
agencies to ensure effective DOD support for interagency strategic 
communication efforts.

                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MILLER

    Mr. Miller. In recent hearings, Department of Defense (DOD) medical 
leadership has testified about the challenges of the Armed Forces 
Health Longitudinal Technology Application (AHLTA). Can you update me 
on what the Department plans to do to improve the effectiveness of 
electronic medical records in the future?
    Secretary Gates. DOD has a multi-faceted, multi-phased plan for 
fielding a significantly improved electronic health record (EHR) system 
intended to benefit Service members, retirees, their families, and 
other beneficiaries, as well as the Military Health System (MHS) 
community, operational commanders, and other stakeholders.
    DOD's vision is for an agile, responsive, and extensive EHR. DOD 
must achieve this vision to support the warfighter mission; enable the 
Virtual Lifetime Electronic Record; aid in the delivery of care for our 
wounded, ill and injured Service members; enhance health outcomes; 
improve cost effectiveness; provide for better health resource 
management and health community satisfaction; facilitate achievement of 
the patient-centric medical home concept to give patients a simpler, 
more personalized care experience; and offer enhanced care access, 
quality, and patient safety.
    The plan addresses key challenges with the current enterprise 
architecture, clinical workflow, interoperability and data sharing 
capabilities, and EHR design. DOD's detailed plan includes specific IT 
development and acquisition projects to modernize computing, 
communications and security infrastructure; improve alignment of MHS 
clinical workflow; implement an enterprise service bus to enable 
seamless data sharing; enhance and modernize current EHR back end 
infrastructure using service oriented architecture principles; improve 
clinical decision support; and enable an enterprise patient portal, 
giving patients electronic access to their medical records and health 
history.
    Mr. Miller. The Administration last month announced its intention 
to create a single Department of Defense/Department of Veterans Affairs 
(DOD/VA) electronic medical record. Can you provide any details on the 
timeline for this implementation as it relates to your Department?
    Secretary Gates. On April 9, 2009, President Barack Obama affirmed 
a mutual strategic objective for the DOD and VA: the definition and 
construction of a Virtual Lifetime Electronic Record (VLER) system that 
``will ultimately contain administrative and medical information from 
the day an individual enters military service throughout their military 
career, and after they leave the military.''
    VLER will require the Departments to identify and implement 
standards, protocols, and service-oriented design methodologies that 
enable the full electronic exchange and portability of healthcare data, 
benefits data, and administrative information of Service members and 
veterans. When fully implemented, VLER must provide gateways and 
standard interfaces between and among the applications and systems of 
DOD, VA, and other public and private sector service providers, 
accessible through adapters or application program interfaces. At all 
junctures, information must be exchanged in a secure and private 
format.
    The VLER approach will be service-oriented, open-architecture and 
standards-based. The design will emphasize consistent data definitions, 
information and exchange protocols, and presentation standards and 
formats. With more than half of DOD and VA healthcare provided in the 
private sector, the VLER approach must also provide for 
interoperability using national standards and the Nationwide Health 
Information Network. Within twelve months, we will seek to identify 
private sector healthcare providers to participate in pilot programs 
involving VLER integration and compliance.
    Mr. Miller. As the New, Post-9/11 GI Bill takes effect later this 
calendar year, please outline the steps that DOD is taking to inform 
servicemembers of these educational benefits prior to their separation.
    Secretary Gates. The Department of Defense Transition Assistance 
Program (TAP) is an interagency program and collaboration among the 
Departments of Defense, Labor, Veterans Affairs and Homeland Security. 
TAP consist of four components, listed below, with each agency 
responsible for its component.

    1.  Pre-separation Counseling--DOD and Military Services 
responsibility

    2.  VA Benefits Briefing--VA responsibility

    3.  Disabled Transition Assistance Program (DTAP)--VA 
responsibility

    4.  Department of Labor (DOL) TAP Employment Workshop--DOL 
responsibility

    During the ``Pre-separation Counseling'' session, separating 
Service members receive an overview of available transition services 
and benefits, to include information on education benefits (which has 
been expanded to include information on the new the Post-9/11 GI Bill). 
The transition counselor encourages the Service member to sign up for 
and attend VA Benefits Briefing, where a VA representative provides 
depth information on all VA benefits with new detailed information on 
the Post-9/11 GI Bill.
    OSD and each Military Department issued its own regulation, policy 
implementation guidance and instructions governing the Administration 
of the Post-9/11 GI Bill program. The Military Departments are required 
to ensure all eligible active duty members and members of he Reserve 
Components are aware that they are automatically eligible for 
educational assistance under the Post-9/11 GI Bill program upon serving 
the required active duty time as established in chapter 33 of Title 38, 
United States Code. Each Military Department is further required to 
provide active duty participants and members of the Reserve Components 
with qualifying active duty service individual pre-separation 
counseling or release from active duty counseling on the benefits under 
the Post-9/11 GI Bill and document accordingly. A summary of steps 
taken by each Military Department follows.
    ARMY: The Army conducts mandatory education benefits counseling to 
all Soldiers separating from the Army no later than 150 days before 
separation date. Counselors advise Soldiers but have no authority to 
make benefit determination. VA is the administrator of the Post-9/11 GI 
Bill program and is responsible for establishing eligibility and 
payment amounts. The Army's policy mandates education benefits 
counseling. Soldiers sign Department of the Army (DA) Form 669 [Army 
Continuing Education System (ACES) Record] attesting to the receipt of 
counseling after completion of mandatory counseling. The Director, Army 
National Guard (ARNG) is responsible for ensuring that all ARNG 
Soldiers are notified of Post-9/11 GI Benefits prior to demobilization. 
The Chief, Army Reserve is responsible for ensuring that all USAR 
Soldiers are notified of Post-9/11 GI Bill benefits prior to 
demobilization. Army soldiers separating are required to clear the 
local installation education center, where they are also informed about 
the Post-9/11 GI Bill. Separating Soldiers attending the VA Benefits 
Briefing (VA's portion of TAP) are also informed about the Post-9/11 GI 
Bill.
    Army policy was already in existence prior to the Post-9/11 GI Bill 
requiring Soldiers to clear their local installation Education Center 
as part of out-processing. The Post-9/ll GI Bill has been added to that 
process.
    MARINE CORPS: The United States Marine Corps informs separating 
Service members about the Post-9/11 GI Bill during the DOD/Military 
Services portion of TAP, called ``Pre-separation Counseling'' and 
during the VA Benefits Briefing (VA's portion of TAP). In addition, the 
Marine Corps Transition Assistance Management Program (TAMP) sent the 
VA Post-9/11 Benefits Briefing slides to all it's TAMP field managers 
for use to inform transitioning Service members about the Post-9/11 GI 
Bill. The Marine Corps transition staff also provides a copy of the VA 
Pamphlet 22-09-1 ``The Post-9/11 Veterans Educational Assistance Act of 
2008'' to transitioning Service members.
    NAVY: The Navy Transition Assistance Management Program (TAMP) had 
made the VA Factsheet 22-08-01, ``The Post-9/11 Veterans Education 
Assistance Act of 2008'' available to all Navy Transition Assistance 
Program sites for dissemination during TAP. The information is also 
covered during ``Pre-separation Counseling'' as well as by VA 
representatives during the VA Benefits Briefings. The Navy web site 
http://www.npc.navy.mil/CareerInfo/Education/GIBill/Post+9-
11+Educational+Assistance+Program.htm is available to provide 
information to Sailors on the Post-9/11 GI Bill.
    AIR FORCE: Air Force policy requires each separating/retiring 
Airman to complete DD Form 2648, ``Pre-separation Counseling Checklist 
for Active Component Service Members.'' Separating Airmen must contact 
the Airmen and Family Readiness Center (A&FRC) to schedule an 
appointment to receive Pre-separation Counseling. During the counseling 
session, the A&FRC staff will inform the Airman of available transition 
services and benefits, to include educational benefits. Airmen will be 
provided referral information to the Education and Training Section 
and/or a VA representative for detailed program information, 
eligibility requirements, etc.
    Additionally, the Department of Defense released video and print 
media regarding the New, Post-9/11 GI Bill.
    Mr. Miller. Given that the Air Force spent nearly three years 
trying to award a tanker replacement contract, starting with the RFI 
issued in April 2006, why is the DOD now considering throwing that body 
of effort away? The GAO provided clear recommendations to solve the 
problems associated with the contract award decision of Feb 2008. DOD 
then drafted Amendment 6 to the RFP, which embraced GAO's Decision. Why 
did DOD suddenly stop and now seem committed to throwing all of that 
effort aside in pursuit of wholly different acquisition strategy?
    Secretary Gates. The Department is fully committed to the Tanker 
recapitalization program. We are committed to a competitive process 
that meets the Air Force's requirements while ensuring proper 
stewardship of taxpayer dollars. The Department anticipates being able 
to solicit proposals from industry soon with award of a contract by 
late spring 2010. In our deliberations about the appropriate way ahead, 
the Departments of Defense and the Air Force have fully considered the 
GAO findings and all other lessons learned from past efforts. In this 
regard, we have taken into account the previous body of effort. On 
September 10, 2008, I notified Congress and the two competing 
contractors that the Department was terminating the competition for the 
tanker replacement contract. I determined, in consultation with senior 
Defense and Air Force officials, that the solicitation and contract 
award would not be accomplished by January 2009. Rather than hand the 
next Administration an incomplete and possibly contested process, I 
decided the best course of action was to provide the next 
Administration with full flexibility regarding the requirements, 
evaluation criteria and the appropriate allocation of defense budget to 
this mission. I have met a number of times with senior Defense and Air 
Force officials and will continue to do so in the near future as we 
determine the appropriate course of action with regard to the KC-X 
acquisition. We intend to consult with Congress as we finalize our 
approach.
    Mr. Miller. Can you provide me with the Department's updated 
position on an alternate engine for the Joint Strike Fighter?
    Secretary Gates. The President's Budget funds those programs that 
provide the best value to the taxpayer and the most critical 
capabilities to the Warfighter, within a constrained fiscal program. 
The Department acknowledges a competitive engine program could provide 
non-tangible benefits. The Department also recognizes potential life 
cycle cost savings could be realized well into the future. However, 
depending on the method used to calculate investment return, procuring 
an alternate engine could mean a net cost to the taxpayer. 
Additionally, a considerable investment would still be required in the 
near term to complete development of the F136 alternate engine. 
Finally, the costs required to procure, maintain, and sustain two 
distinct engines until the alternate engine reaches competitive 
maturity would require additional funding better used for higher 
Department priorities.
    Mr. Miller. On May 5, 2009 I received a very informative letter 
from the Secretary of the Air Force regarding an issue important to my 
district. Your Deputy Secretary of Defense instructed Secretary Donley 
to respond on his behalf to my question about an overpass near State 
Road (SR) 85 near Duke Field at Eglin Air Force Base. As referenced in 
the letter, can you please update me on the results of the USACE study 
and the Defense Access Roads submission? Additionally, can you please 
inform me what office and/or individuals are authorized to, and are 
currently working with the Florida Department of Transportation on this 
issue? I remain concerned that some in the DOD may be hesitant to 
engage directly with a state transportation agency.
    Secretary Gates. In June 2009, the U.S. Army Corps of Engineers 
completed the study on the best alternative for a SR85 overpass. The 
preferred alternative is a Conventional Diamond Interchange/Overpass, 
estimated to cost approximately $8.8 million. The interchange/overpass 
would span an area capable of accommodating six traffic lanes, which is 
the long-range, unfunded plan, by Okaloosa-Walton Transportation 
Planning Organization (OWTPO).
    The Army's Surface Deployment and Distribution Command (SDDC) is 
the Executive Agent for the Defense Access Roads (DAR) Program within 
the Department of Defense (DOD). SDDC has now received the study to 
initiate the process to determine whether a SR85 overpass/interchange 
near Duke Field will qualify under the DAR Program. If the project does 
qualify, DOD Military Construction (MILCON) appropriations can be used 
to pay for the overpass but, it will compete with all other MILCON 
projects for funding within the DOD appropriation process.
    The DOD has engaged Florida Department of Transportation (FDOT) and 
OWTPO as early as 2008 when The U.S. Army Corps of Engineers conducted 
an area traffic study. However, SDDC serves as the DOD's formal conduit 
to non-DOD transportation agencies, such as the FDOT and others. As 
this project moves forward we look forward to continuing both formal 
and informal communications with FDOT and OWTPO.
    We will contact your office when the results from the DAR program 
review are available.
    Mr. Miller. It is my understanding that you committed to move away 
100% exquisite solution to a more affordable commercial solutions that 
provide 80% of the capability. What is the defense department doing to 
ensure that commercial solutions are being seriously considered?
    Secretary Gates. The key to obtaining more affordable, commercial 
solutions is to make that a consideration at the very front-end of the 
process--starting with requirements definition and setting the scope of 
the analysis of alternatives as a result of the recently instituted 
Materiel Development Decision (MDD) review led by the Under Secretary 
of Defense (Acquisition, Technology and Logistics). One of the primary 
purposes of the MDD is to review the basis for and analysis supporting 
the need for a material solution and the requirements to be met. During 
this review, we consider the applicability of a commercial solution 
and/or the use of commercially available components. Additionally, it 
is DOD policy that promising technologies must be identified from all 
sources domestic and foreign, including government laboratories and 
centers, academia, and the commercial sector. (The conduct of science 
and technology activities must not preclude and, where practicable, 
must facilitate future competition.) Consideration of such technologies 
must be documented in the technology development strategy for the 
program. It is also Department policy that the Analysis of Alternatives 
must consider existing commercial off-the-shelf functionality and 
solutions. As the program moves through technology development, the 
resultant acquisition strategy for engineering and manufacturing 
development must also document consideration of commercial solutions 
and/or commercially available components.
    Mr. Miller. What is the anticipated cost-savings to the taxpayer 
from making investments in commercial tactical radio products?
    Secretary Gates. A competitive business strategy is used for the 
procurement of commercially developed radios. The Department 
establishes essential operational requirements and offers industry the 
opportunity to compete and provide a material solution. This is 
particularly the case for hand-held radios. This is exemplified by the 
radios procured under the Consolidated Single Channel Handheld Radio 
(CSCHR) contract. The CSCHR contract competes the AN/PRC-148 radio 
against the AN/PRC-152 radio to meet the multi-Service requirement for 
hand-held radios. Through the CSCHR contract, we have procured 112,514 
radios and 12,007 vehicle amplifier adapters to date. The contracting 
office received $919M from the Services and returned $428M due to 
savings through competition. It should be noted that the commercial 
radios procured under this contract all satisfy the safety and security 
requirements of the military through certification by the National 
Security Agency for information assurance, the Joint Interoperability 
Test Center for interoperability, and the Joint Tactical Radio System 
Test and Evaluation Laboratory for Software Computer Architecture 
compliance.
    Mr. Miller. Why does the DOD continue its investment in the Single 
Channel Ground and Airborne Radio System (SINCGARS) radios when more 
capable, Joint Tactical Radio System (JTRS) approved alternatives are 
available today?
    Secretary Gates. Our commitment to the development of JTRS radios 
remains strong. As these systems become available, they will be fielded 
and, in some cases, they will replace current systems in use. JTRS is 
not, however, a one-for-one replacement for SINCGARS. While SINCGARS is 
current force technology, it will continue to provide the robust voice 
communications capability our forces will need well into the future. 
Furthermore, the SINCGARS waveform is being included in JTRS to ensure 
interoperability with SINCGARS radios.
    Mr. Miller. My understanding is that since becoming Secretary of 
Defense you have not signed any documents regarding detainees at Naval 
Station Guantanamo Bay, Cuba and that in the previous administration 
Deputy Secretary of Defense England signed all relevant documents. Is 
this accurate? In the new Administration, who is signing all relevant 
documents? In the new Administration, who is the senior official in the 
Department responsible for decisions regarding the detainees?
    Secretary Gates. As the head of the Department of Defense, I am 
ultimately responsible for Department of Defense matters, including for 
detention policy. I, along with other senior officials in the 
Department, have signed documents regarding detention issues at 
Guantanamo. I have also asked former Deputy Secretary England and 
current Deputy Secretary Lynn to assume daily oversight 
responsibilities over detention issues, while keeping me fully 
informed. A number of other senior officials in the Department of 
Defense and across the U.S. Government also have responsibilities over 
detention issues.
    Mr. Miller. I request the DOD certify, in writing, that all 
political appointees, confirmed and nominated, that served in the 
Clinton Administration were not involved in the practice commonly 
referred to as extraordinary rendition.
    Secretary Gates. The Department of Defense's responsibilities and 
jurisdictional authority did not extend to monitoring which officials 
were or were not involved in extraordinary rendition practices during 
the Clinton Administration, and therefore the DOD cannot provide the 
certification that you request.
    Mr. Miller. With regard to the technique commonly referred to as 
waterboarding, what is the DOD's policy on waterboarding members of our 
military for training purposes? Please provide any relevant 
unclassified documents stating such policy.
    Secretary Gates. The Department of Defense (DOD) guidance on the 
use of ``waterboarding'' is that it is not used as a resistance 
training physical pressure. This guidance has been conveyed by the 
Defense POW/Missing Personnel Office and the Joint Personnel Recovery 
Agency in visits to Service Survival, Evasion, Resistance, and Escape 
(SERE) schools and during the annual SERE Training Conference and 
annual DOD SERE Psychology Conference since early 2007. Although DOD 
does not yet have written guidance on this issue, the Defense POW/
Missing Personnel Office (DPMO) is currently developing the final draft 
of a new personnel recovery training DOD Instruction that will soon be 
ready for Department-wide coordination. This DOD Instruction will 
provide comprehensive resistance training executive agent guidance on 
the use of physical pressures. Waterboarding will not be an approved, 
physical pressure for use in such training.
    Prior to 2007, the Navy was the only Service that opted to use the 
waterboard for training Naval personnel, and the technique was used 
prior to 2007 at the NAS North Island (San Diego, California) SERE 
School and from 2000 through 2005 at the NAS Brunswick (Brunswick, 
Maine) SERE School. Both schools no longer use the technique.
    Mr. Miller. Please provide the number of members of our military 
that have been waterboarded since 1992.
    Secretary Gates. We could find no records that would allow us to 
answer this question accurately. We do know that waterboarding was used 
only at the two Navy SERE schools and applied to only a limited number 
of students and instructors. We do not know with certainty how many 
persons were waterboarded during training at these schools.
    Mr. Miller. The Base Realignment and Closure Commission of 2005 
could not have anticipated the true costs of implementing all of its 
recommendations. The DOD has made progress in implementing the BRAC 
2005 but faces some challenges in meeting the statutory 15 September 
2011 deadline. What are you and your staff doing to ensure BRAC 2005 is 
fully funded and this deadline is met?
    Secretary Gates. To ensure BRAC is fully funded, the Department 
assesses the adequacy of funding during each annual Integrated Program 
and Budget Review and adjusts the program accordingly. The Department 
recognizes the unique challenges associated with implementing the more 
complex recommendations and the synchronization efforts required to 
manage the interdependencies among many recommendations. To apprise 
senior leadership of problems requiring intervention as early as 
possible, the Department institutionalized an implementation execution 
update briefing program in November 2008. These update briefings, 
representing 83 percent of the investment value of all recommendations, 
provide an excellent forum for business plan managers to explain their 
actions underway to mitigate the impacts of problem issues. The 
business managers have and will continue to brief the status of 
implementation actions associated with recommendations that exceed 
$100M on a continuing basis through statutory completion of all 
recommendations (September 15, 2011). The business managers are also 
required to brief other plans for which they have concerns.
    All recommendations are currently fully funded and on track to be 
implemented by the statutory deadline of September 15, 2011.
    Mr. Miller. In late April, Computer spies have broken into the 
Pentagon's $300 billion Joint Strike Fighter project--the Defense 
Department's costliest weapons program ever. It was reported that while 
the spies were able to download sizable amounts of data related to the 
jet-fighter, they weren't able to access the most sensitive material, 
which is stored on computers not connected to the Internet. What is the 
Departments assessment of this attack? And what is the Department doing 
to ensure the security of the largest acquisition program ever?
    Secretary Gates. The Department's review indicated that no 
compromise of JSF program classified information has occurred. We 
remain confident that the Department's ongoing efforts will prevent 
unauthorized access to, or compromise of, classified U.S. technology 
and information on JSF and other programs involving industry. In 
addition, in response to the reported intrusion into JSF contractor 
unclassified networks, the Air Force Office of Special Investigations 
(AFOSI) conducted an independent investigation of the possible 
compromise. This investigation involved law enforcement and 
counterintelligence activities to determine if there was evidence of 
criminal activity. If desired, AFOSI can provide a classified briefing 
of the investigation and findings.
    With regard to enhancing overall protection of unclassified DOD 
information, the Department established the Defense Industrial Base 
(DIB) Cyber Security and Information Assurance (CS/IA) program in 
September 2007 to partner with cleared defense contractors to secure 
critical unclassified DOD information resident on, or transiting, DIB 
unclassified systems and networks. This DOD-DIB partnering model 
provides the mechanism to exchange relevant cyber threat and 
vulnerability information in a timely manner, provides intelligence and 
digital forensic analysis on threats, supports damage assessments for 
compromised information, and expands government-to-industry 
cooperation, while ensuring that industry equities and privacy are 
protected.
    Mr. Miller. Melissa Hathaway recently completed her review of the 
government's cybersecurity efforts. Organizational changes will be one 
of the most important changes required to address a national 
cybersecurity plan and recent reports indicate that the Department is 
considering a four-star sub-unified command under STRATCOM to address 
the cyber threat. What is the Department's plan, in light of this 
review, to address the cyber threat?
    Secretary Gates. We are pursuing a number of initiatives to address 
the threat in a long-term manner. These initiatives include 1) building 
a culture that makes cybersecurity a priority by training a cadre of 
experts who are equipped with the latest technologies while improving 
the training, awareness and accountability for all service members; 2) 
improving our capabilities by developing, through DARPA, a national 
cyber range that will allow us to test the skills and tactics being 
trained; and 3) developing USCYBERCOM to allow for a more coordinated 
and effective response to threats.
    The decision to create a sub-unified command under USSTRATCOM, 
USCYBERCOM, and place Joint Forces Component Command Network Warfare 
(JFCC-NW) and the Joint Task Force Global Network Operations (JTF-GNO) 
within a single command, will allow for efficiencies that could not be 
realized through operational command lines between the components. 
USCYBERCOM, as a Joint Force Commander, will be entitled to a joint 
staff to coordinate the functions of the command. Under this command, 
the primary focus will be directing operation and defense of the 
military's Global Information Grid (GIG). The Department will remain 
engaged in the national cybersecurity effort, as directed by the 
Comprehensive National Cybersecurity Initiative (CNCI), through 
continuous collaboration between cybersecurity centers that include 
USCYBERCOM once the organization has taken over the missions of JTF-
GNO.
    Additionally, the Services have created organizations to address 
the need for coordination and integration. The Army is creating the 
Network Enterprise Technology Command, the Navy created the Naval 
Network Warfare Command and the 24th Air Force is being stood up. These 
organizations will be integrated with the new USCYBERCOM to synchronize 
each Service's ability to conduct operations in the cyberspace domain. 
The Department of Defense is also engaged in a review of existing 
policy and strategy to develop a comprehensive approach to DOD 
cyberspace operations.
    Mr. Miller. One of the important aspects of Ms. Hathaway's review 
included the relationship between the government and business. In light 
of the recent computer attacks on the JSF, how is the Department 
working with companies like Lockheed Martin so that the data at one of 
their facilities is not compromised?
    Secretary Gates. The Department established the Defense Industrial 
Base (DIB) Cyber Security and Information Assurance (CS/IA) program in 
September 2007 to partner with cleared defense contractors to secure 
critical unclassified DOD information resident on, or transiting, DIB 
unclassified systems and networks. This DOD-DIB partnering model 
provides the mechanism to exchange relevant cyber threat and 
vulnerability information in a timely manner, provides intelligence and 
digital forensic analysis on threats, supports damage assessments for 
compromised information, and expands government-to-industry 
cooperation, while ensuring that industry equities and privacy are 
protected.
    Mr. Miller. In the past, the QDR (Quadrennial Defense Review) was 
criticized for being written to support the budget, rather than the 
other way around. Title X states, ``The Secretary of Defense shall 
every four years, during a year following a year evenly divisible by 
four, conduct a comprehensive examination (to be known as a 
``quadrennial defense review'') of the national defense strategy, force 
structure, force modernization plans, infrastructure, budget plan, and 
other elements of the defense program and policies of the United States 
with a view toward determining and expressing the defense strategy of 
the United States and establishing a defense program for the next 20 
years. How will the Department ensure the QDR is conducted to meet its 
Title 10 requirements?
    Secretary Gates. The Department's conduct of the 2010 Quadrennial 
Defense Review (QDR) is in full accord with the letter and intent of 
Title 10, U.S. Code, section 118. I am ensuring the full participation 
of the Chairman and Vice Chairman of the Joint Chiefs of Staff, the 
Combatant Commanders, leaders of our Military Departments and Services, 
and experts within and outside the Department of Defense. The views and 
recommendations of these experts are critical to our development of a 
defense program for the next 20 years.
    The 2008 National Defense Strategy (NDS) is the strategic point of 
departure for our analysis. The QDR Terms of Reference and my public 
statements regarding the President's Budget for Fiscal Year 2010 build 
on the NDS to further define our strategic priorities. Through the QDR 
process, we are assessing the right balance of capabilities needed to 
address current and future threats, taking into account lessons learned 
from ongoing operations and from prior reviews and analyses. I intend 
to deliver a QDR that is strategy driven, and am prepared to ask for 
the resources I believe necessary to meet the Nation's defense needs.
    Mr. Miller. The recent supplemental request by the President 
includes a new $400 million fund in which Defense and State will work 
to improve the ability of Pakistan's military to carry out 
counterinsurgency operations and disrupt the border havens. I would 
like to hear you elaborate on how this Pakistani Counterinsurgency 
Contingency Fund (PCCF) will be used? What are your thoughts on how the 
Department of Defense and the Department of State should work together 
with respect to this funding?
    Secretary Gates. The Pakistan Counterinsurgency Capability Fund 
(PCCF) focuses on building enduring capabilities for the Pakistani 
military to conduct counterinsurgency operations in support of U.S. 
efforts in Operation Enduring Freedom (OEF). The funding is designed to 
accelerate development of the Government of Pakistan's capacity to 
secure its borders, deny safe haven to extremists and provide security 
for the indigenous population in the border areas with Afghanistan. 
PCCF will fund counterinsurgency requirements such as helicopters, 
soldier equipment, and training. The Department proposed $400 million 
for PCCF in the FY09 supplemental and $700 million in the FY10 Overseas 
Contingency Operations request. DOD is grateful to Congress for 
supporting its request for $400 million for the Pakistan 
Counterinsurgency Fund (PCF) in FY 2009. The Secretary of State's 
concurrence on our use of PCF funding is required, and we will continue 
to work closely with our colleagues at State to ensure our national 
security objectives are addressed.
    For FY10, we have requested a clean transfer to DOD of the $700 
million Congress provided to the State Department to ensure 
uninterrupted execution of this critical program while both Departments 
work closely on putting plans in place for the State Department to 
implement the program in FY 2011. The State Department must have the 
flexible authorities, processes, and funding to be responsive to my 
Department's needs in order to manage this wartime authority.
    Mr. Miller. I support the need for acquisition reform and agree an 
element of that includes ensuring the workforce is comprised of the 
right mix of military, civil service and contractor personnel. However, 
it appears that the department budget assumes major savings as a result 
of FY10 conversions in contractor positions to civil service positions. 
I am very concerned with this on two counts. First, there does not 
appear to be any analysis available to justify ``what positions to 
convert'' and the timeline between today and first the day of FY10 is 
not sufficient to conduct that analysis and execute OPM hiring 
procedures. Secondly, the savings are assumed and deducted from the 
FY10 budget lines. Those savings appear to be very optimistic. 
Specifically, what analysis drove the decision on how many positions to 
convert?
    Secretary Gates. The Department recognized many contractors have 
been hired post-9/11 to meet the exigencies of temporary wartime needs. 
Prior to the war, contractors comprised approximately 26 percent of the 
government workforce, without any degradation of mission. Returning to 
this pre-war level of 26 percent from the current 39 percent equates to 
approximately 33,600 personnel. It is correct the Department cannot do 
that all at once. We developed a phased approach that requires 
conversion of approximately 13,600 personnel in FY 2010. This equates 
to an overall hiring increase of approximately 14 percent. The savings 
are based on the results of the conversions that have occurred to date.
    Mr. Miller. Given that Public Law 97-174, ``The Veterans 
Administration and Department of Defense Health Resources Sharing and 
Emergency Operations Act,'' mandated the sharing of Department of 
Defense/Department of Veterans Affairs (DOD/VA) resources, what is the 
overall progress, in specific numbers, of joint operations (not 
agreements signed)?
    Secretary Gates. A comprehensive account of the current progress of 
joint DOD/VA operations can be found in the VA/DOD Joint Executive 
Council Annual Report to Congress, located on the DOD/VA website at 
http://www.tricare.mil/DVPCO/default.cfm.
    Highlights of the latest numbers include:

    <bullet>  A VA/DOD Joint Strategic Plan (JSP), which includes a 
continuum of delivery concept, is managed through the Joint Councils 
(Joint Executive Council, Health Executive Council (HEC), and Benefits 
Executive Council). The JSP for FY 2009-2011 includes actions to 
implement more than 400 recommendations from the President's Commission 
on Care for America's Returning Wounded Warriors and other national 
advisory and review groups.

    <bullet>  Joint venture medical facilities currently exist at nine 
locations: North Chicago (Great Lakes Naval Station); New Mexico 
(Kirtland AFB); Nevada (Nellis AFB); Texas (Ft Bliss); Alaska 
(Elmendorf AFB); Florida (NAS Key West); Hawaii (Tripler AMC); 
California (Travis AFB); and Mississippi (Keesler AFB). A project is 
also underway to expand joint partnerships to full market areas, as 
well as increase the number of resource sharing sites.

    <bullet>  The North Chicago VA Medical Center and the Naval Health 
Clinic Great Lakes will merge into the Captain James A. Lovell Federal 
Health Care Center (FHCC) in 2010, and will serve both DOD and VA 
beneficiaries. The governance model provides a single line of authority 
within the FHCC and command and control responsibilities still resting 
with DOD/Navy and VA. A $20 million four-level parking garage is 
completed and construction is underway for a $99 million joint 
ambulatory care center, scheduled for August 2010. Six DOD/VA national 
workgroups (Leadership, Finance and Budget, Information Management/
Information Technology, Human Resource, Clinical, and Administration) 
oversee identification/resolution of issues.

    <bullet>  The Defense Center of Excellence for Traumatic Brain 
Injury (TBI) and Psychological Health (PH) established a means to 
improve consistency and quality of TBI/PH care across DOD and VA:

        <diamond>  Common access standards were published for mental 
        health services in both DOD and VA.

        <diamond>  Over 2,700 DOD, VA, and private sector providers 
        were trained in evidence-based treatments for post-traumatic 
        stress disorder and TBI.

        <diamond>  A common DOD/VA post-deployment TBI assessment 
        protocol was implemented.

    <bullet>  The Joint Electronic Health Records Interoperability 
Program is designed to support sharing of appropriate protected 
electronic health information between DOD and VA for shared patients.

        <diamond>  Since 2001, DOD has transmitted electronic health 
        information on over 4.8 million patients to the Federal Health 
        Information Exchange Data Repository for access by VA. Data 
        includes over 2.5 million Pre- and Post-deployment Health 
        Assessment (PPDHA) forms and Post-deployment Health 
        Reassessment (PDHRA) forms on more than one million separated 
        Service members and demobilized Reserve and National Guard 
        members.

        <diamond>  The Bidirectional Health Information Exchange (BHIE) 
        enables real-time sharing of clinical data for patients treated 
        in both DOD and VA.

        <diamond>  Inpatient discharge summaries are available from 20 
        of DOD's largest inpatient facilities (equating to 
        approximately 55% of total DOD inpatient beds) and from all VA 
        inpatient facilities.

        <diamond>  Theater clinical data from DOD is viewable by DOD 
        and VA providers on shared patients.

        <diamond>  DOD electronically sends VA radiology images and 
        scanned medical records for severely wounded and injured 
        Service members transferring from one of three major DOD trauma 
        centers to one of four main VA polytrauma centers.

        <diamond>  Through the established interoperability between 
        DOD's Clinical Data Repository and VA's Health Data Repository, 
        the agencies continue to exchange computable outpatient 
        pharmacy and medication allergy information which supports 
        drug-drug and drug-allergy checking for shared patients.

        <diamond>  The Departments established the DOD/VA Interagency 
        Program Office (IPO) in April 2008. The IPO oversees actions to 
        accelerate the exchange of electronic health care information 
        between the DOD and VA, and will monitor and provide input on 
        personnel and benefits electronic data sharing initiatives.

        <diamond>  The DOD/VA Interagency Clinical Informatics Board 
        (ICIB) was established to ensure clinicians have a direct voice 
        in the prioritization of recommendations for enhancing 
        electronic health data sharing.

        <diamond>  DOD and VA completed a Joint Inpatient Electronic 
        Health Record (EHR) feasibility study in 2008. The final 
        report, recommending that the Departments pursue a common 
        services strategy to enable DOD/VA inpatient EHR data sharing, 
        was briefed to and approved by DOD/VA executive leadership in 
        August 2008.

        <diamond>  DOD and VA data sharing activities underway for FY 
        2009 include:

                --  Inpatient documentation expansion;

                --  Document scanning (initial capability); and

                --  Expansion of questionnaires.

    <bullet>  AHLTA, the military EHR for DOD, is the cornerstone for 
health information management and technology. AHLTA includes data on 
more than 9.2 million beneficiaries and is the source of the majority 
of the health data shared with VA.

    Mr. Miller. How is the Department of Defense (DOD) addressing what 
appears to be an increasing number of discharges due to preventable, 
non-combat related injuries and the discharge rate due to the inability 
of some Service members to maintain weight standards? Oftentimes, these 
two issues are interrelated as military programs assume that one type 
of exercise fits all, thus creating injuries while seeking weight loss.
    Secretary Gates. Please understand that discharges secondary to 
inability to maintain weight standards are a personnel and leadership 
issue for which the individual Services are primarily responsible. 
Medically, the TRICARE Management Activity (TMA) has identified obesity 
and alcohol abuse as causes for some preventable, non-combat related 
injuries and is working to decrease their prevalence.
    In an effort to address weight loss and obesity prevention in the 
Active Duty family member and retiree populations, TMA recently 
concluded a one-year demonstration project studying the effects of 
specific weight loss interventions. Due to the successful results of 
the study, TMA is working to include weight loss tools such as coaching 
and medications in the TRICARE benefit. Additionally, the TMA Office of 
the Chief Medical Officer is partnering with TMA Communication and 
Customer Service on weight loss and nutrition education websites 
targeted towards our beneficiaries.
    The anti-alcohol campaign That Guy makes use of edgy humor 
specifically tailored to reach junior enlisted, with an emphasis on 
realistic embarrassing consequences of being That Guy, the one who gets 
drunk and out of control. The campaign was designed to be ``turn key,'' 
and over 1,500 local points of contact at 228 installations have been 
engaged in placing over one half million branded items into use. The 
Headquarters Marine Corps' Semper Fit Program Office continues to be 
engaged; the Navy Alcohol and Drug Abuse Prevention Program Office 
collaborated in printing and making the branded materials available 
through the Navy Logistic Library, and the Army Center for Substance 
Abuse Program provided funds to support additional central printing of 
the most popular campaign materials, and also to provide onsite 
contractor support of the campaign's deployment at their 26 largest 
installations. Based on the Defense Manpower Data Center's Annual 
Status of Forces Survey, DOD-wide campaign awareness in the target 
audience of junior enlisted has increased from 2% in 2006 (phantom 
awareness, pre-campaign deployment), to 14% in 2007, and 30% in 2008.
    Mr. Miller. Is the Department of Defense (DOD) giving any 
consideration to developing a policy for Hyperbaric Oxygen Therapy for 
injuries other than flight or diving incidents, such as traumatic brain 
injury?
    Secretary Gates. Yes, however, such policy will depend on the 
results of scientific evaluation of the therapy for its use in other 
situations, such as treatment for mild traumatic brain injury patients. 
The DOD is preparing a controlled trial that is scheduled to begin in 
August 2009, pending Food and Drug Administration approval of an 
Investigative New Drug application. Developing policies covering other 
potential Hyperbaric Oxygen Therapy uses must be preceded by 
scientific, orderly, and approved testing.
    Mr. Miller. Considering that the Department of Veterans Affairs 
(VA) only supports services and compensation for events documented in a 
medical record, how can the Department of Defense (DOD) ensure events 
involving contact with the enemy are properly recorded in a Service 
member's medical record? This is critical for traumatic brain injury 
(TBI), post-traumatic stress disorder (PTSD), and other related health 
conditions where a Service member may not have been penetrated by a 
bullet, for units where contact with the enemy does not provide time at 
that moment to document health issues in a medical record, or in cases 
where a medical professional is not available.
    Secretary Gates. The DOD agrees that visibility of all events that 
may impact individuals' short- or long-term health be made available to 
the VA. Currently, the science is not fully developed enough to 
identify all the events that may lead to a diagnosis of PTSD, since 
there is so much variability in individual response. However, DOD is 
taking the following actions in addressing this concern and will make 
this data available to the VA:

    1.  Specific questions are already included in the Post-Deployment 
Health Assessment and Post-Deployment Health Reassessment for personnel 
to self-report exposure events potentially causative for PTSD, TBI, and 
environmental exposures. These assessments are currently included in 
the medical records and will be made available in the electronic 
medical record in the future.

    2.  A longitudinal exposure record is under development, which will 
include documented occupational and environmental health (OEH) 
exposures (in medical records) as well as possible or unconfirmed 
exposures related to OEH surveillance.

    3.  The Personnel Blast and Contaminant Tracking (PBCT) System, 
developed by the Army National Guard as a means to identify a 
population at risk in the vicinity of a blast or chemical exposure 
incident, is used in Iraq by the Army. DOD intends to more fully 
develop this system for use for by all Services (Reference: 
Supplemental Appropriations Act of 2009, Senate Report 111-020, S. 
1054).

    4.  DOD is investing research and development efforts in ``smart'' 
technologies to allow capture of individual OEH exposures through the 
use of biomonitoring and personal chemical detectors that record and 
integrate exposures over time.

    Mr. Miller. Could you provide the analysis and documentation 
regarding the 1% of airfield accessibility improvement you stated the 
C-27J has over the C-130 and can you please provide the locations and 
ages for the 200 C-130s you claimed were in the inventory?
    Secretary Gates. Our airfield accessibility analysis showed that 
out of an airfield population of 25,122 airfields, there are 399 
airfields, outside CONUS, that are more than 50 miles from a C-130 
capable airfield which can handle JCAs but not C-130s. To highlight 
current operational accessibility, only three of the Afghanistan 
airfields are JCA-only capable. The Department's fleet of more than 400 
C-130s is sized to support the demands of a national emergency 
characterized by two overlapping wars concurrent with other ongoing 
lesser contingencies and homeland defense; this finite period of 
extremely high demand is not experienced in day-to-day operations. 
Right now, current operations in Operation IRAQI FREEDOM and Operation 
ENDURING FREEDOM require about 40 C-130s per day. Other operations 
require about 20 C-130s. In addition to these operational requirements, 
about 40 C-130s are committed to training, 14 support USPACOM, 8 
support USEUCOM, and 60-80 are in depot maintenance. This leaves about 
220-240 C-130s available. A list of current locations and ages of the 
C-130 inventory is attached.

[GRAPHIC] [TIFF OMITTED] T4550.032

[GRAPHIC] [TIFF OMITTED] T4550.033

[GRAPHIC] [TIFF OMITTED] T4550.034

[GRAPHIC] [TIFF OMITTED] T4550.035

    Mr. Miller. Could you please tell the committee what has changed 
since the Quadrennial Roles and Missions document was signed by you 
earlier in the year?
    Secretary Gates. The 2009 Quadrennial Roles and Missions (QRM) 
Review is a key input to the ongoing Quadrennial Defense Review (QDR). 
The 2009 QRM prepared the Department to take a hard look at balancing 
the demands of winning today's wars with preventing tomorrow's 
conflicts. Many of the areas examined in the QRM Review feed directly 
into the QDR. For example, the Department has almost completed plans 
for increasing the size of Special Operations Forces and has begun the 
process of rebalancing the capabilities of our General Purpose Forces 
to meet the challenges of the 21st Century. In the area of cyberspace, 
the Department has recently established a new Deputy Assistant 
Secretary of Defense with the responsibility of cyberspace oversight, 
and has established a cyberspace Joint Task Force under U.S. Strategic 
Command. Intra-theater airlift continues to receive attention as the 
Air Force and Army develop the C-27J (Joint Cargo Aircraft) Concept of 
Operations to meet operational demands. Unmanned Aircraft Systems/
Intelligence, Surveillance, and Reconnaissance (UAS/ISR) capabilities 
will be expanded as the Air Force continues procurement and deployment 
of the MQ-9 Reaper.
    Building upon the work completed in the QRM, the Department is 
developing and evaluating options in the QDR to rebalance U.S. forces 
for the range of future challenges. The QDR analysis approach 
emphasizes developing alternative force options to meet the demands of 
the defense strategy. Thus far, we have conducted a review of strategy 
and overall guidance, assessed the capabilities of the programmed 
forces against selected scenarios, and developed proposed alternatives 
and initiatives to rebalance the force. Some of the proposed 
initiatives considered have directly capitalized on the QRM work, 
including irregular warfare, cyberspace and UAS/ISR capabilities. I am 
confident that we are moving the department to a more balanced set of 
capabilities to employ in the dynamic and challenging strategic 
environment, now and in the future.

                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BISHOP

    Mr. Bishop. On March 18, 2009, I joined with the entire Utah 
Congressional Delegation to send you a letter asking you to personally 
review the matter of sustaining the U.S. Industrial Base with regard to 
ICBM solid rocket motor sustainment, engineering and manufacture. We 
received an interim reply from you dated April 10, 2009 which informed 
us that you had delegated the final response to the Air Force 
Secretary. However, because of the non-disclosure rule you had in place 
at the time, the Air Force was unable or unwilling to respond to our 
concerns, and now 60 days later, we have not yet received a responsive 
answer from you or anyone at the Department of Defense on that subject 
in spite of our urgent request.
    Secretary Gates. The FY10 President's budget request includes 
funding for a Solid Rocket Motor (SRM) Warm Line program to maintain a 
low-rate Minuteman III SRM industrial manufacturing capability. The 
effort promotes design-unique material availability, sub-tier material 
supplier viability, and production/manufacturing skills.
    As part of the FY09 Omnibus submission the Department of Defense 
submitted a New Start request to initiate the Warm Line program in 
2009, using funds made available by deferring some of the Propulsion 
Replacement Program (PRP) closeout activities (e.g., storage of tooling 
and employee severance packages). The scope of the FY09 effort is 
dependent on final costs for PRP closeout currently under negotiation 
between the ICBM Prime Integrating Contractor and the sub-contractor.
    Mr. Bishop. What is the disposition of the FY09 close-out funds in 
Air Force for the Propulsion Replacement Program (PRP)?
    Secretary Gates. The FY09 funds for the Minuteman III Propulsion 
Replacement Program ($62.6M) included $39M for program closeout. The 
U.S. Air Force obligated $29M for closeout to cover severance actions 
planned by the sub-contractor (approximately 75 to 80 percent of the 
PRP workforce). The ICBM Prime Integrating Contractor continues to 
negotiate with the sub-contractor to identify which of the remaining 
closeout activities can be deferred to the Solid Rocket Motor (SRM) 
Warm Line program. Deferral of the remaining closeout tasks will enable 
the Air Force to initiate the SRM Warm Line program in FY09 as 
encouraged by Congress. While negotiations are pending, the Air Force 
proposed realignment of the remaining PRP closeout funds to the SRM 
Warm Line effort and requested New Start Approval in the FY09 Omnibus 
submitted to Congress.
    Mr. Bishop. What funding is included in the FY10 defense budget 
submission for a ``warm-line'' or industrial base sustainment program 
for Minuteman III?
    Secretary Gates. The FY10 President's Budget requests $43M for the 
Solid Rocket Motor Warm Line.
    Mr. Bishop. On page 125 of your FY10 budget documents under Missile 
Procurement, Air Force, it says that the Air Force is proposing 
acquisition of only one Minuteman III engine set to sustain the ``warm 
line'' or industrial base at $43 million ($37.5 million plus $5.7 
million for support equipment). The industrial base indicates that a 
minimum of six engine sets is necessary to maintain an adequate 
industrial base. What analysis was used by DOD or the Air Force to 
justify the budgeting of just one motor set in FY10 as being sufficient 
to maintain a warm line capability for solid rocket ICBM motor 
engineering, sustainment and manufacturing, when industry insists that 
six is the minimum number?
    Secretary Gates. The ICBM Solid Rocket Motor Warm Line will 
maintain material supplier availability and touch labor currency. 
Furthermore, it will maintain continuity of design and engineering 
personnel unique to the Minuteman weapon system. As a new start in FY 
2010, funds will be used for initial long-lead procurement and cold 
factory start-up following at least a 3-month gap from the last 
Propulsion Replacement Program (PRP) booster delivery in August 2009. 
When the Air Force factored in these non-recurring costs, remaining 
funding in FY 2010 was estimated to be sufficient for one complete 
booster set. Actual production quantities are unknown until the 
contract is definitized.
    Mr. Bishop. Was the omission of KEI cancellation in your April 5th 
statement intentional or inadvertent? If it was intentional, please 
state your reason.
    Secretary Gates. The omission was inadvertent.
    Mr. Bishop. Would you support rescinding the stop-work order 
temporarily until these important questions can be reviewed and 
discussed with the Congress?
    Secretary Gates. This question is now overcome by events. The 
termination notice for the KEI program was issued on June 10, 2009.
    Mr. Bishop. Did you have firm contract termination costs associated 
with the stop-work order on hand prior to approving the stop-work 
orders? If so, what are those costs?
    Secretary Gates. At the time of the Stop Work Order, the Agency had 
not started the process for negotiation of the termination of the KEI 
contract; however, termination liability costs were provided by 
Northrop Grumman in accordance with clause H.4, ``Continuation Reviews 
and Liability'' of contract. The termination costs were estimated to be 
$40M based on termination in June 2009.
    Mr. Bishop. Does the DOD/MDA have a spending plan or proposal for 
any unspent FY09 KEI funds, and what are those plans?
    Secretary Gates. MDA is working through the process of determining 
the final termination costs and planning for costs associated with 
disposition of hardware and other assets. The Federal Acquisition 
Regulation allows the contractor one year from termination notification 
to provide the termination cost proposal. The Agency will assess use of 
remaining funds, if there are any, at that time.
    Mr. Bishop. Why do you not support going forward with the planned 
KEI missile test this summer inasmuch as the engine set has been built 
and already delivered to the test site, $1 billion in taxpayer funds 
have already been invested in KEI, and when completing such a test 
would likely yield important scientific data that could prove useful in 
future missile defense research and development efforts?
    Secretary Gates. There was little utility in flight testing the 
test article or its design since the flight article was significantly 
different than the eventual design of the objective KEI booster. 
Additionally, Northrop Grumman's proposed schedule to complete the 
launch on September 2009 introduced significant program risk.
    Mr. Bishop. You stated in today's HASC hearing that the KEI program 
was a 14-year program, when in fact, the current KEI development 
contract was awarded in 2003. So it is really a 5-year-old program. 
Upon which facts did you base the assertion that it is a 14-year 
program?
    Secretary Gates. You are correct; the current KEI contract is 5 
years old. My reference to a 14 year program was to the actual schedule 
growth. The original KEI mission grew from a boost phase only mission 
to a boost and mid-course mission, the development schedule grew 
accordingly to 12-14 years (from start to projected completion, 
depending on spirals), and the program costs grew from $4.6B to $8.9B 
with the missile average unit production cost growth from $25M to over 
$50M per interceptor. For these reasons the FY 2010 President's Budget 
submission removed funding from the Kinetic Energy Interceptors (KEI) 
program following the Missile Defense Executive Board's recommendation 
that the KEI program be terminated due to cost growth, schedule delays, 
and technical risk.
    Mr. Bishop. You stated that KEI test firings were a ``failure,'' 
which contradicts Missile Defense Agency press releases and information 
to the contrary that seven out of ten planned test firings were 
successful. How do you respond to this discrepancy?
    Secretary Gates. There were three notable failures during the 
rocket motor test campaign: a first stage rocket motor case failed 
during a pressure test, leading to a successful redesign of both first 
and second stage case winding processes; a materials defect issue 
caused a second stage rocket motor nozzle failure during a motor 
firing, leading to a change of nozzle material and nozzle material 
inspection process; and, a higher than desired motor pressure at 
startup was noted on that same motor firing and resulted in a change of 
the internal geometry of the second stage rocket motor. All three 
corrective actions were demonstrated successfully in the next second 
stage rocket motor firing. The static fire campaign allowed for 
failures to be identified, reworked, and then retested while on the 
ground versus a more costly flight test environment.
    Mr. Bishop. You stated that KEI does not have a platform and relies 
upon being proximate to the enemy launch area to be successful. I 
dispute those claims because I am informed that because of KEI's reach, 
high acceleration and mobility, it does NOT need to be close to enemy 
launch sites, and that no other planned system has KEI's speed or reach 
in countering ICBM and IRBM threats. How do you respond to those 
specific rebuttals?
    Secretary Gates. KEI does not have a launch platform in 
development. Boost phase interception relies on timely sensor detection 
and tracking, timely communications, as well as weapon proximity and 
performance (acceleration, speed, and reach) for successful execution.
    Mr. Bishop. In the hearing today, you indicated that you would 
support continued research and development for the ``boost phase'' of 
missile defense. And yet, Secretary Gates' decision to place an 
immediate stop-work order on completion of the Kinetic Energy 
Interceptor (KEI) program will also stop a planned test firing of the 
KEI interceptor in less than five months from now even as the 
interceptor motor has already been built and delivered to the test 
site. Given your earlier statement today that you support continued 
research and development for boost-phase, would it not also be 
consistent for you to support the completion of this upcoming KEI test 
that would almost certainly yield tremendous scientific and engineering 
data that would be beneficial to future missile defense efforts?
    Secretary Gates. I support the Secretary's decision. The Missile 
Defense Agency allowed the contractor to submit a proposal to conduct a 
flight test with the available funds. The contractor submitted two 
proposals; both fell short of adequately addressing the technical risk 
associated with a flight test. Additionally, the KEI development effort 
to date has provided valuable technical data during both development 
and static engine tests, which will be utilized in future programs. The 
stop-work order will ensure sufficient funds remain in FY09 to cover 
the estimated $40 million legal liability for termination.
    The Missile Defense Agency continues R&D efforts in ``early 
intercept'' which I view as a derivative of ``boost phase'' intercept.

                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. KLINE

    Mr. Kline. USA Today reported on 8 May, 2009 that the Army National 
Guard is being asked to reduce its end strength by 10,000 soldiers by 
the end of the fiscal year. The FY10 Defense budget increases the size 
of the Army Guard by approximately 10,000 soldiers (increase plus the 
103-percent over-strength authorization). Why isn't the Department 
funding the Guard's current strength? It seems counterproductive to 
force out qualified soldiers now only to enlist new soldiers in 
October. Additionally, the current high deployment schedule has not 
allowed the dwell time to reach the goals set for both the AC and RC 
forces.
    Secretary Gates. The Army National Guard (ARNG) proposed growing 
its end strength to 371K and create a Trainees, Transients, Holdees and 
Students account in order to increase the readiness of deploying units 
and decrease cross leveling of Soldiers. Because of funding constraints 
that proposal was not accepted, and the ARNG is reducing end strength 
accordingly to congressionally authorized levels. The ARNG has taken 
numerous actions to discharge Soldiers at an accelerated rate and to 
slow recruiting. Together these steps have reduced ARNG end strength 
from 368K to 362K and it continues to fall. Additionally, the 
elimination of Stop Loss authority will provide new challenges to unit 
manning for deploying units. The ARNG is requesting authority from the 
department to use the congressionally authorized end strength variance 
of 3% and the funding associated with that 3% to achieve an end 
strength of 358.2K. At this time, we do not have resolution on whether 
that request with funding will be approved. If approved, the ARNG will 
be able to stabilize deploying units and provide better dwell for the 
Citizen-Soldiers who are answering the Nation's call.
    Mr. Kline. When the Yellow Ribbon Program was being considered, DOD 
insisted on serving as the executive agent for the program; rather than 
the more decentralized model proposed with NGB serving as the lead, 
implementing a decentralized state-centric model. Can you address any 
major initiatives the DOD has promoted to advance the program? Do we 
need to reconsider implementing a more state-centric management of 
service member, family, and employer reintegration?
    Secretary Gates. The DOD Yellow Ribbon Reintegration Program (YRRP) 
Office for Reintegration Programs (ORP) has been established and 
staffed with individual Service Liaison Officers (LNOs) who are the 
link to their respective National Guard and Reserve component 
reintegration programs. They are working directly with their Program 
Managers to align their programs with the goal of the DOD YRRP sharing 
services to reach all Service members and their families as close to 
their residence as possible. A Veterans Affairs (VA) Liaison, also 
assigned to the DOD YRRP ORP, is working closely with DOD YRRP 
management and the Service LNOs at the policy level, providing 
technical expertise and guidance relative to the VA benefits and 
services available to National Guard and Reserve members and their 
families.
    The DOD Yellow Ribbon Program Specialist Pilot is now being 
launched in ten states. The goal is to have a Program Specialist in 
each state engaging with the governor's staff to ensure that high 
quality, robust resourcing is available to support the reintegration 
events. The DOD YRRP Decision Support Tool (DST), a national calendar 
and map of events, that captures information to manage and locate 
events at the national, state, and local levels, has been developed. 
DOD YRRP Center for Excellence in Reintegration (CfER) has designed a 
method to sort and evaluate the programs, materials, and presentations 
from the field to be posted on the DST repository. The DOD YRRP Web 
site, www.dodyrrp.org, near completion and linked to the DST, provides 
program policy and information targeted to specific stakeholder 
audiences, and an extensive links section to other Web sites and 
information resources related to the YRRP.
    The DOD YRRP Department of Defense Instruction (DODI) providing 
guidance for Services to implement their reintegration programs to 
align with the mission of the DOD YRRP, is in the final coordination 
process. DOD YRRP Strategic Communications has developed a logo, 
slogan, and promotional and marketing materials used at conferences and 
events to provide information to Service members, their families, 
providers, leaders and YRRP partnering organizations. Program 
management best practices have been developed and implemented via the 
governance plans for risk, quality, and data management, for strategic 
communications, and program management. The DOD YRRP Charter is under 
development. The DOD YRRP Advisory Board has been instituted and is 
proceeding to monitor the DOD YRRP and addressing any requirements to 
fulfill the full intent of the PL 110-181, Sec. 582, assisting Service 
members and their families in receiving optimal services during the 
deployment cycle. Additionally, a Departmental Instruction for the YRRP 
Advisory Board is being developed.
    Mr. Kline. Can you elaborate how the Yellow Ribbon Program is being 
funded? I understand costs associated with a deployment were to come 
from OCO funds and basic program funds would come from the base budget. 
However, I was recently informed that in the USAR all funds ($58.5mil) 
were coming from OCO funds. Do we know if this is happening with the 
ARNG; ANG; and reserve units in the Air Force, Navy, and Marine Corps? 
Additionally, do we know the total funding for each branch and 
component?
    Secretary Gates. The Yellow Ribbon Reintegration Program (YRRP) is 
funded primarily in the Department's FY 2010 Overseas Contingency 
Operations Request. The funding for each branch and component, by 
appropriation, are provided below. Funding to plan, manage, and stage 
events is funded in the base budget via the Office of the Assistant 
Secretary of Defense for Reserve Affairs (OASD (RA)).

                              FY 2010 YRRP
                              ($ millions)
------------------------------------------------------------------------
                                                      Military
                   OCO                       O&M     Personnel    Total
------------------------------------------------------------------------
Army Reserve                                  25.2         33.3     58.5
Army National Guard                           22.5         76.6     99.1
Navy Reserve                                   3.1          8.4     11.5
Marine Corps Reserve                           4.5          8.9     13.4
Air Force Reserve                              2.0         17.0     19.0
Air Force National Guard                      38.5         18.5     57.0
Defense-Wide JFSAP*                           62.0          0.0     62.0

Subtotal OCO                                 157.8        162.7    320.5
Base

Defense-Wide (OSD (RA))                       24.8          0.0     24.8

Total                                        182.6        162.7    345.3
------------------------------------------------------------------------
* Joint Family Support Assistance Program


    Mr. Kline. Can you report how many Yellow Ribbon Program events the 
DOD has overseen, the number of service members who have completed the 
program, and whether the program has been implemented as directed in 
the Directive-Type Memorandum (DTM) 08-029?
    Secretary Gates. The National Guard has fully implemented all 
programs as prescribed by Directive-Type Memorandum (DTM) 08-029 signed 
by the Under Secretary of Defense for Personnel and Readiness on 18 
July 2008. Furthermore, during the period from 1 October 2008 to 30 
June 2009 there have been 1,657 Service Members and 700 Family Members 
that have attended Yellow Ribbon Reintegration Program Events for the 
Air National Guard, and 41,460 Service Members and 47,868 Family 
Members that have attended Yellow Ribbon Reintegration Program Events 
for the Army National Guard.

                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER

    Mr. Shuster. Under your budget, there will only be roughly 100 
combat-coded F-22's available at any given time out of the total 186 
due to attrition from training and maintenance. The F-35 is designed to 
work in tandem with the F-22. If there are not sufficient numbers of F-
22's to ``clear the skies'' from threats and allow F-35's to fly 
uncontested, won't we be sacrificing air superiority in future 
conflicts and the same protection that has prevented the U.S. from 
losing a single soldier due to a threat from the air in over a half 
Century?
    Secretary Gates. Analysis has shown that 187 F-22s minus non-
operational fighters (training, maintenance, and attrition) combined 
with a robust buy of the F-35 Joint Strike Fighter, are what we need to 
deal with future threats. Given its multi-role capabilities, the F-35 
Joint Strike Fighter provides adequate offensive and defensive 
capability against all but the most advanced potential adversary 
aircraft threats. The Department does not believe we will be 
sacrificing air superiority in future conflicts.
    Mr. Shuster. Last month you described this budget as preparing us 
to ``fight the wars we are in today and the scenarios we are most 
likely to face in the years to come.'' History has proven that armed 
conflict is more prevalent in times of economic dislocation. Further, 
the notion that the future will largely resemble the present is 
contradictory with America's intelligence failures and repeated 
inability to accurately predict future threats with precision. What in 
the threat environment has changed to justify canceling the airborne 
laser program, halting the F-22 and cutting missile defense funding? 
Between Iran and North Korea acquiring nuclear weapons and Pakistan on 
the brink of collapse, isn't the threat environment becoming more 
unpredictable by the day?
    Secretary Gates. Although we have begun to shift resources and 
institutional weight towards supporting current wars and other 
potential irregular campaigns, the United States must still contend 
with security challenges posed by a broader range of threats. I foresee 
a future security environment that is highly complex, with a 
multiplicity of actors leveraging wide ranging tools to challenge our 
interests and strengths, and anticipate that U.S. forces in the future 
may face conventional threats from nation states, irregular threats 
from non-state actors, asymmetric threats from rising challengers, or a 
hybrid approach from a combination of actors. Striving for balance 
between prevailing in the conflicts we are in today and preparing for 
other, potentially quite different contingencies in the future threat 
environment remains one of our central challenges.
    The FY10 budget decisions are consistent with this full-spectrum 
approach that balances capability requirements to provide maximum 
flexibility across the broadest possible range of threats. To achieve 
this, we must set priorities and identify inescapable tradeoffs while 
intelligently apportioning risk. I have decided to restructure or 
terminate programs where significant affordability and technology 
problems are evident, where we are buying more capability than the 
Nation needs, or where a program's proposed operational role is highly 
questionable. In the area of missile defense, we are restructuring the 
program to focus on the rogue state and theater missile threat. The 
Department will continue to fund research and development robustly to 
improve the capability we already have to defend against long-range 
rogue missile threats.
    Mr. Shuster. The Administration has gone to great lengths to 
describe this defense budget as an increase. However, when you look at 
the core defense budgets from 2009 to 2010 and take inflation into 
account, we see a reduction in spending of about $5.5 billion. The 10-
year budget blueprint is even more troubling and cannot sustain roughly 
three-percent average annual growth above inflation necessary to 
recapitalize military equipment. Isn't this budget really the first of 
a series of defense cuts planned by the Obama Administration?
    Secretary Gates. By our calculations the FY 2010 base budget 
request is $533.8B--$20.5B higher than the $513.3B enacted for FY 2009. 
This is an increase of 4%, or about 2.1% after adjusting for inflation 
(real growth).
    Regarding the President's 10-year budget blueprint, it is premature 
to make any conclusion whether that or any other out-year project will 
prove to be sufficient for our defense needs. We first must complete 
and assess the Quadrennial Defense Review to decide what capabilities 
we really need, and then what funding and savings will enable us to 
field those capabilities.

                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. HUNTER

    Mr. Hunter. Mr. Secretary, from my understanding the sole source 
provider's engine for the F-35 was envisioned as a derivative engine of 
the Fl19 engine which is used to power the F-22 aircraft. How much has 
the Government spent to date in developing this so called derivative 
engine for the F-35?
    Secretary Gates. The F135 is a derivative of the F119 engine and is 
modified for the F-35 missions and usage. The turbomachinery is 
approximately 70 percent common with the F119 from a parts and 
manufacturing processes perspective. The engine's compressor shares the 
most common parts with F119 although part numbers will be different. 
The rest of the turbomachinery has commonality through design criteria 
and manufacturing processes.
    Funding for F135 engine development totals approximately $7.3 
billion from FY 1995 through FY 2009. This funding includes all of the 
design, development, test and delivery of the core F135 engine as well 
as the Short Take-off and Vertical Landing Lift System components and 
exhaust systems. It also includes Concept Development Phase propulsion 
development efforts for the Boeing Joint Strike Fighter concept that 
was not selected for system design and development.

                                 ______
                                 
                 QUESTIONS SUBMITTED BY MS. SHEA-PORTER

    Ms. Shea-Porter. The Department has halted conversion of GS 
employees into NSPS, and a pause for review was undertaken at the 
request of Chairman Skelton and my subcommittee Chairman Ortiz. With 
the increase in the civilian workforce that the Department's budget 
calls for, under what system will the new employees be hired?
    Secretary Gates. In his letter dated March 16, 2009, Deputy 
Secretary Lynn advised Chairmen Skelton and Ortiz that further 
conversions of organizations into the National Security Personnel 
System (NSPS) would be delayed pending the outcome of a comprehensive 
review of NSPS. However, during the review, those organizations already 
under NSPS prior to the delay in conversions would continue to operate 
under NSPS policies and processes. This means processing of normal 
personnel actions continues for individual employees moving into 
positions in organizations and functional units now under NSPS. Filling 
jobs and reclassification of positions are essential tools in helping 
ensure an organization is successful in meeting mission requirements.
    While existing NSPS organizations continue to follow NSPS policies, 
organizations covered by different human resources (HR) management 
systems will continue to hire new employees under their respective HR 
system.
    Ms. Shea-Porter. In the last several years, submarine accidents 
have led the Portsmouth Naval Shipyard to have to do unplanned and 
extensive repair work. Due to mission funding, the Shipyard is not 
allocated any extra funds to deal with such unanticipated repairs, and 
must take both workers and funds away from planned work. This impacts 
Shipyard efficiency, strains a limited budget, and can cause additional 
overtime. Given that unforeseen incidents will continue to occur, what 
plans does the Navy have to provide funds and manpower to the Shipyard 
to allow it to do this emergency repair work without reducing Shipyard 
efficiency and its budget for scheduled work?
    Secretary Gates. The Navy baseline budget does not include 
allowances for catastrophic events like those that have recently 
affected USS HARTFORD and USS PORT ROYAL. This would be true in either 
a mission funded or Navy working capital fund environment. When 
unforeseen incidents occur that require extraordinary shipyard repair 
efforts, manpower resources are realigned to the highest priority work 
and if required, previously scheduled work is deferred. The Navy goes 
to great lengths to schedule the emergent work to minimize impacts to 
shipyard efficiency and overtime.
    Ms. Shea-Porter. Excerpt from GAO-09-6 15 report-May 2009, MILITARY 
OPERATIONS Actions Needed to Improve Oversight and Interagency 
Coordination for the Commander's Emergency Response Program in 
Afghanistan: ``DOD has reported obligations of about $1 billion for its 
Commander's Emergency Response Program (CERP), which enables commanders 
to respond to urgent humanitarian and reconstruction needs. As troop 
levels increase, DOD officials expect the program to expand. Although 
DOD has used CERP to fund projects that it believes significantly 
benefit the Afghan people, it faces significant challenges in providing 
adequate management and oversight because of an insufficient number of 
trained personnel. GAO has frequently reported that inadequate numbers 
of management and oversight personnel hinders DOD's use of contractors 
in contingency operations. . . . DOD has not conducted an overall 
workforce assessment to identify how many personnel are needed to 
effectively execute CERP. Rather, individual commanders determine how 
many personnel will manage and execute CERP. Personnel at all levels, 
including headquarters and unit personnel that GAO interviewed after 
they returned from Afghanistan or who were in Afghanistan in November 
2008, expressed a need for more personnel to perform CERP program 
management and oversight functions.'' Do you agree with the GAO 
assessment? What are your plans to address this lack of trained 
personnel?
    Secretary Gates. The Department of Defense partially concurred with 
the GAO recommendation to require U.S. Central Command to evaluate 
workforce requirements and ensure adequate staff to administer the 
Commander's Emergency Response Program (CERP). Since the visit of the 
GAO assessment team, the Department has added personnel to manage the 
program full-time. The Department also acknowledged the need to train 
personnel administering the CERP program. U.S. Forces-Afghanistan has 
begun work on implementing instructions to enhance selection processes 
and training programs for personnel administering the program and 
handling funding. The Department will monitor the situation closely and 
make adjustments as required. Additionally, the Army has developed CERP 
training in support of pre-deployment for units and is also putting 
this training into their school systems.

                                 ______
                                 
                     QUESTIONS SUBMITTED BY MR. NYE

    Mr. Nye. Secretary Gates, the ``Overview of the DOD Fiscal 2010 
Budget Proposal'' issued by the Department on May 7, included the 
following statement:
    ``This budget acknowledges that every taxpayer dollar spent to 
over-insure against a remote or diminishing risk is a dollar that is 
not available to care for America's service men and women, to reset the 
force, to win the wars the Nation is in, or to improve capabilities in 
areas where the U.S. is underinvested and potentially vulnerable.''
    In addition, you recently commented before the Air War College 
that, ``These recommendations are less about budget numbers than they 
are about how the U.S. military thinks about and prepares for the 
future. Fundamentally, the proposals are about how we think about the 
nature of warfare. About how we take care of our people. About how we 
institutionalize support for the warfighter for the long term. About 
the role of the services, how we can buy weapons as jointly as we 
fight. About reforming our requirements and acquisition processes.''
    Moreover, the Navy currently has more than $5 billion in unfunded 
requirements including:

    <bullet>  $4.6 billion Navy unfunded ship priorities for FY2009

    <bullet>  $800 million in unfunded military construction and 
restoration projects at its four existing nuclear-capable shipyards

        <all>  Pearl Harbor Naval Shipyard: $183 million

        <all>  Puget Sound Naval Shipyard: $208 million

        <all>  Portsmouth Naval Shipyard: $176 million

        <all>  Norfolk Naval Shipyard: $224 million

    <bullet>  $417+ million surface ship maintenance shortfall (FY09)

        <all>  This number has been reported in the news to have 
        doubled. The Navy has yet to confirm this.

    In addition, I recently read a disturbing article related to ship 
maintenance and repair shortfalls. This article was particularly 
disturbing considering I recently questioned CNO Admiral Roughead, at 
the annual Navy Posture Hearing in the House Armed Services Committee, 
who assured me the Navy was taking care of all ship repair and 
maintenance issues. I submitted the article below for the record and 
look forward to your response.

        Cash-Strapped Navy Puts Hold on Transfers, Goodwill Visits By 
        Ships $930 Million Funding Backlog May Affect Service`s 
        Readiness

        (Honolulu Advertiser, May 17, 2009)

        A cash-strapped Navy has halted 14,000 duty station moves and 
        is reducing by one-third the sailing time of non-deployed ships 
        and cutting back on aviation flight hours and ship visits to 
        U.S. cities to counter a $930 million ship repair and manpower 
        budget shortfall, officials said. That funding backlog is being 
        addressed by Congress; Sen. Daniel K Inouye, chairman of the 
        Senate Appropriations Committee, on Thursday added $190 million 
        to a defense supplemental bill.

        The mid-year funds are intended to pay for repairs to the Pearl 
        Harbor-based cruiser Port Royal, which ran aground in February 
        off Honolulu airport, as well as to fix the submarine Hartford 
        and amphibious ship New Orleans following their collision in 
        March in the Strait of Hormuz. Inouye also increased Navy 
        personnel funding by $230 million to address a $350 million 
        manpower-cost shortfall, officials said. The Navy expects to 
        recoup about $89 million with the duty station freeze, the Navy 
        Times reported

    In the context of these comments, I was particularly disappointed 
to see that the budget request includes approximately $76 million for 
two construction projects to prepare Naval Station Mayport, Florida to 
become a homeport for a nuclear carrier. I find the inclusion of these 
funds especially troubling for a number of reasons, and would 
appreciate your thoughts in response:
    On April 10, the Department of Defense announced ``that the final 
decision on whether to permanently homeport an aircraft carrier in 
Mayport, Florida will be made during the 2010 Quadrennial Defense 
Review.'' If the homeporting decision is to be made next year, why 
include funds in the budget that effectively implement the decision? In 
comparison, you have chosen to push numerous other decisions into the 
QDR--can you account for the apparently different treatment of this 
one?
    Secretary Gates. MILCON Project P-187, $46M (Channel Dredging) and 
MILCON Project P-777, $30M (Charlie Wharf Repairs) are both programmed 
for FY10 execution. Neither of these projects begin implementation of 
homeporting a CVN in Mayport.
    In May 09, the Chief of Naval Operations testified that ``In FY 
2010, the Department will start preparations to make Mayport capable of 
hosting a nuclear-powered aircraft carrier. This alternative port will 
provide a safe haven for an aircraft carrier at sea if a man made or 
natural disaster closes the Norfolk Naval Base or the surrounding sea 
approaches.''
    P-777 is a critical recapitalization project on the Ammunition 
Handling Wharf C and does not provide any capability to support CVNs. 
Wharf C is the primary ammunition loading wharf for all ship classes 
currently berthed in Mayport. The upgrades to the wharf will make it 
possible to efficiently and safely conduct ammunition on-loads for all 
ship types, including large deck amphibious ships such as the LHD and 
LHA classes.
    For Naval Station Mayport to be capable of providing a safe haven 
for CVN class ships, dredging is required to provide the ability to 
berth and maneuver without draft or tide restrictions. At present, CVNs 
can only enter Mayport during high tide and without the air wing and 
normal stores on board. In order to accommodate unrestricted access of 
a CVN, a depth of 50, must be provided in accordance with direction 
from the Program Executive Officer, Aircraft Carriers. MILCON Project 
P-187, $46M (Channel Dredging) is programmed for FY10 execution and 
will dredge the turning basin, entrance channel, and federal channel to 
the required 50,.
    Both P-777 and P-187 are critical projects for Naval Station 
Mayport missions irrespective of the Homeporting decision.
    Mr. Nye. I recently received a letter from SECNAV B.J. Penn, which 
stated that the sole reason for requesting $76 million for dredging and 
pierwork at Mayport was to port a CVN in case of natural or manmade 
disaster at NAVSTA Norfolk. And Mr. Penn recently stated--during 
questioning in front of the Armed Services Committee on the Navy's 
Budget proposal--that in the event of an emergency a CVN would be 
docked at any available port, including an existing civilian port with 
sufficient draft depth. If this is the case, why is the Administration 
requesting $76 million for dredging and pier-work at Mayport if they 
can already dock a CVN at a civilian port? Please explain if the 
Department considered the use of existing civilian ports for temporary 
emergency purposes instead of making an enormous financial and 
environmental impact at Mayport?
    Secretary Gates. In the event of an emergency, civilian port 
facilities will likely be in high demand from both commercial and 
military shipping. The Navy would need assurance that it will be able 
to berth ships for ammunition loading and maintenance to retain 
operational capability. Berthing a CVN requires a port that is 
accessible and free of restrictions to CVN operations, such as liquid 
loading and aircraft loading in addition to force protection 
requirements which are standard at naval ports. The short list of East 
Coast commercial ports and their berthing capabilities and restrictions 
is classified, and can be provided via the appropriate channels. It is 
important to note that these ports cannot provide nuclear maintenance 
facilities and lack many facilities required to support operational 
requirements.
    Mayport could support operational requirements and is only limited 
by the lack of nuclear maintenance capability. The only existing CVN 
capable facilities that can provide nuclear maintenance are in the 
Hampton Roads area.
    Dredging in Mayport (at a cost of $46M in FY10) would provide a 
military port on the Atlantic Coast in which the U.S. Navy can be 
assured CVN berthing capability, can provide adequate levels of force 
protection, and can conduct maintenance with the advantage of not 
disrupting civilian port loading schedules in the event that Hampton 
Roads facilities are incapacitated. This would ensure that the U.S. 
Navy can maintain a level of operational capability in the event that a 
CVN would need to temporarily berth outside of the Hampton Roads area.
    The remaining $30M for pier work in Mayport is for upgrades to 
Wharf C. Wharf C is the primary ammunition loading wharf for the 21 
ships berthed in Mayport and is degraded. The upgrades to the wharf 
will make it possible to conduct ammunition onloads for all types of 
ships including large deck amphibious ships such as the LHD and LHA 
classes.
    Mr. Nye. For example, Baltimore, Maryland, Mobile, Alabama, and 
several other ports have channels that are deeper than the existing 
channel to Mayport, so using them may require fewer MILCON dollars and 
result in fewer environmental impacts. Wouldn't it make more sense to 
deepen channels and strengthen piers at civilian ports that would see a 
long-term commercial and economic benefit from the work, such as Corpus 
Christi, Texas or Mobile, Alabama instead of at Mayport, where no 
additional commercial shipping traffic would result if the channel were 
deepened due to its location on the river? That way, if the QDR 
determined that Mayport should not become a nuclear carrier homeport, 
the funds would have been put to a use that benefits the economy and 
the commercial shipping activities of our Nation, rather than digging a 
50 foot ``trench to nowhere''. Considering that the decision to 
homeport a carrier at Mayport has been deferred, why does the Navy's 
justification book clearly indicate that future projects at Mayport 
include a Controlled Industrial Facility, Ship Maintenance Support 
Facilities, and other construction projects that would only be 
necessary if a carrier is homeported at Mayport? Are you aware that the 
Navy has programmed these projects in their future budget plans? If so, 
please explain the disconnect between the apparent budget planning and 
decision deferral. It seems to me that the $76 million is an effort to 
continue the effort to homeport a CVN at NAVSTA.
    Secretary Gates. The use of commercial facilities after a disaster 
will likely be in high demand and cannot be guaranteed to support Navy 
requirements. Additionally, these facilities would likely need other 
upgrades in addition to dredging and pier strengthening to support a 
CVN. Naval Station Mayport provides the force protection requirements 
and the weapons handling ability which are not readily available at 
commercial facilities. The Navy has evaluated all MILCON requirements 
to possibly homeport a nuclear powered carrier at Naval Station Mayport 
and determined the above listed projects would be required to support 
this effort. Following the QDR review of the Navy's decision to 
homeport a nuclear powered carrier at Naval Station Mayport, the Navy 
is prepared to program these requirements in future budgets if 
required.
    Mr. Nye. The dredging project included in the request indicates 
that work would be completed by January 2011. Considering that the 
environmental impact analysis conducted by the Navy indicated that the 
port would become a carrier homeport in 2014, does it make sense to 
make this investment three years ahead of time?
    Secretary Gates. Yes, it does. The Navy currently does not have a 
CVN-capable facility on the East Coast other than Hampton Roads. By 
upgrading NAVSTA Mayport, the Navy will have a second military port in 
which a CVN can berth in case of any emergency or if a catastrophic 
event occurs in the Hampton Roads area. One of these upgrades is 
dredging the turning basin, entrance channel and federal channel to a 
depth of 50 feet. Additionally, there are certain facilities available 
at NAVSTA Mayport that could be used to maintain a certain level of 
operational capability for a CVN and ensure the Navy would be able to 
meet its Title 10 requirements. The dredging project is critical to 
supporting CVN operations, irrespective of the QDR 2010 Homeporting 
decision.
    The Navy has at least three CVN capable ports on the West coast and 
should not wait until 2014 to have a second CVN-capable port on the 
East Coast which can serve as an alternative safe haven.
    Mr. Nye. Secretary Gates, we have received numerous indications 
from within the Department of the Navy that the service intends to 
utilize the QDR to justify the homeporting of a nuclear carrier at 
Mayport. Needless to say, these are troubling reports that raise 
proverbial ``cart before the horse''-type questions about the QDR 
process and whether the review is driving strategy decisions or if 
desired strategic outcomes are driving the QDR. Given the force 
structure, strategic impacts, costs to taxpayers, and environmental 
consequences of the Mayport homeporting decision, will you commit to 
personally ensuring that the QDR is not used to justify a predetermined 
Mayport homeporting decision and that the homeporting decision is made 
upon a rational evaluation of risk, benefit, and strategic 
requirements?
    Secretary Gates. As I stated in my press release on April 10, 2009, 
the QDR will assess the need for carrier strategic dispersal in the 
broad context of future threats, future Navy force structure, and 
likely cost effectiveness. The DOD will carefully review these 
potential costs and will assess the potential benefits associated with 
an additional homeport on the East Coast before committing to any 
future direction.
    Mr. Nye. As the Department's budget overview notes, every taxpayer 
dollar spent to over-insure against a remote or diminishing risk is a 
dollar that is not available to care for America's service men and 
women, to reset the force, to win the wars the Nation is in, or to 
improve capabilities in areas where the U.S. is underinvested and 
potentially vulnerable. Please explain why the $76 million included in 
the budget request for these projects is not ``over-insuring against a 
remote risk''.
    Secretary Gates. The $76 million included in the current budget 
request is not being used for insurance against a remote or diminished 
risk. This money is intended to be used to address deteriorating 
conditions and limiting factors which prevent the full execution of 
current naval assets and the most effective use of Naval Station 
Mayport. These improvements are unrelated to a decision to make Mayport 
a homeport for a nuclear aircraft carrier.
    The $76 million is to establish for two different projects. First, 
$46 million will be used to dredge the turning basin, entrance channel 
and federal channel to the required 50 feet to allow access for a 
nuclear-powered aircraft carrier (CVN). The requirement for dredging 
the Mayport channel and turning basis will remain regardless of the 
outcome of the carrier homeport decision. Navy CVNs currently make use 
of Mayport in normal operations. However, the water depth at Mayport 
places serious restrictions on these operations. CVNs can only enter 
Mayport during high tide and without the air wing and normal stores on 
board. The dredging at Mayport is designed to remove these restrictions 
as soon as possible.
    Second, the remaining $30 million will fund Charlie Wharf repairs. 
Charlie Wharf is Mayport's primary weapons loading wharf. It is also 
the primary wharf for berthing visiting big decks (including carriers, 
amphibs, and ammo ships). Mayport has 21 homeported ships and regularly 
supports ten or more visiting ships, which requires all the berthing 
areas available. Charlie Wharf has an old and deteriorating bulkhead, 
which has lost 75% of its thickness in places and immediate repairs are 
needed. Load limits are in place on certain areas of the wharf which 
impact the ability to perform missions. Upgrading this wharf is 
necessary whether or not the Navy plans to berth a CVN in Mayport.
    Mr. Nye. In testimony before this committee, Admiral Stavridis, 
commander of U.S. Southern Command, testified that he had no role in 
making the Mayport homeporting decision. Based upon the Secretary of 
Defense's actions, there is a commitment to reform of our military 
requirements processes, jointness, institutionalizing support for the 
warfighter, and ensuring that our combatant commanders have input into 
critical decisions. In this case, many of us believe that the 
homeporting of smaller ship assets at Mayport would better support 
SOUTHCOM's regional engagements than an aircraft carrier. Will you 
commit to ensuring that the combatant commanders have a role in the 
carrier homeporting decision making process?
    Secretary Gates. Yes. All Combatant Commands (COCOMs) have the 
opportunity to influence Service-led decisions, such as the decision to 
homeport a carrier in Mayport. Venues for influence vary and range from 
submitting an Integrated Priority List (IPL) to quarterly Defense 
Senior Leadership Conferences, which are chaired by Secretary of 
Defense and include all COCOMs, Joint Chiefs of Staff, and various 
other key members. COCOM requirements for all assets are usually 
addressed through the Global Force Management Process, which balances 
requirements against resources. We are continuing to study this 
decision with the Services and COCOMs through the Quadrennial Defense 
Review.

                                  <all>

</pre></body></html>
